<html>
<title> - ALASKA NATIVE ALLOTMENT SUBDIVISION ACT; ALASKA LAND TRANSFER FACILITIES ACT; OJITO WILDERNESS ACT; AND INVENTORY AND MANAGEMENT PROGRAM FOR PUBLIC DOMAIN LANDS</title>
<body><pre>[Senate Hearing 108-416]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-416
     ALASKA NATIVE ALLOTMENT SUBDIVISION ACT; ALASKA LAND TRANSFER 
  FACILITIES ACT; OJITO WILDERNESS ACT; AND INVENTORY AND MANAGEMENT 
                    PROGRAM FOR PUBLIC DOMAIN LANDS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 1421                               S. 1649

                           S. 1466                               S. 1910




                               __________

                           FEBRUARY 12, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

93-010              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairmaa

GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                 Dick Bouts, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     6
Clarke, Kathleen, Director, Bureau of Land Management, Department 
  of the Interior; accompanied by Henri Bisson, Alaska State 
  Director, BLM; and Linda Rundell, New Mexico State Director, 
  BLM............................................................     7
Heath, Russell, Executive Director, Southeast Alaska Conservation 
  Council, Juneau, AK............................................    48
Heinrich, Martin, City Councilor, Albuquerque, NM................    27
Hession, Jack, Alaska Representative, Sierra Club, Anchorage, AK.    53
Mery, James, Senior Vice President for Lands and Natural 
  Resources, Doyon, Limited, Fairbanks, AK.......................    45
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     2
Pino, Peter M., Governor, Pueblo of Zia, Zia Pueblo, NM..........    23
Rutherford, Marty, Deputy Commissioner, Alaska Department of 
  Natural Resources, Anchorage, AK...............................    31
Stevens, Hon. Ted, U.S. Senator from Alaska......................     2
Thomas, Edward K., President, Central Council Tlingit and Haida 
  Indian Tribes of Alaska, Juneau, AK............................    33
Wyden, Hon. Ron, U.S. Senator from Oregon........................     1

                                APPENDIX

Additional material submitted for the record.....................    69

 
     ALASKA NATIVE ALLOTMENT SUBDIVISION ACT; ALASKA LAND TRANSFER 
  FACILITIES ACT; OJITO WILDERNESS ACT; AND INVENTORY AND MANAGEMENT 
                    PROGRAM FOR PUBLIC DOMAIN LANDS

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2004

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski presiding.

       OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. The Subcommittee on Public Lands and Forests 
will come to order.
    First, as a result of the graciousness of Senator 
Murkowski--and I very much appreciate her indulgence on this--
we are going to break with our practice. As the ranking 
minority member, I traditionally follow Senator Craig, the 
chair of the subcommittee, but as a result of the graciousness 
of Senator Murkowski and the graciousness of Senator Craig, I 
am going to be beginning the hearing and we anticipate our 
colleagues coming very shortly.
    Today, we are going to be looking at a number of bills, and 
one of special importance to the people of Oregon is S. 1910. 
This is a piece of legislation that is supported by the 
administration. The Department of Agriculture will be 
testifying to that effect. It would establish a forest health 
research center in Prineville, Oregon. This is a center that 
would help reduce wildfire risks throughout the West and 
provide a much-needed boost for the local economy.
    I am going to submit for the record, with unanimous 
consent, the testimony and views of Judge Scott Cooper, one of 
the central Oregon Crook County Commissioners, as well as the 
Prineville Crook County Chamber of Commerce.
    This is legislation that I worked to make part of the 
Healthy Forests Restoration Act and it was originally included, 
but at the last minute, it was dropped from the legislation, 
although a companion research facility meant to address eastern 
hardwood forests was retained.
    The point of this legislation is to ensure that there is a 
facility to carry out a major requirement of the Healthy 
Forests Restoration Act to inventory and assess forest stands 
on Federal forest land and with the consent of owners on 
private forest land. The objectives of the assessment are to 
evaluate forest health conditions now and in the future and to 
consider the ecological impacts of insect, disease, invasive 
species, fire- and weather-related events. The center will work 
to make sure data is as accurate as possible in order to 
improve forest management.
    I am very pleased that the chair of the subcommittee has 
returned. Senator Murkowski has joined us and as a result of 
Senator Murkowski's very gracious staff, I have been allowed to 
actually open this hearing.
    Let me again express my thanks to you, Madam Chair, and 
your staff for breaking with precedent. Over the years we have 
always worked in a bipartisan kind of fashion, but you have 
sort of set a new standard today by letting me begin. I am very 
appreciative. I will return to the gavel to you.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you Senator Wyden. I am glad that 
had an opportunity to put some of your comments on the record. 
So most appreciated.
    Well, good afternoon.
    The subcommittee chairman of the Public Lands and Forests 
Subcommittee, Senator Craig, is unable to join us this 
afternoon. He has asked that I chair today's hearing, which I 
am pleased to do.
    We are expecting Senator Bingaman to join us this 
afternoon. Senator Bingaman I understand and certainly myself 
have some opening statements. I understand that you, Senator 
Stevens, are on a bit of a tight schedule though and we would 
like to accommodate that. We will take your testimony first and 
if you need to leave after that, before we convene our 
panelists, that is fine. We appreciate you joining us, and if 
you would like to begin with your comments on the legislation 
before us this afternoon.

          STATEMENT OF HON. TED STEVENS, U.S. SENATOR 
                          FROM ALASKA

    Senator Stevens. Well, thank you very much, Madam Chairman. 
I am pleased to be here today to voice my support for your 
bill, S. 1466, the Alaska Land Acceleration Act.
    In 1958, Congress enacted the Alaska Statehood Act. This 
act granted the State over 103 million acres of land, an area 
roughly equal in size to the State of California. These lands 
were to serve as the basis for Alaska's economic and cultural 
development. 45 years later, our State is still waiting for the 
transfer of 15 million acres and for title to over 60 million 
additional acres. Combined, the land we have not yet received 
is equal to the acreage of the State of New Mexico.
    In 1971, Congress also passed the Alaska Native Claims 
Settlement Act, which we call ANCSA, which granted 44 million 
acres to Alaska Natives. 32 years later, they too are still 
awaiting the transfer of over 10 million acres and title to 
millions of acres more. In addition, thousands of Alaska Native 
allottees are awaiting final approval of their native 
allotments.
    The pace of the land conveyance program has had a chilling 
effect on the development of our State, as you know.
    One of the concerns prior to the passage of the Statehood 
Act was whether or not Alaska would be able to support its 
government and its communities across the great expanse of our 
State. To address this concern, Congress included a land grant 
in the act to provide the State with an economic base and it 
actually accelerated, it was thought, the availability of land 
to Alaska. Other States got sections 16 and 36 out of every 
township. We had the right to select in contiguous blocks up to 
103.5 million acres.
    Now, because the conveyance process is not yet completed, 
the promise of providing that economic base has not been 
fulfilled. Not only has the slow pace of land conveyance taken 
an economic toll on the State, it has taken a personal one as 
well.
    I remember well a constituent of ours, Tegliana Melilak, 
who wrote to me in the early 1980's asking for my assistance in 
her native allotment case. She had submitted an application for 
a native allotment to BIA, which back then handled native 
allotments. Tegliana was sick and she wanted to make sure that 
the allotment was conveyed to her before she died. She wanted 
to have a part of her heritage to pass along to her children.
    I agreed to look into the situation and I requested that 
BIA provide me with an estimate of how long it would take to 
process that claim. BIA responded very matter of factly that 
they should be able to process Tegliana's application in about 
70 years. 70 years. Imagine how difficult it was to tell her 
that the best the Federal Government could do was to promise 
that some day they would get around to conveying the land to 
her children or her grandchildren.
    Obviously, I could not and did not accept that as the only 
option, and that is why for years I have asked Congress to 
increase the funding for land conveyance. The program has been 
funded rather substantially.
    But it became increasingly clear that simply increasing 
funding for the program was not enough. Changes in the law will 
also have to be made to ensure that the conveyance program is 
completed in my lifetime. This bill will do that, I hope. It 
will ensure that the timely settlement of Alaska's claims by 
streamlining the process by which the land is conveyed. It 
accelerates conveyances to the State of Alaska and the native 
corporations, finalizes pending native allotments, and 
completes the University of Alaska's remaining land 
entitlement.
    The people of our State have waited a long time, far too 
long, for the Federal Government to transfer ownership of land 
that rightly belongs to the State of Alaska and to Alaskans. 
Resolving these claims by 2009 is vitally important for the 
future of Alaska because it will enable Alaskans to efficiently 
manage their lands and allow our citizens the opportunity for a 
meaningful economic development.
    This date is also important because it is the 50th 
anniversary of our Statehood. Surely Congress and the Federal 
Government will be able to see to it that they can finalize a 
land grant enacted to give us an economic base almost 50 years 
ago.
    I want to thank you, Senator Murkowski, for taking the 
initiative to find a way to see to it that the promise made to 
our people in Alaska will be finally fulfilled, and I would 
urge all Senators to favorably report this bill out of this 
committee and help facilitate its passage.
    We went to great lengths to set aside these lands. We had a 
long battle for 7 years. The lands the Federal Government 
wanted to reserve, ANILCA, the law that sets aside over 100 
million acres of our land that cannot be available either to 
the State or the natives. After that was done, I thought we 
would get our lands. But it simply has not happened.
    I do not want to see future generations of Alaskans suffer 
as Tegliana did. A few years after she contacted my office, we 
were successful in having her native allotment conveyed to her. 
We did get a bill passed to do that. Unfortunately, she had 
passed away and was not able to see her dream of passing land 
over to her children fulfilled.
    I think Alaskans have the right to this land and they have 
the right to pass their heritage on to succeeding generations, 
and I ask you to do everything you can--and I will join you--to 
assure that the Alaska land conveyance will be a dream 
fulfilled and not a dream continually deferred.
    Thank you very much.
    Senator Murkowski. Thank you, Senator Stevens. I certainly 
appreciate your testimony and all that you have done over the 
years to get us to the point where we are. We recognize that we 
have got a long way to go, but we do know that we have made 
progress, and for that, we thank you.
    I will go ahead and make my opening statement today. I'd 
like to give those that are here a little bit of a background 
on what the committee has before it today. We will be hearing 
testimony on four bills: S. 1421, which is the Alaska Native 
Allotment Subdivision Act; S. 1466, the Alaska Land Transfer 
Facilitation Act; S. 1649, the Ojito Wilderness Act in New 
Mexico; and S. 1910, a bill to direct the Secretary of 
Agriculture to carry out an inventory and management program 
for forests on public domain.
    I would like to welcome each of the witnesses who have 
traveled here to Washington, D.C. I know that coming to 
Washington this time of year is not exactly the choice trip to 
make. I suppose the good news is you are here this week and not 
last week so we can actually have this hearing.
    I would like to welcome back to our committee, BLM Director 
Kathleen Clarke. Welcome to you.
    From Alaska, I would like to recognize deputy commissioner 
Marty Rutherford with the Alaska Department of Natural 
Resources in Anchorage; Mr. Edward Thomas, president of the 
Central Council of the Tlingit and Haida Indian Tribes of 
Alaska in Juneau; Mr. Jim Mery, senior vice president for Lands 
and Natural Resources with Doyon, Limited in Fairbanks; Mr. 
Russell Heath, executive director of the Southeast Alaska 
Conservation Council in Juneau; and Mr. Jack Hession, Alaska 
Representative for the Sierra Club.
    I know that Senator Bingaman had hoped to be here to 
introduce those of his constituents who are here from New 
Mexico. Since he is not here, I would like to recognize 
Governor Peter Pino, the Pueblo of Zia in New Mexico; and Mr. 
Martin Heinrich of Albuquerque, New Mexico.
    In addition to Kathleen Clarke, we have Henri Bisson, the 
Alaska State Director of the BLM, and Linda Rundell, the New 
Mexico State Director of the BLM. We welcome you all.
    It gives me great satisfaction that on today's agenda we 
have two very important Alaska bills. These bills address two 
different but very pressing needs in Alaska, as Senator Stevens 
articulated very well. We held a subcommittee field hearing in 
Anchorage last August where we heard the first round of 
testimony on this legislation. For S. 1466, the Alaska Land 
Transfer Facilitation Act, this field hearing really did give 
us a better understanding of a relatively complicated bill that 
has led to much discussion across the State and a rework of the 
original bill language. I think that there has been good 
collaboration and considerable progress on improving this bill. 
I know that a lot of people have worked very, very hard to 
achieve some of the compromise and really the reworked 
legislation. But there is more to be done and I do hope that we 
will continue in this cooperative spirit.
    Under the Statehood Act, Alaska was promised 104 million 
acres of land and to date has received final title to only 42 
million acres. Additionally, in 1971, the native corporations 
were promised 42 million acres of land and have received title 
to only a third of that land, just 15 million acres. In 1906, 
Congress passed the Alaska Native Allotment Act that provided 
natives the opportunity to acquire an allotment of up to 160 
acres and yet unprocessed applications still number in the 
thousands. I think it is about 2,500.
    It has been 45 years since Alaska's Statehood, 33 years 
since the passage of ANCSA and the repeal of the Allotment Act, 
and yet under current law procedures, we are at least 20 years 
from seeing these conveyances complete.
    Now, I circled that 20-year figure because I have heard 
conflicting figures. At one testimony in Anchorage, I heard 85 
years. In Ms. Rutherford's written comments before the hearing 
today, I see a reference to 300 years before the State lands 
can be transferred. Any way you cut it, it is far too long, 
whether it is 20 years, 85 or, God forbid, 300.
    It is past time that Congress take action to streamline the 
process and build some flexibility into administrative 
authority so we can get this job done before the end of the 
decade. This bill would streamline administrative processes 
that will expedite transfer of millions of acres of land to 
Alaska Natives, the State of Alaska, and to native 
corporations, and will bring finality to this decades-long 
conveyance process.
    The Federal Government has management jurisdiction of over 
63 percent of the State. It is long past time to transfer these 
public lands from Federal Government control to State and 
private ownership.
    Now, the second bill I would like to speak to is S. 1421, 
the Alaska Native Allotment Subdivision Act. This act is the 
only answer to resolving the question of whether native 
landholders have the authority to subdivide their own property.
    Individual Alaska Native landowners cannot subdivide their 
land to transfer it either by gift or sale. There is no current 
authority that allows them to dedicate rights-of-way across 
their land for public access or for utility purposes. The lack 
of this explicit statutory authority calls into question the 
legal validity of lands that have been subdivided and lands 
that likely could be subdivided in the future.
    This legislation will provide the necessary authorization 
to the Department of the Interior and native landowners to 
dedicate their land for public purposes as they see fit. This 
legislation is noncontroversial and is beneficial to all 
affected parties and to the general public. The State of Alaska 
and local governments have urged such legislation, and the 
Department of the Interior is also supportive. I hope that we 
will be able to move this bill quickly through the committee.
    Senator Bingaman, you are right on time. I would now like 
to give you an opportunity to make any opening remarks you 
have. I have made a general introduction, but if you would like 
to recognize those who have come all the way from New Mexico, 
that would be appropriate.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Well, thank you very much, Madam 
Chairwoman.
    I am very pleased that you called this hearing, and I am 
here particularly because of S. 1649, which is legislation that 
I introduced to designate 11,000 acres of land administered by 
the BLM as wilderness in our State. This is the first BLM 
wilderness that we would have designated in over 15 years. 
Although the issue of wilderness is usually contentious, at 
least before I got to this hearing today, I had thought this 
was a largely noncontroversial proposal. It has the strong 
support of the State of New Mexico, the Governor, the county of 
Sandoval, the county of Bernalillo. Senator Domenici is a co-
sponsor. Congressman Udall has introduced a companion measure 
in the House of Representatives.
    This Ojito Wilderness is currently a designated wilderness 
study area, and the proposal follows recommendations made by 
the BLM and by former President Bush when he was in office in 
1991. The proposed wilderness is adjacent to the Zia Pueblo's 
lands, and Governor Pino is here to represent the Zia's 
perspective on this. They have been very supportive of trying 
to move ahead with this, which I very much appreciate.
    The other purpose of S. 1649 is to authorize the sale of 
certain BLM lands to the Pueblo. The lands that would be 
conveyed to the Pueblo have high religious and cultural 
significance, and with assurances in the bill that the Pueblo 
will allow continued public use of those lands, it had been my 
belief--and it still is--that this conveyance would be 
noncontroversial as well.
    I was surprised to see the administration's testimony that 
we have just received that the Interior Department apparently 
wants to use this bill to develop an entire new policy on 
tribal trust issues. Obviously, that is of concern to me. I am 
not averse to relooking at tribal trust issues, but I do think 
that this particular bill is one which has strong support and I 
hope very much we can move ahead with it.
    Two of the witnesses that are testifying this afternoon are 
from New Mexico. I mentioned Governor Peter Pino from Zia 
Pueblo. Also Martin Heinrich, who is a member of the 
Albuquerque City Council, is here, and we appreciate his 
presence and support very much.
    Madam Chairwoman, I am unfortunately in a hearing with the 
Secretary of the Treasury right down the hall and I need to try 
to return there to ask him a few questions. I will try to get 
back this afternoon. But I very much appreciate you having the 
hearing, and to the extent I cannot ask my questions, I will 
submit them. Thank you.
    Senator Murkowski. You are very welcome. And, Senator, 
right now we have the New Mexico panel that will come up after 
Kathleen Clarke has spoken. If it would help you, we could 
always send somebody down to let you know when they will be 
coming up.
    Senator Bingaman. I wish you would do that, and by then I 
hope I will be free to come back. Thank you.
    Senator Murkowski. Very good. We will give you notice then. 
Thank you.
    I would now like to invite our first witness. We will allow 
each witness 5 minutes to summarize their testimony. Your 
written and oral statements will be made a part of the official 
record of the hearing and any supplemental material will need 
to be submitted no later than 10 calendar days from today.
    So, Director Clarke, if you would lead us off this 
afternoon. Thank you and welcome to the committee.

    STATEMENT OF KATHLEEN CLARKE, DIRECTOR, BUREAU OF LAND 
 MANAGEMENT, DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY HENRI 
  BISSON, ALASKA STATE DIRECTOR, BLM; AND LINDA RUNDELL, NEW 
                   MEXICO STATE DIRECTOR, BLM

    Ms. Clarke. I really appreciate this opportunity, Senator 
Murkowski. This is my first visit back to this committee room 
since I was confirmed, so it is a pleasure to join you again. I 
appreciate the fact it is to speak to some very important 
legislation and welcome this opportunity.
    I am here to present the views of the Department of the 
Interior on S. 1466, the Alaska Land Transfer Acceleration Act; 
S. 1421, the Alaska Native Allotment Subdivision Act; and S. 
1649, the Ojito Wilderness Act.
    I am grateful to be accompanied by two State Directors, 
Henri Bisson from Alaska and Linda Rundell from New Mexico, who 
have proven to be great leaders in their new assignments.
    In the interest of time, I will summarize my written 
remarks that have been submitted for the record.
    The Department supports the intent of the two Alaska 
measures and we have done so since the August field hearing on 
the bills in Anchorage. We would like to continue to work with 
the committee to make certain that amendments to clarify and 
strengthen the bills are considered and look forward to that 
opportunity.
    The Bureau of Land Management in Alaska manages the largest 
land conveyance program in the United States, one that requires 
the survey and conveyance of nearly 150 million acres of 
Alaska's 365 million acre land base. The Alaska land transfer 
laws include the Native Allotment Act of 1906; the Alaska 
Native Claims Settlement Act, known as ANCSA; and the Alaska 
Statehood Act. The BLM in Alaska has worked diligently for the 
last 30 years to implement these interconnected and very 
complex laws. However, the pace of land conveyances has been 
slow and I would like to explain some of the reasons.
    The three major land transfer laws have been amended, 
superseded, reinterpreted by the judiciary many times, 
requiring BLM to reassess, review, and re-sort land title 
claims to make certain that its actions are appropriate to new 
determinations made by the court. The BLM's adjudication and 
survey of land title claims is complicated, both operationally 
due to remote location and extreme weather in Alaska and 
administratively due to complex case law and process required 
for transferring lands from Federal ownership to other parties.
    Alaska Natives, State officials, and the Alaska delegation 
have all expressed concern about the pace of these land 
transfers, and Henri and I have had numerous discussions about 
the problems and the pace of this program.
    The Department shares an interest in completing the Alaska 
land transfers in an expeditious manner. In fact, the BLM has 
extensively analyzed the land transfer program to identify ways 
to streamline the process and expedite conveyances.
    In 1999, working in partnership with its customers and 
stakeholders, the BLM developed a plan that would result in the 
completion of land transfer work by 2020. That still seems like 
a long way out.
    Responding to the 2003 congressional directive and in an 
effort to further expedite conveyances, BLM officials met with 
staff from the Alaska congressional delegation, native 
entities, environmental groups, industry, the State, and other 
Federal agencies to discuss ideas to get feedback on 
improvement to the land transfer process.
    S. 1466 was introduced as a legislative solution to resolve 
many of the challenges that we face. This bill will expedite 
adjudication and conveyance of Alaska land claims and the 
Department of the Interior supports this bill.
    S. 1421, meanwhile, would authorize the Alaska Native 
owners of restricted allotments, subject to the approval of the 
Secretary, to subdivide their lands in accordance with State 
and local laws.
    Enactment of S. 1421 would remove the obstacles to pending 
lot sales and resales in subdivisions and the Department of the 
Interior certainly supports the intent of this bill as well.
    I regret that Senator Bingaman had to leave, but I will go 
ahead and enter my brief comments relative to the Ojito bill.
    The Department supports the designation of the entire 
10,794 acres of Ojito WSA as wilderness. We would like the 
opportunity to work with Senators Bingaman and Domenici, as 
well as this committee's staff, to address both substantive and 
technical issues within the wilderness section.
    While the administration is very sensitive to the goals of 
the Pueblo of Zia to consolidate its landholdings and to 
protect sites of religious and cultural significance, there are 
several issues that have arisen relative to the transfer of 
BLM-managed lands into trust status for the Pueblo of Zia, and 
these remain unresolved. We certainly are willing to work with 
the Senators and the committee to see how we might address 
those issues.
    To be a little bit more specific, the Secretary's trust 
responsibility that Senator Bingaman alluded to is a 
responsibility to manage the land should be addressed with 
clarity and precision. Much of the controversy that we have 
faced in recent years at the Department of the Interior 
regarding the Secretary's trust responsibility stems from the 
failure to have clear guidance about the roles and 
responsibilities of trustee and beneficiary. Congress should 
decide these issues, not the courts.
    Accordingly, we recommend that the committee amend the bill 
to set forth the specific trust duties it wishes the United 
States to assume with respect to the acquisition of these 
lands.
    While the legislation as introduced does not reference the 
acres to be transferred, it is our understanding that the 
Pueblo seeks to acquire approximately 11,500 acres of public 
land. We are concerned that several of the bill's provisions 
may be insufficient to protect the public interest. Although 
section 5(a) of the bill makes the transfer subject to valid 
existing rights, and section 5(f) addresses the rights-of-way, 
the effect of these provisions to ensure continued access may 
be limited.
    The BLM is concerned about preserving access to and on six 
roads crossing current BLM-managed lands. We believe the public 
interest would be better served by amending the legislation to 
grant the BLM a permanent easement for the corridors of land 
underlying these roads.
    But as I stated, we would look forward to working with the 
sponsors of the legislation and the committee to address these 
concerns and to explore ways that we can resolve them.
    Finally, on behalf of the administration, I have submitted 
for the record a copy of Forest Service testimony on S. 1910. 
The Forest Service has asked that if there are questions 
related to this bill, that they be submitted in writing.
    [The prepared statement of the U.S. Forest Service 
follows:]

       Statement of the Forest Service, Department of Agriculture

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to present the Department of Agriculture's views on S. 
1910, a bill to direct the Secretary of Agriculture to carry out an 
inventory and management program for forests derived from public domain 
land with the purpose of providing long-term solutions to forest health 
issues. The Department of Agriculture supports S. 1910.
    On December 3, 2003, President Bush signed into law the Healthy 
Forests Restoration Act (HFRA) of 2003 to reduce the threat of 
destructive wildfires while upholding environmental standards and 
encouraging early public input during review and planning processes. 
The legislation is based on sound science and helps further the 
President's Healthy Forests Initiative pledge to care for America's 
forests and rangelands, reduce the risk of catastrophic fire to 
communities, help save the lives of firefighters and citizens, and 
protect threatened and endangered species. The HFRA also authorizes a 
forest stand inventory and monitoring program to improve detection for 
and response to environmental threats on National Forest lands other 
than those NFS lands reserved from the public domain and private lands 
with the owners' consent.
    S. 1910, as introduced, would complement the Healthy Forest 
Restoration Act by authorizing an inventory and management program on 
National Forest lands reserved from the public domain with an emphasis 
on forest stands in the Western United States. The bill would amend the 
Cooperative Forestry Assistance Act of 1978 to direct the Secretary of 
Agriculture to use geospatial and information management technologies 
to inventory, monitor, and identify National Forest System and private 
(with landowner consent) forest stands through the application of 
remote sensing technology of the National Aeronautics and Space 
Administration (NASA) and the United States Geological Survey; emerging 
geospatial capabilities in research activities; field verification to 
validate techniques; and integrating the results into pilot operational 
systems.
    Under the provisions of the S. 1910, the Secretary would address: 
(1) environmental threats (including insect, disease, invasive species, 
fire, acid deposition, and weather-related risks and other episodic 
events); (2) forest degradation, and preventive management practices; 
(3) quantification of carbon uptake rates; and (4) characterization of 
vegetation types, density, fire regimes, and post-fire effects. The 
bill would require the Secretary to develop a comprehensive early 
warning system for potential catastrophic environmental forest threats.
    The Secretary would also designate and maintain a facility in the 
Ochoco National Forest headquarters in Prineville, Oregon, to address 
these issues.
    S. 1910 is important because it recognizes the critical need to 
help identify priorities and monitor progress as implementation of the 
National Fire Plan, the President's Healthy Forests Initiative and the 
Healthy Forest Restoration Act proceeds. Current condition class and 
fire regime maps require updating, and by using remote sensing the 
Forest Service can track changes in condition class over time as 
vegetation changes and projects are implemented on the ground. 
Opportunities exist to work with NASA, other agencies and the 
commercial sector to use state-of-the-art technologies in earth 
observations, from aircraft and spacecraft, and output from predictive 
models to improve the timeliness and accuracy of forest and rangeland 
inventories, monitor changes over time, and detect insect and disease 
infestations.
    Several existing Forest Service programs are well positioned to 
help address the issues identified in the proposed legislation.
    The Forest Service participates in national and international 
monitoring efforts for disturbances, forest health, and sustainability. 
Forest Health Monitoring (FHM) is a national program designed to 
determine the status, changes, and trends in indicators of forest 
condition on an annual basis. The FHM program uses data from ground 
plots and surveys, aerial surveys, and other biotic and abiotic data 
sources and develops analytical approaches to address forest health 
issues that affect the sustainability of forest ecosystems.
    Forest Inventory and Analysis (FIA) is the Nation's forest census. 
The Forest Inventory and Analysis program collects data and reports 
annually on strategic-scale status and trends in the Nation's forests, 
including data on forest threats, degradation, and vegetation 
characterization. These reports cover status and trends in forest area 
and location; species, size, and health of trees; total tree growth, 
mortality, and removals by harvest; wood production and utilization 
rates by various products; and forest land ownership. The FIA program 
includes information relating to tree crown condition, lichen community 
composition, soils, ozone indicator plants, complete vegetative 
diversity, and coarse woody debris. In addition to strategic-scale 
analysis, National Forest land managers are highly interested in 
monitoring forests at the stand level. Active stand-level inventory 
programs are underway in several regions and could be applied in the 
forests of eastern Oregon.
    A part of the President's Climate Change Science program involves 
interagency activity focused on integrating land-based and remote 
sensing inventories of carbon. This integration is done through 
partnerships at a variety of work units across the United States to 
cover all forest ecosystems. Forest Service Research and Development 
produces the national forest carbon inventory, through a multi-
disciplinary national team, and includes quantification of carbon 
uptake. Other research activities develop carbon uptake estimates, 
carbon management systems, and management practices that protect and 
enhance forest health and productivity.
    The agency also participates in developing detection, monitoring 
and mitigation systems for invasive species at various scales. The 
Forest Health Protection program of the Forest Service works closely 
with other Federal and State partners to detect and eradicate new 
invasions of invasive forest insects and pathogens, such as the Asian 
longhorned beetle, emerald ash borer, and sudden oak death, with the 
aim of reducing future impacts to urban and forest environments.
    The proposed inventory program in S. 1910, especially integrated 
with the existing inventory and monitoring activities of the Forest 
Service and our state partners, would complement those programs in 
important ways. Specifically, increasing emphasis on stand-level 
monitoring will be of great interest to land managers and others 
involved in planning and implementing specific forest management 
projects on the ground. Linking these programs would support an 
effective early warning system that will enable land managers to 
isolate and treat a threat before the threat gets out of control; and 
prevent epidemics that could be environmentally and economically 
devastating to forests.
    The Central Oregon location presents opportunities to pilot 
technologies due to the diverse forest types ranging from wet Douglas 
fir and mountain hemlock at the crest of the Cascades to dry juniper 
and sagebrush at the lower elevations, and the various forest types in-
between. Forests across central Oregon are representative of most of 
the coniferous forests across the west. Insects and diseases present 
include Mountain Pine Beetle, spruce budworm, various root rots, and 
mistletoe. An Inventory Center on the Ochoco National Forest would 
provide an opportunity to integrate and synthesize important forest 
health and fuels information from Forest Service Research and 
Development, State and Private Forestry and National Forest Systems.
    We would like to work with the committee on the exact location of 
the center within the Prineville community. We believe there may be 
sites other than the headquarters building which would serve the 
purposes of the bill.
    We look forward to working with the committee and others interested 
in addressing healthy forest ecosystems. This concludes my testimony. I 
would be happy to answer any questions that you may have.

    Ms. Clarke. The administration and the Department of the 
Interior certainly look forward to working with this committee 
and with the sponsors and the interested parties in resolving 
issues that are outstanding.
    If you have any questions, I would be happy to take them or 
pass them on to one of the State Directors who are here with 
me.
    [The prepared statements of Ms. Clarke follow:]

Prepared Statement of Kathleen Burton Clarke, Director, Bureau of Land 
           Management, Department of the Interior, on S. 1649

    Thank you for the opportunity to testify on S. 1649, the Ojito 
Wilderness Act. This legislation would designate as wilderness the 
nearly 11,000 acre Ojito Wilderness Study Area (WSA). The bill also 
proposes to transfer certain public lands managed by the Bureau of Land 
Management (BLM) to trust status for the Pueblo of Zia (Pueblo) to 
become part of the Pueblo's Reservation. The administration supports 
the designation of the Ojito wilderness. However, we do have some 
significant concerns with the legislation as drafted. Several issues 
related to the proposed transfer of these BLM-managed lands into trust 
status remain unresolved and should be considered by Congress if it 
chooses to move forward with this legislation. We would like the 
opportunity to work with the Committee to resolve these issues.

                      OJITO WILDERNESS DESIGNATION

    Forty miles northwest of Albuquerque, New Mexico, the Ojito WSA 
provides a respite from the city and offers a world of steep canyons, 
multi-colored rock formations and sculptured badlands. Rugged terrain 
and geologic anomalies attract an array of visitors. This area is home 
to a diverse community of plant and animal populations including mule 
deer, a small band of antelope, feline predators, and a wide range of 
raptors who nest in the steep cliffs.
    The Ojito WSA contains extensive cultural resources. Both Archaic 
sites and several prehistoric sites are scattered throughout the WSA. 
More than 7,000 years ago Archaic hunters and gatherers inhabited the 
badlands of the Ojito. Archaeologists are just beginning to decipher 
the clues to their lives. Around 1200 A.D., the prehistoric Puebloan 
people moved to this area. Excavation of multi-roomed pueblos in this 
area has expanded our knowledge of these people and their agricultural 
lifestyle. Additionally, pre-19th century evidence of Spanish and 
Navajo use is apparent in areas of the WSA.
    Scientific excavations of important dinosaur fossils can and have 
been conducted in ways that protect both the important specimens and 
the wilderness values of the area. The secrets of this ancient past are 
just beginning to be unearthed within the Ojito.
    S. 1649 would designate the entire 10,794 acres of the WSA as 
wilderness. In a report issued in September 1991, the BLM's New Mexico 
State Office recommended the entire WSA for wilderness. That 
recommendation was subsequently sent to Congress by President George 
H.W. Bush in May of 1992.
    We support this wilderness designation. We would like the 
opportunity to work with Senators Bingaman and Domenici, as well as 
Committee staff, to address both substantive and technical issues 
within the wilderness section. For example, the Department strongly 
recommends that the legislation be amended to clarify that the 
wilderness designation not constitute or be construed to constitute 
either an express or implied reservation of any water rights. 
Additionally, we would request changes to make the legislation 
consistent with other wilderness laws, such as the complete withdrawal 
of the land from the mining, and mineral leasing laws. Finally, we 
would like to complete work on a single map to be referenced in the 
legislation that accurately represents both the designated wilderness 
and the lands proposed to be transferred to the Pueblo as described 
below.

                TRANSFER OF PUBLIC LAND TO PUEBLO OF ZIA

    As with previous Zia Pueblo transfer legislation enacted in 1978 
(P.L. 95-499) and 1986 (P.L. 99-600), S. 1649 arises from a desire by 
the Pueblo to protect religious and cultural sites in the area and to 
consolidate its land holdings. S. 1649 proposes to transfer certain 
lands currently managed by the BLM into trust status. The lands 
proposed to be transferred to trust status in S. 1649 contain numerous 
sites of religious and cultural significance to the Pueblo and other 
nearby Pueblos. The transfer would increase the ability of the Pueblo 
to protect the abundant religious, cultural, and archaeological 
resources in the area, but raises questions about the nature and extent 
of the Secretary's trust responsibilities.
    Over the past several years, the Department has devoted a great 
deal of time to trust reform discussions. The nature of the trust 
relationship is now often the subject of litigation. Both the Executive 
Branch and the Judicial Branch are faced with the question of what 
exactly does Congress intend when it puts land into trust status. What 
specific duties are required of the Secretary, administering the trust 
on behalf of the United States, with respect to trust lands? Tribes and 
individual Indians frequently assert that the duty is the same as that 
required of a private trustee. Yet, under a private trust, the trustee 
and the beneficiary have a legal relationship that is defined by 
private trust default principles and a trust instrument that defines 
the scope of the trust responsibility. Congress, when it establishes a 
trust relationship, should provide the guideposts for defining what 
that relationship means.
    Much of the current controversy over trust stems from the failure 
to have clear guidance as to the parameters, roles and responsibilities 
of the trustee and the beneficiary. As Trustee, the Secretary may face 
a variety of issues, including land use and zoning issues. Accordingly, 
the Secretary's trust responsibility to manage the land should be 
addressed with clarity and precision. Congress should decide these 
issues, not the courts. Therefore, we recommend the Committee set forth 
in the bill the specific trust duties it wishes the United States to 
assume with respect to the acquisition of these lands for the Pueblo. 
Alternatively, the Committee should require a trust instrument before 
any land is taken into trust. This trust instrument would ideally be 
contained in regulations drafted after consultation with the Tribe and 
the local community, consistent with parameters set forth by Congress 
in this legislation. The benefits of either approach are that it would 
clearly establish the beneficiary's expectations, clearly define the 
roles and responsibilities of each party, and establish how certain 
services are provided to tribal members.
    While the legislation as introduced does not reference a map of the 
acres to be transferred, it is our understanding that the Pueblo seeks 
to acquire approximately 11,514 acres of public land located west of, 
and contiguous to, the main body of the Pueblo's current reservation. 
These lands would provide a connecting corridor with a second block of 
Zia Pueblo lands to the northwest of the main body of the reservation. 
Through previous acquisitions of public land in 1978 and 1986, as well 
as the recent purchase of private lands, the Pueblo now has control 
over 200 square miles of land.
    S. 1649 would allow the Pueblo to acquire all right, title and 
interest (including mineral rights) to additional public land located 
adjacent to the reservation and the Ojito Wilderness study area. Under 
the bill, the transfer would be subject to valid existing rights and 
the continuing right of the public to access the land for recreational, 
scientific, educational, paleontological, and conservation uses, 
subject to regulations adopted by the Pueblo and approved by the 
Secretary of the Interior. The use of motorized vehicles off of 
approved roads, mineral extraction, housing, gaming, and other 
commercial enterprises would be prohibited, and the Pueblo would be 
required to pay the Secretary fair market value for the lands.
    We respect the efforts of the Pueblo to protect its religious and 
cultural sites in the area and to consolidate its reservation lands. 
However, we are concerned that several of the bill's provisions may be 
insufficient to protect the public interest. Currently, for example, 
public access to both the WSA and the two Areas of Critical 
Environmental Concern (ACECs) which overlap the area is across BLM-
managed public lands that we believe are intended for transfer to trust 
status under the bill. Section 5(d) of the legislation, as noted 
earlier, makes the transfer subject to the continuing right of the 
public to access the land under regulations to be adopted by the Pueblo 
and approved by the Secretary. In practice, however, public access 
across those lands after their transfer into trust status, and 
continued use of the area by the public, may be inconsistent with 
Pueblo's interest in protecting the religious, cultural, and 
archaeological resources on the lands.
    The only remedy S. 1649 offers to persons denied access to these 
areas is a right to sue the Pueblo in Federal Court. It seems 
inappropriate that day visitors seeking access to the Ojito wilderness 
area for recreational or scientific purposes would have no relief from 
restricted access save litigation.
    Although Section 5(a) of the bill makes the transfer subject to 
valid existing rights and Sec. 5(f) addresses rights-of-way, the effect 
of these provisions to ensure continued access may be limited. The BLM 
is concerned about preserving access to and on six roads crossing 
current BLM-managed lands. Specifically, Cabezon Road (County Road 
906), Pipeline Road (County Road 923), Gas Company Road, Marquez Wash 
Road, Chucho Arroyo Road, and Querercia Arroyo Road are roads currently 
used by the public to access BLM lands, but will be wholly or partially 
on trust lands following the proposed transfer. Although these roads 
are in public use, they do not have rights of way. We believe the 
public interest would be better served by amending the legislation to 
grant the BLM a permanent easement of adequate specified width for each 
of the corridors of land underlying these roads. Where these roads lie 
on or near the outskirts of the proposed Ojito Wilderness it may make 
sense simply to maintain BLM ownership of the lands from the wilderness 
to the far edge of the road corridor.
    We would like to work with the sponsors of the legislation and the 
Committee to address these concerns.
    Thank you for the opportunity to testify on S. 1649. I would be 
pleased to answer any questions.

Prepared Statement of Kathleen Burton Clarke, Director, Bureau of Land 
     Management, Department of the Interior, on S. 1466 and S. 1421

    Mr. Chairman and Members of the Committee, I am Kathleen Clarke, 
Director of the Bureau of Land Management, Department of the Interior. 
I appreciate the opportunity to appear before you today to present the 
Department's views on S. 1466, the Alaska Land Transfer Acceleration 
Act of 2003 and S. 1421, the Alaska Native Allotment Subdivision Act. 
The Department supports the intent of both of these bills. We would 
like to work with Committee to make certain technical amendments 
designed to clarify and strengthen the bills.

         S. 1466, ALASKA LAND TRANSFER ACCELERATION ACT OF 2003

Background

    The Bureau of Land Management (BLM) is the Department of the 
Interior's designated land survey and title transfer agent. The BLM in 
Alaska manages the largest land conveyance program in the United States 
one that requires the survey and conveyance of nearly 150 million acres 
of Alaska's 365 million-acre land base.
    Consistent with the requirements of applicable Alaska land transfer 
laws, including the Native Allotment Act of 1906, the Alaska Native 
Claims Settlement Act (ANCSA), and the Alaska Statehood Act, for the 
past 30 years, the BLM in Alaska has worked diligently to implement 
this massive program. However, the pace of land conveyances has been 
slow for a variety of reasons. The original framework established by 
these statutes and the implementing regulations provided appropriate 
direction and guidance for the BLM to begin these large land transfer 
efforts, but current laws and regulations do not provide the necessary 
tools for the BLM to complete the transfers efficiently and promptly. 
The laws themselves have been amended, superceded, and re-interpreted 
by judicial review many times. Each time this has occurred, the BLM has 
been required to reassess, review, and re-sort land title claims to 
make certain that the BLM's actions with respect to all land claims and 
interests are appropriate, consistent with the interpretation of the 
applicable laws, and legally defensible. Delays in the completion of 
these transfers have resulted.
    In the Fall of 2002, Secretary Norton and I, along with other 
Departmental and Bureau officials, met with representatives of several 
Alaska Native corporations. During those meetings, Alaska Natives 
expressed urgent concerns about the pace of the legislatively-mandated 
land transfers. The Alaska congressional delegation and officials of 
the State of Alaska have raised similar concerns and have expressed an 
interest in accelerating land conveyances so they are completed by 
2009.
    The Department of the Interior recognizes these long-standing 
concerns and shares an interest in completing the land transfers in an 
expeditious manner. The completion of all Alaska land entitlements and 
the establishment of land ownership boundaries are essential to the 
proper management of lands and resources in Alaska.
    In order to fully understand the status of Alaska land transfers, 
it is necessary to understand the interconnected nature of the 
underlying transfer legislation, the complexity and range of issues 
involved in the BLM's Alaska land conveyance program, and related 
terminology.

 ``ALLOTMENTS'' BACKGROUND--NATIVE ALLOTMENT ACT OF 1906/ALASKA NATIVE 
                     VETERANS ALLOTMENT ACT OF 1998

    Land ``allotments'' are land conveyances from the Federal 
Government to qualified individual applicants as authorized by law. The 
Native Allotment Act of 1906 authorized individual Indians, Aleuts, and 
Eskimos in Alaska to acquire an allotment consisting of one or more 
parcels of land not to exceed a total of 160 acres. Alaska Natives 
filed approximately 10,000 allotment applications for almost 16,000 
parcels of land statewide under this Act before its repeal in 1971.
    The Alaska Native Veterans Allotment Act of 1998 (Veterans 
Allotment Act) provided certain Alaska Native Vietnam-era veterans, who 
missed applying for an allotment due to military service, the 
opportunity to apply under the terms of the 1906 Native Allotment Act 
as it existed before its repeal. There were 743 applications filed for 
approximately 993 parcels under the Veterans Allotment Act before the 
application deadline closed on January 31, 2002.
    The BLM's total allotment workload remaining to be processed 
consists of 2,769 parcels--including 2,191 parcels filed under the 1906 
Act and 578 parcels filed under the 1998 Act. Each of these individual 
remaining parcels must be separately adjudicated based on its unique 
facts and, if valid, surveyed and conveyed. Furthermore, of these 
remaining 2,769 parcels, approximately 1,016 parcels are on lands no 
longer owned by the United States. On these 1,016 parcels, the BLM is 
required by law to investigate and attempt to recover title to each 
parcel in order to convey the lands to the individual Native applicant.

       ``ENTITLEMENTS'' BACKGROUND--PRE-STATEHOOD GRANTS/ALASKA 
                         STATEHOOD ACT OF 1958

    Land acreage ``entitlements'' are specified amounts of land that 
are designated by law for conveyance to the State of Alaska or to 
qualified Native entities. In order to receive its land acreage 
entitlement, a qualified entity or the State must file land 
``selection'' applications that identify the specific lands to be 
conveyed to meet the authorized entitlement.
    Pre-Statehood grants and the Alaska Statehood Act of 1958 entitle 
the State of Alaska to 104.5 million acres. Of this total acreage to be 
conveyed, the BLM has taken final adjudicative action on, surveyed, and 
patented nearly 43 million acres. Final adjudication and title transfer 
have taken place on an additional 47 million acres, but final survey 
and patent work remains to be completed on this acreage. The remaining 
15 million acres to be conveyed have not been prioritized for 
conveyance by the State, and thus conveyance work on this acreage has 
not yet begun. Over 4,400 applications must still be addressed and 
approximately 3,000 townships (an area roughly the size of the State of 
Colorado) must be surveyed before the State's entitlements can be 
completed by issuance of final patents.

           ``ENTITLEMENTS'' BACKGROUND--ALASKA NATIVE CLAIMS 
                     SETTLEMENT ACT OF 1971 (ANCSA)

    The Alaska Native Claims Settlement Act of 1971 (ANCSA) and its 
amendments were enacted to settle aboriginal land claims in Alaska. 
ANCSA established 12 regional corporations and over 200 village 
corporations to receive approximately 45.6 million acres of land. This 
is the largest aboriginal land claim settlement in the history of the 
United States. Of these 45.6 million acres to be conveyed under ANCSA, 
the BLM has issued final patents on over 18 million acres. Final 
adjudication and title transfer have taken place on an additional 19 
million acres, but final survey and patent work remains to be completed 
on this acreage. The BLM is unable to adjudicate, survey and convey the 
remaining 8.4 million acres because many Native corporations have 
significantly more acres selected than remain in their entitlements, 
and the corporations must identify which selections will be used to 
meet their remaining entitlements.

   IMPEDIMENTS TO COMPLETING CONVEYANCES (ALLOTMENTS & ENTITLEMENTS)

    The BLM is responsible for adjudicating land claims, conducting and 
finalizing Cadastral land surveys, and transferring legal land title. 
The land transfer work is complicated, both operationally, due to 
remote locations and extreme weather conditions, and administratively, 
due to complex case law and processes for transferring lands from 
Federal ownership to other parties.
    The vast majority of the 2,769 remaining Native allotment claims 
must be finalized before the ANCSA corporations and the State can 
receive their full entitlements authorized under law. This is primarily 
because most lands claimed as allotments are also selected by at least 
one ANCSA corporation and may also be selected (or ``top-filed'') by 
the State of Alaska. In order to determine whether these lands are 
available for conveyance as part of the State's or an ANCSA 
corporation's entitlement, and to avoid creating isolated tracts of 
Federal land, there must first be final resolution of the allotment 
claims.
    The adjudication of the 2,769 Native allotments is arduous and 
time-consuming for a variety of reasons, including evolving case law 
and complex land status. In addition, statutory deadlines imposed in 
subsequently enacted legislation also can have the effect of delaying 
work on existing priorities and previously-made land transfer 
commitments.
    The filing of reconstructed applications, requests for 
reinstatement of closed cases, the reopening of closed cases, changes 
in land description, and the recovery of title also cause lengthy 
delays in completion of the Native allotment program. Finally, delays 
in the scheduling of due process hearings, the need to await the 
outcome of prolonged administrative appeal procedures, and litigation 
in the Federal court system can add years to the process. All of these 
issues unduly complicate completion of the remaining 2,769 Native 
allotments claims.
    The processing of ANCSA entitlements also can be delayed for 
reasons other than Native allotment applications. Alaska Native 
Corporations are State-chartered corporations. They are valid legal 
entities only when they comply with the laws of the State of Alaska. 
Some Native corporations have been dissolved for failure to comply with 
State law. New conveyances cannot be made to a corporation if it ceases 
to exist. Additionally, while many Native corporations have applied for 
significant amounts of land in excess of their official entitlement 
acreage, there are also instances where village corporations have not 
made adequate selections to meet their entitlements. Section 1410 of 
the Alaska National Interest Lands Conservation Act (ANILCA) of 1980 
provides a means by which additional lands can be made available to 
solve the under-selection problem, but the Section 1410 withdrawal and 
selection process can be cumbersome and time-consuming.
    Completion of State entitlements is complicated by ANCSA over-
selections and Federal mining claims. Unrestricted over-selections by 
ANCSA corporations mean that the State will have to wait for ANCSA 
corporations to receive final entitlement acreage before the State 
knows what lands will be available for conveyance to it. Lands 
encumbered by properly filed and maintained Federal mining claims also 
complicate the process and are not available for final conveyance to 
the State. The surrounding land can be transferred to the State, but 
excluded mining claims then constitute individual, isolated enclaves of 
Federal lands which are difficult to manage and, under current law, 
must be segregated by costly exclusion surveys before issuance of a 
patent to the State.

              EXPEDITING THE ALASKA LAND TRANSFER PROGRAM

    Over the years, the BLM has extensively analyzed the land transfer 
program in order to streamline processes and expedite conveyances. In 
1999, the BLM, working in partnership with its customers and 
stakeholders (including Native entities and the State of Alaska), 
developed a strategic plan that would result in completion of the 
remaining land transfer work by 2020. The BLM is implementing this 
strategic plan, and, under current law, the Bureau anticipates 
completion of the land conveyances by 2020.
    Congress, through the Conference Report on the Department of the 
Interior's FY 2003 appropriation (House Report 108-10, February 12, 
2003), directed the BLM to develop a plan to complete the Alaska land 
transfer program by 2009. In order to comply with this direction, BLM 
officials have met with staff from the Alaska Congressional delegation, 
Native entities, environmental groups, industry, the State, and other 
bureaus and offices within the Department, as well as the Forest 
Service, to discuss innovative ideas and to get feedback on the land 
transfer process. S. 1466 was introduced as a legislative solution on 
July 25, 2003, to eliminate the unintended delays in the conveyance 
process. In BLM's opinion, S. 1466 will eliminate many of the delays 
that currently exist in the adjudication and conveyance of Native 
allotments, State and ANCSA entitlements. It also provides flexibility 
in negotiating final entitlements. The following summarizes some of the 
major provisions of the bill.

                       TITLE I--STATE CONVEYANCES

    S. 1466 enables the BLM to accelerate conveyances to the State of 
Alaska, reduces costs associated with processing State conveyances, and 
simplifies the BLM's land management responsibilities by addressing 
statutory and regulatory minimum acreage requirements. The bill allows 
the State to obtain title to improved properties of significant value 
to local communities in which the United States retained a reversionary 
interest. It also allows the State to receive title to areas that are 
currently withdrawn from State selection due to their identification of 
having hydroelectric potential, while still maintaining the Federal 
Government's right of re-entry under the Federal Power Act.
    The bill also facilitates completion of the University of Alaska's 
456-acre remaining entitlement under current law (the Act of January 
21, 1929) by increasing the pool of land from which the University can 
make its final selections. The 1929 Act limited University selections 
to lands already surveyed. S. 1466 allows the University to use its 
remaining entitlement to select the reversionary interests in lands it 
owns and, with the consent of the current landowner, the reversionary 
interest in lands owned by others under the Recreation and Public 
Purposes Act (R&PP).
    When lands were conveyed to various entities under the R&PP Act, 
the Federal government retained minerals as well a reversionary 
interest in the property. These lands were applied for under the R&PP 
Act because of their suitability for development purposes or community 
use. The BLM must continually monitor these small properties to assure 
that the owners are in compliance with the original terms of the 
conveyance. If there is a violation of the original use, the BLM must 
take the necessary steps to assert that an event triggering reversion 
has occurred and then plan for the subsequent use or disposition of the 
property when it comes back into Federal ownership. As these lands have 
already been surveyed, one logical use for the reverted property would 
be to fulfill the University's 1929 entitlement. By allowing the 
University to select reversionary interests, the BLM is freed from 
current monitoring costs and responsibilities. Under this proposal, the 
University will be required to expend one acre of remaining entitlement 
for each acre of reversionary interest received. Another option 
extended to the University under this bill is the ability to select 
unsurveyed, public domain lands with the concurrence of the Secretary. 
These changes will substantially increase the pool of lands from which 
the University may choose, are consistent with the intent of the 1929 
Act to provide lands which are capable of generating revenues, and are 
expected to lead to final resolution of this seven-decade old 
entitlement.

                       TITLE II--ANCSA PROVISIONS

    S. 1466 expedites the land transfer process to ANCSA corporations 
by giving the BLM the tools to complete ANCSA entitlements. Currently, 
when an Alaska Native corporation's existence has been terminated under 
State law, all BLM land transactions with the corporation are 
suspended. Title II provides a mechanism for BLM to transfer lands by 
giving terminated corporations two years from the date of enactment to 
become reestablished. If this does not occur, then the bill directs the 
BLM to transfer the remaining entitlement to the appropriate Regional 
Corporation. The bill also establishes deadlines by which Regional 
corporations must complete assignments of acreages to villages (so-
called ``12(b) lands''). The legislation also allows village 
entitlements established by ANCSA (so-called ``12(a) lands'') and 
acreage assigned by Regional Corporations to villages to be combined, 
which will expedite adjudication, survey, and patent of all village 
lands. In addition, the bill permits the BLM to ``round up'' final 
entitlements to encompass the last whole sections. Thus, under the 
bill, it will no longer be necessary for BLM to survey down to the last 
acre, which often requires more than one field survey season.
    The bill also accelerates the completion of ANCSA conveyances by 
amending ANCSA (section 14(h)) to allow for the completion of the 
conveyance of certain cemetery and historical sites, as well as other 
critical conveyances. Under ANCSA, regional corporations will not know 
their final acreage entitlements until the BLM has completed the 
adjudication and survey of nearly 1,800 individual cemetery and 
historical sites. S. 1466 provides options for the rapid settlement of 
these regional entitlements, an issue of critical importance to 
Regional corporations. In establishing an expedited process, we would 
like to work with the Committee on amending Section 14(h) to ensure 
that the bill addresses concerns of Alaska Natives regarding potential 
location errors, waiver of regulations, and related matters.

                      TITLE III--NATIVE ALLOTMENTS

    Finalizing Native allotment applications is essential to the 
completion of the entire land transfer program. Numerous requests for 
reinstatement of closed Native allotment applications; allegations of 
lost applications; and amendments of existing applications to change 
land descriptions have profound impacts on all land conveyances, not 
just the ongoing adjudication of an individual Native allotment 
application.
    S. 1466 finalizes the list of pending Native allotments and the 
location of those allotments. It does so by establishing a final 
deadline after which no applications will be reinstated or 
reconstructed and no closed applications will be reopened. It also 
prohibits applicants and heirs from initiating any further amendments, 
thus fixing the location of the claim. Without some means of finalizing 
the list of allotment applications and locations, it will be extremely 
difficult for the BLM to complete the land transfers, the State and 
ANCSA landowners will have no certainty that their title is secure, and 
selection patterns surrounding allotment applications will be difficult 
to finalize and patent.
    The bill also addresses instances where allotment claims are for 
lands no longer in Federal ownership. S. 1466 expedites recovery of 
title from both the State and ANCSA corporations by streamlining the 
current procedures. It permits ANCSA corporations to negotiate with the 
allotment applicant in order to provide substitute lands to the 
claimant for lands the corporation would prefer not to reconvey. The 
State has had this authority for over 10 years (P.L. 102-415, Oct. 14, 
1992). Under the bill, a deed also can be tendered to the United States 
for reconveyance to an applicant, without requiring the BLM to do 
additional field examinations to meet Department of Justice rules for 
land acquisition.

                          TITLE IV--DEADLINES

    In order to complete the land transfers by 2009, the bill 
establishes sequential deadlines for the prioritizing of selections. 
The bill staggers the deadlines and allows six months between them for 
Native Village Corporations, Native Regional Corporations, and, the 
State of Alaska, in that order. These six-month periods allow the 
entities that are next in line to know the final boundaries of the 
preceding entity.

                      TITLE V--HEARINGS & APPEALS

    S. 1466 directs the Secretary to establish a hearings and appeals 
process to issue final Department of the Interior decisions for all 
disputed land transfer decisions issued in the State, and authorizes 
the hiring of new staff to facilitate this work. While the Department 
is already acting to expedite decisions on all business before the 
Office of Hearings and Appeals, and in particular to quickly address 
older cases, a process dedicated to resolving Alaska land transfer 
disputes will facilitate the conduct of hearings and the issuance of 
decisions.

                      TITLE VI--REPORT TO CONGRESS

    Finally, S. 1466 requires the BLM to report to Congress on the 
status of conveyances and recommendations for completing the 
conveyances.
    Since the time of the August field hearing, we have been part of 
the continuing dialogue regarding this bill. For example, we have heard 
from representatives of the Native Allotment Community that they have 
concerns about establishing appropriate deadlines that are fair to 
allotment applicants yet, at the same time, still allow for achievement 
of final land transfers by 2009. As I noted at the beginning of my 
statement, we want to work with the Committee to address these and 
other technical changes in order to strengthen and clarify this 
important piece of legislation.

            S. 1421, ALASKA NATIVE ALLOTMENT SUBDIVISION ACT

Background

    The purpose of the Federal statutory restrictions placed on Alaska 
Native allotments and restricted Native townsite lots is to protect 
Alaska Native owners against loss of their lands by taxation, and to 
provide oversight of any alienation of such lands for the owners' 
protection. Generally, these lands are administered according to 
Federal law, particularly as it may relate to the issuance of rights-
of-way, easements for utilities, and other public purposes. An 
unintended consequence of these protections is that when an owner of 
restricted land attempts to subdivide and sell his property or dedicate 
certain portions for easements and other public purposes, all in 
compliance with state or local subdivision platting requirements, it is 
not clear whether those dedications constitute valid acts under Federal 
law. This uncertainty has worked to the disadvantage of owners of 
restricted land who wish to subdivide and develop their property.
    The economic advantages of subdivision in compliance with State and 
local law have led a number of Alaska Native allotment owners over the 
past two decades to survey their property for subdivision plats, and to 
submit the surveys to local authorities for approval. These plats 
typically contained Certificates of Ownership and Dedication, whereby 
the land owners purported to dedicate to the public land for roads, 
utility easements, or other public uses. Platting authorities, the 
public, individual subdivision lot buyers, and the restricted land 
owners relied on these dedications and the presumption that they were 
binding and enforceable.
    However, in late 2000, the Department of the Interior's Office of 
the Solicitor recognized that this presumption was not clearly 
established in law. In response, the Bureau of Indian Affairs and 
realty service providers authorized under the Indian Self-Determination 
Act sought to overcome the doubts raised about the validity of past 
dedications. Their solution relied on the Secretary of the Interior's 
authority under Federal law to grant rights-of-way and easements 
identical to those interests dedicated on the face of existing 
subdivision plats.
    This approach, however, has proven to be unsatisfactory. It creates 
substantial extra work for government and realty service providers. 
More importantly, the State of Alaska and some affected Boroughs are 
unwilling to apply for or accept title to such rights-of-way on behalf 
of the public. These units of government understandably prefer that 
public rights be established by dedication, rather than direct title 
transfers, which might saddle the local government with maintenance or 
tort liability. Without the participation of platting authorities and 
governments, it is difficult to resolve uncertainties as to the 
validity of dedications on previously filed and approved subdivision 
plats. Moreover, it is impossible for Native owners of restricted lands 
who, in the future, may wish to subdivide their land in accordance with 
State or local platting requirements, to do so without first 
terminating the restricted status of their lands.

                                S. 1421

    S. 1421 would authorize Alaska Native owners of restricted 
allotments, subject to the approval of the Secretary of the Interior, 
to subdivide their land in accordance with State and local laws 
governing subdivision plats, and to execute certificates of ownership 
and dedication with respect to these lands. The bill also would confirm 
the validity of past dedications that were approved by the Secretary. 
Ratifying past dedications will benefit all concerned parties, 
including the buyers and sellers of lots in affected subdivisions, the 
State and local governments, the Bureau of Indian Affairs, realty 
service providers under the Indian Self-Determination Act, and the 
general public. All of these entities have in the past relied upon the 
legal validity of dedications to the public which appeared on the face 
of existing plats.
    Enactment of S. 1421 would remove an obstacle to pending lot sales 
and re-sales in existing subdivisions. It would pave the way for other 
Native owners of restricted lands to create new subdivisions in 
compliance with State or local platting requirements without forcing 
them to choose between the financial benefits of compliance with State 
law and the retention of protections against taxation and creditor's 
claims inherent in the restricted status of their lands. This feature 
is clarified by Section 5(b) of S. 1421, which provides that Federal 
restrictions against taxation and alienation are only lost by 
compliance with State or local platting requirements as to those 
specific interests expressly dedicated in the Certificate of Ownership 
and Dedication.
    The Department recommends amending Section 4(a)(1) of the bill to 
read, ``subdivide the restricted land for rights-of-way for public 
access, easements for utility installation, use and maintenance and for 
other public purposes, in accordance with the laws of the--'' to make 
this section consistent with the findings in Section 2(a)(b)(c) of the 
bill. Additionally, the Department recommends adding a new section to 
the bill authorizing the promulgation of regulations to clarify how S. 
1421 would be implemented.

                               CONCLUSION

    In closing, I would like to thank the Committee for its continuing 
commitment to address these complex issues, and reiterate the 
Department's support for the intent of these bills. If enacted with 
certain technical changes, S. 1466 will go a long way in expediting 
land transfers and promoting the proper management of all lands and 
resources in Alaska, and S. 1421 will allow Native Alaskans to 
subdivide their restricted allotment lands with the approval of the 
Secretary. We look forward to working with the Committee on technical 
amendments to both of these bills. I will be happy to answer any 
questions you may have.

    Senator Murkowski. Thank you. I appreciate your comments 
this afternoon.
    When we were moving forward initially with this 
legislation, the question has to be asked, why do we have to 
have legislation in order to complete the conveyances of land 
that was promised close to 50 years ago? Your agency, BLM--this 
is what you are charged to do. Why do we need to have the 
legislation in order to finalize the entitlements?
    Ms. Clarke. I believe it is because the several different 
laws that direct us to resolve these land patterns were never 
properly merged, and so we find ourselves with some 
conflicting, competing directions, and we lack the authority to 
resolve those ourselves.
    In some of them, we lack deadlines. There has to be a time 
certain in which you say, case closed, it is time to move on. 
Yet, in some of these instances, we have allowed for people to 
come in and make selections and then change their mind and 
resubmit. So we are in a continual process of readjusting some 
of those requests. We have a very difficult time bringing 
things to closure.
    Also, the land transfers are sequenced. Until we settle 
this set of land transfers, we cannot address this set and the 
next set.
    What this law would do is it would close some of those 
loopholes, set some secure deadlines, and expand some of our 
authority so that we can merge these bills in a positive 
framework that allows us to bring some expedited attention to 
this challenge.
    I think the people of Alaska deserve nothing less. As you 
said, it has been way too long. Other States were granted that 
land at Statehood and had it from that moment forward. Alaska 
is still waiting to have this. Native Alaskans are waiting to 
have land granted to them, and it is clear under the existing 
authorities and deadlines and processes we are not going to get 
there. We certainly hope that we can get these new tools in our 
tool box so that we can serve the Alaskan people better and 
help them secure what they are entitled to.
    Senator Murkowski. You have mentioned the deadlines. 
Obviously, we are looking to a deadline or a goal of conveyance 
by the year 2009. One of the concerns that has been raised 
about this legislation is that, well, if you cut things off, if 
do apply deadlines, if you do say, okay, time is up, that 
certain due process rights might be abbreviated or perhaps 
pulled. And there is a concern that we make sure that we still 
allow for the due process for all those involved. Can you speak 
to that aspect of it and give the assurance to those people who 
have the concern in this specific area?
    Ms. Clarke. I think there is a section in this law that 
would secure for 10 native corporations an already set 
percentage share of their final allocations that has raised due 
process concerns. Congress, if this law passes, would thereby 
establish the final acreage to be established and it would be 
done.
    Again, I think if we do not have this legislation, there is 
no way we can get to a timely resolution of the entitlements. 
Native corporations, for example, would be forced to seek 
legislative relief or just wait until there was final 
resolution of what we call the 14(h) claims, and this includes 
cemetery claims, historical sites, and a whole other slew of 
opportunities for claims. Like I said, it is the sequencing. We 
could not even get to them. So this gives us some authority to 
move forward.
    Henri may have a little better insight into some of the 
issues relative to process and public involvement and how we 
would address that.
    Senator Murkowski. Mr. Bisson.
    Mr. Bisson. Yes. Senator, the legislation does not breach 
people's rights to challenge our decisions relative to the 
allotments and the selections of land and so on. People will 
still be able to appeal decisions. There is a provision in the 
legislation for an appeal function to be focused in Alaska to 
expedite the processes, and we will still go through a public 
notification process. I don't see this as abridging people's 
rights to protect their interests and to challenge decisions 
that they feel are inequitable.
    Senator Murkowski. There has also been a fair amount of 
concern I guess or perhaps the concern arises from not knowing 
what would happen, what will happen when we convey the last 
remaining entitlement of land to the Kaktovik Village 
Corporation, which as we all know, happens to be located on the 
coastal plain. But the only way that Kaktovik can receive its 
final entitlement is through this legislation.
    The question would be how many acres would they receive? 
Where is it in relation to the existing land? And a question 
that I was able to ask one of your fine employees yesterday of 
25 years I learned, Linda Ressiguies, does this in fact allow 
Kaktovik to proceed with oil and gas exploration if the 
conveyance were to be final?
    Ms. Clarke. My understanding is that they are entitled to 
an additional 2,000 acres. The land that would be conveyed to 
them is adjacent to their existing holding, and all of the 
restrictions on oil and gas development in that area continue 
to prevail. There is nothing in this legislation which undoes 
the current restrictions. So I don't think that is a valid 
concern.
    I understand that the 2,000 is almost a technical 
correction because of redefinition of what they were entitled 
to.
    Do you want to elaborate on that?
    Mr. Bisson. If I could, Senator [referring to a map on 
display.].
    Senator Murkowski. I cannot tell what any of the pink 
squares mean.
    Mr. Bisson. If you can separate green from pink.
    Senator Murkowski. Okay.
    Mr. Bisson. The green areas on that map are in fact the 
2,000 acres that this legislation would permit to be conveyed 
to the Village of Kaktovik. The Federal Government promised 
them 92,000 acres. This is the last 2,000 acres to be conveyed 
to them. It cannot be conveyed without this legislation. You 
can see that one of the parcels is actually adjacent on three 
sides to existing Kaktovik lands, private lands that they own. 
The other parcel is adjacent to those lands on two sides. So 
this is not a widely dispersed entitlement that they have asked 
for. It is logical and it is adjacent to lands they already 
have.
    This conveyance does not change the existing provisions 
that prevent any drilling, oil and gas leasing or exploration 
from occurring in ANWR. That can only be dealt with through 
separate action by Congress. So this has absolutely no impact 
whatsoever on that issue of oil and gas leasing in ANWR, in the 
1002 area specifically.
    Senator Murkowski. Thank you for that clarification.
    The point has been made not only by Senator Stevens and 
myself, but you, Ms. Clarke, about the pieces of legislation 
over the years that have really complicated this land 
conveyance process, and now through the legislation that I have 
introduced, we have yet one more piece of conveyance 
legislation. How can we be assured that this one is actually 
going to help us with the conveyance instead of just adding one 
more layer of complication?
    Ms. Clarke. Thankfully, we do have those employees who have 
been working with those other pieces of legislation for 25 
years, and I think they have really helped us identify where 
the fragmentation is between the laws, where we need to build 
bridges between one law and another, and to identify what we 
need. I have reviewed it with them. I know State Director 
Bisson has. We have covered these with you, and I am very 
confident that what we are really doing is, like I say, 
creating the mechanisms to make these bills compliment one 
another and serve the people of Alaska rather than confuse and 
confound them in the process.
    So I feel very good about it. We would welcome other ideas 
or feedback from any interested parties, from the committee, 
but I feel like we are finally resolving the morass and 
creating an opportunity to make all of those work for the 
citizens of Alaska.
    Senator Murkowski. Just a couple quick questions about the 
allotment legislation. Again, is the legislation necessary if 
under existing Federal law, allotment owners can already convey 
their private access easements to natives or non-native 
grantees or portions of their allotments, assuring the legal 
access? Why do we need to go one step further with our 
legislation?
    Mr. Bisson.
    Mr. Bisson. Director Clarke has asked me to respond.
    The current authorities for subdividing and conveying of 
native allotments are inefficient and ill-suited to the job 
that needs to be done in Alaska. Allotment owners can convey 
these interests with appropriate secretarial approval, but 
local authorities are reluctant to apply for and accept grants 
for rights-of-way and so on because of potential liability. 
What they need is the ability to create plats, to subdivide 
their lands under State and county laws so that subsequent 
owners of the land will have legal title and the counties and 
local jurisdictions will have ownership of the roads that end 
up being constructed.
    Title, even if it is passed on from an allottee to 
successors, is not easily conveyed because the State property 
is not a State-recognized subdivided parcel. This is private 
land. All that I think the legislation does is give the native 
allottee the option of either retaining the protections offered 
by the Secretary or subdividing it under State law and passing 
title on.
    Senator Murkowski. So the allotment owner could not simply 
have his land removed from the restricted status and then 
comply with the State or local law then?
    Mr. Bisson. It is their option.
    Senator Murkowski. They could not?
    Mr. Bisson. No. They cannot comply with State and borough 
laws under the existing authorities and still retain the lands' 
restricted status.
    Senator Murkowski. Senator Bingaman, did you have any 
questions that you wanted to present to the first panel?
    Senator Bingaman. Yes. Maybe I could ask Director Clarke 
about this testimony that she has given here about the Ojito 
Wilderness bill.
    Your testimony seems to suggest that you believe we should 
do a major review and revision of the laws governing the 
Federal Government's trust responsibility to Indian tribes. Is 
that an accurate paraphrase of what you are saying here?
    Ms. Clarke. Senator Bingaman, I will have to tell that in 
regards to the concerns about trust responsibility that have 
been raised by the Department, we have really deferred to their 
judgment. I think you are very aware that the Secretary has 
found herself with many challenges relative to trust 
responsibilities, to how they are interpreted, to what 
appropriate roles and responsibilities are, and those are being 
litigated. And it has been a very, very challenging exercise.
    I think the concern is not that we use this bill to create 
an entire protocol for everything but that within the context 
of this bill that we identify what appropriate trust 
responsibilities should be.
    We would certainly be willing to work through this with the 
committee and see if we cannot find some common ground here. I 
think this is a reflection of the great concern and care that 
the Department is feeling compelled to apply to any issues 
relative to trust management.
    I want to apologize that the content of this statement was 
a surprise to you today and regret that we did not have an 
opportunity to really explore this. Like I say, I also want to 
reaffirm a commitment to see if we cannot come to terms. I do 
not think it is essential that this become a template for a 
solution to the overall trust problem, but in this instance 
that we have some clarity and precision in the way we approach 
this.
    Senator Bingaman. Just to give you my own perspective on 
it, I do think that always before when there has been a bill 
here in the committee to transfer land into trust status, the 
committee has assumed that the large body of law that has been 
built up over many decades which defines what those 
responsibilities are on both sides would govern that. We have 
not gone through with regard to each parcel of land and said 
here is what we mean by the Secretary's trust responsibility as 
to this piece of land and then next week we will do it 
differently as to another piece of land. And I would hate to 
see us start down that road.
    In the first place, I do not think that the Committee on 
Indian Affairs would allow us to. If there is going to be a 
rewrite of the trust responsibility law, the Committee on 
Indian Affairs is understandably going to want to be the main 
place where that happens. I would hate to see us trying to do 
that on a sort of ad hoc basis with each piece of legislation.
    Ms. Clarke. I would agree with your concerns that we want 
to be consistent in our application of the trust responsibility 
concept. Again, I think that what we are saying here is a 
reflection of some super-sensitivity to this entire issue 
because of the challenges the Secretary has faced.
    I would love to have an opportunity to work with your staff 
and yourself to see if we cannot find a way to bridge the gap 
that we have identified here. I think there are players at the 
Department of the Interior in our trust area that probably 
would need to be engaged that I do not know have been.
    And so I think this testimony is a reflection of a sense 
that we have not fully covered our bases to come to a position 
today where we can say we fully support this bill. I think we 
have concerns. My testimony does not say they are not concerns 
that we cannot address or certainly that we are not willing to 
try to address. I think it is important that we take a look at 
what is here and see what we can do to make it work.
    Senator Bingaman. Thank you very much.
    Senator Murkowski. Thank you. I appreciate your testimony, 
Director Clarke, Mr. Bisson, Ms. Rundell.
    Let us go to the second panel and welcome up Governor Peter 
Pino and Mr. Martin Heinrich. Governor, Mr. Heinrich, welcome 
to the committee. Governor, if you would like to begin with 
your testimony please.

             STATEMENT OF PETER M. PINO, GOVERNOR, 
                 PUEBLO OF ZIA, ZIA PUEBLO, NM

    Governor Pino. Thank you, Madam Chair, Senator Bingaman. I 
bring greetings from the Pueblo of Zia. I am the current 
Governor of the Pueblo. I have been the tribal administrator 
since 1977. I also hold one of the Pueblo's traditional 
spiritual positions. Before I talk to the bill, S. 1649, I 
would like to address the spirits in this chamber in my native 
language. Please bear with me.
    [Native language spoken.]
    Governor Pino. Madam Chair, thank you for allowing me to 
speak in my first language. We truly believe that there is a 
physical world and there is a spiritual world and we need to 
communicate in both spheres. That is what you have allowed me 
to do and I really do appreciate that.
    Before I specifically talk about the support of S. 1649, I 
would like to give you a little bit of background of who we are 
as the pueblo people and who we are as Pueblo of Zia tribal 
members.
    Essentially we migrated through the Four Corners area, Mesa 
Verde, Chaco Canyon, Aztec, as our people went down into the 
current Pueblo of Zia area. They settled different settlements 
in this migration route and this migration route is told and 
retold every year to the members of the tribal council of Zia 
on December 29. At the conclusion of that migration story, the 
cacique appoint new officers for the coming year, thereby 
representing the future of the pueblo. So we have the present, 
the past, and the future all congregated in the same setting. 
Since then I have been the Governor for the pueblo.
    In settling in that region, this migration story tells 
about different areas that our forefathers settled in. There 
are numerous pit houses in and around the present pueblo. There 
are five different villages that were occupied by the Zia 
people when the Spaniards first came into this region in 1540. 
One of the areas that were occupied by the Zia people the 
Spaniards named the Valley of Cornfields because that is what 
they saw. This would be around 1540. This Valley of Cornfields 
is on the eastern edge of this area that we are talking about 
here that would be transferred and put in trust for the Pueblo 
of Zia.
    We have numerous sites throughout the area. We have 
retained our language. We have retained our cultural identity. 
Through the bouts with disease and other problems 100 years 
ago, Zia Pueblo numbered 97, 97 tribal members from about 
15,000 when the Spaniards first came into this region. Today we 
number 800 people of whom most of us reside at the Pueblo of 
Zia. We are not a gaming tribe. We have limited financial 
resources. We still have our tradition and culture. We 
encourage self-sufficiency and subsistence activities. We as a 
people still hunt, gather, cultivate food crops and raise 
livestock just as we have for centuries. However, these 
activities, given the desert environment that we find ourselves 
in, we are in constant need, as our population grows, of a 
bigger land base.
    We have a program that does not allow any one tribal member 
to exploit the resources at the Pueblo. As an example, the 
grazing lands are divided into grazing units and no one 
individual family head of household is allowed to graze more 
than 20 head of cattle. We know that nobody can make a living 
with 20 head of cattle, but this promotes community involvement 
where we work the cattle, where we brand cattle. We have 
grandkids all the way to grandparents working those cattle. It 
gives us a sense of community. It gives us a sense of extended 
family because that is who we are.
    As our population has grown, we need additional property. 
So in the recent past, we purchased private lands, purchased 
the grazing rights on BLM property so that we would make 
contiguous two separate pieces of tribal property. This has 
been ongoing for decades. I have been involved with this since 
I started working for the tribe in 1977.
    The connection of the two pieces of property is essentially 
to the well-management of the lands that we have under our 
responsibility of managing. So we have been working on this for 
many years.
    In this area, the non-Indians are aware that there is a lot 
of archeological resources. Those archeological resources were 
put there by our forefathers. Who best can provide protection 
for those resources but the descendants of those people?
    We have natural materials used by our people that still 
make pottery. We have mineral paint that we use for body paint 
so that we can dance and participate in cultural activities. We 
have many shrines, sacred sites. This land is dear to all of us 
as tribal members.
    We have tried not to displace anybody. As indicated 
earlier, we purchased private property. We purchased grazing 
rights to some of the BLM property. We do not want to displace 
anybody or we do not want anybody to be adversely impacted by 
the efforts that we have put forward as a pueblo.
    Originally, we had asked for 24,000-plus acres of BLM lands 
to be placed in trust for the Pueblo of Zia. Since then, we 
have decreased the land area that we are hoping would be passed 
through legislation and be put in trust for Zia. We have agreed 
to exclude from our transfer request the Ojito Wilderness Study 
Area. We have also agreed to exclude the area of critical 
environmental concern that has been designated by the Bureau of 
Land Management.
    In addition to this major concession, we have also agreed 
to provide continued access for the public to the lands that 
would be transferred to Zia. We commit to preserve the land in 
its natural beauty and open state, and we have agreed to pay 
BLM for these lands that are aboriginal tribal property. That 
was a hard decision to make. After all, this was aboriginal 
tribal property. We have limited financial resources, but the 
council feels that this is an area that is sacred to the past, 
to the present, and will be sacred in the future.
    We had thought that we finally came up with a legislative 
proposal that would be both supported by the pueblo and BLM.
    Senator Murkowski. Governor Pino, I am going to have to ask 
you to wrap up. We have just been notified that we have a vote 
coming up, and I would like to get this panel completed before 
we do that.
    Governor Pino. Okay. I will go ahead and summarize.
    Senator Murkowski. Yes, because we will have your full and 
complete written testimony included in the record.
    Governor Pino. Okay. I hope you can appreciate how long and 
difficult the efforts leading to the introduction of this 
legislation have been for us. We have attempted to address many 
interests, many issues, many concerns raised by the proposed 
transfer of land and to ensure that no one's property interest 
is adversely affected. We have spent millions to essentially 
have impact and be around the Ojito area once again as our 
forefathers have done. We have the support of the State of New 
Mexico. We have the support of tribal governments, local 
governments, conservation and user groups, neighboring 
ranchers, businesses, and tourist groups and others. We are 
very proud of the widespread bipartisan support that we have on 
this bill.
    In closing, I want to express special thanks to Senators 
Domenici and Bingaman for jointly introducing S. 1649 and to 
all that have expressed support for it.
    I also want to express our appreciation to our BLM State 
Director Linda Rundell and her staff for sitting down and 
working with us on this legislation. We look forward to 
continuing to work with them on the implementation of this 
legislation.
    With that, I want to thank the subcommittee for the 
opportunity to testify on this important bill, and I am happy 
to entertain any questions that the committee members may have.
    [The prepared statement of Governor Pino follows:]

     Prepared Statement of Peter M. Pino, Governor, Pueblo of Zia, 
                             Zia Pueblo, NM

    Good afternoon. I am Peter Pino, the current Governor of the Pueblo 
of Zia and the tribal administrator since 1977. I am also one of the 
Pueblo's traditional spiritual leaders. Before talking about Senate 
Bill 1649 I would like to give you some very brief background on the 
Pueblo of Zia.
    We are a very traditional tribe--one that has retained its language 
and cultural identity despite the fact that just 100 years ago we were 
down to only 97 members, and the fact that today Albuquerque and its 
suburbs are less than 30 minutes away. Today we have about 800 members, 
virtually all of whom live on our Reservation. Though we are a non-
gaming tribe with limited financial resources, we have prospered as a 
tribe and as a people because of our strong culture and traditions. We 
strongly encourage self-sufficiency and subsistence activities. Most of 
us still hunt, gather, cultivate food crops, and raise livestock, just 
as we have for centuries. However, these activities, given the desert 
environment in which we live, require a substantial land area and 
conservation-minded management of our animal, plant, water and mineral 
resources. We also have taken unique steps to ensure that all of our 
tribal members have an equal opportunity to utilize these resources, 
and that no one exploits them. For example, our grazing lands are 
divided into range units based on their carrying capacity. These 
individual range units are shared by several families who are permitted 
to graze up to 20 heads of cattle each.
    This limitation means that while no one can make a living off of 
their cattle alone, all have an opportunity to raise livestock for 
subsistence and additional income. It also reinforces the close 
connection that our members have to the land and encourages our 
families to work closely and cooperatively together in managing our 
rangelands and their livestock.
    As our population has grown, so has our need for an adequate land 
base to sustain our people. We have been fortunate in recent years to 
be able to acquire some private lands in and around our Reservation, 
and to utilize adjacent BLM lands for grazing purposes under a 
cooperative management agreement. However, we have not been able to 
maximize the full utilization and effective management and protection 
of our reservation lands because they lie in two, non-contiguous 
pieces, separated by an area of rugged, BLM-controlled lands that were 
once an integral part of our aboriginal homelands and are still 
actively used by our people today.
    For over a decade, I have been intimately involved in the Pueblo's 
long-standing quest to connect the two separate pieces of our 
Reservation and to ensure the preservation of this rugged and beautiful 
area. Its lands and resources are of enormous cultural importance to 
our people and have been utilized by us since time immemorial. They 
contain significant archeological resources, natural materials used by 
our people in pottery making, and innumerable shrines and sacred sites.
    As part of our decade-long efforts to reacquire these important 
ancestral lands, the Pueblo has taken steps to ensure that private 
property owners in and around the Ojito area will not be displaced or 
otherwise adversely impacted. For example, we have spent millions of 
our limited tribal funds to purchase private lands and grazing permits 
in and around the Ojito area, purchases which help assure the 
protection of the Ojito's unique beauty. The few remaining private 
property owners have been assured their property interests will be 
protected and they support the proposed legislation.
    While we originally sought the transfer of all 24,000 plus acres of 
these BLM lands, we have endeavored to work with local BLM officials to 
come up with a transfer proposal that they could support. In doing so, 
we subsequently agreed to exclude the Ojito Wilderness Study Area and 
surrounding Area of Critical Environmental Concern (ACEC) lands. In 
addition to this major concession, we also agreed to continued public 
access to the BLM lands to be transferred to the Pueblo, to commit to 
the preservation of these lands in their natural and open state, and to 
pay the BLM the fair market value of these lands. While some of these 
compromises were difficult, and it was particularly difficult for us to 
agree to pay for lands that had been taken from us given our very 
limited financial resources, we are very pleased that we have finally 
been able to come up with a legislative proposal that both the Pueblo 
and the BLM can support. I can also assure you that the Pueblo of Zia 
will fully comply with these conditions and will prove to be an 
excellent steward of these lands.
    I hope you can appreciate how long and difficult the effort leading 
to the introduction of this legislation has been for us. We have 
attempted to address a myriad of interests, issues and concerns raised 
by the proposed transfer of lands and to ensure that no one's property 
interests will be adversely affected. We have spent millions of dollars 
acquiring lands within and adjacent to the Ojito area and have made 
numerous changes to our legislative proposal in order to win the 
support of the State of New Mexico, local governments, conservation and 
user groups, neighboring ranchers, business and tourism groups, and 
others. We are very proud of the widespread, bipartisan support that 
has emerged for this bill.
    In closing, I want to express special thanks to Senators Domenici 
and Bingaman for jointly introducing Senate Bill 1649 and to all that 
have expressed support for it. I also want to express our appreciation 
to our State BLM Director, Linda Rundell and her staff for sitting down 
and working with us on this legislation, and we look forward to 
continuing to work with them on the implementation of this legislation. 
With that, I want to thank the subcommittee for the opportunity to 
testify on this very important bill and I am happy to entertain any 
questions that committee members may have.

    Senator Murkowski. Thank you, Governor Pino.
    Mr. Heinrich, I know that you have traveled a great 
distance, as has the Governor, and that is why I have allowed 
you additional time for your 5-minute testimony. If you think 
you can keep it within the 5 minutes, we can go ahead and take 
your testimony at this point in time. Otherwise, we are 
probably going to have to take a break.
    Mr. Heinrich. Yes. I am sure I can keep it within 5 
minutes.
    Senator Murkowski. Thank you.

         STATEMENT OF MARTIN HEINRICH, CITY COUNCILOR, 
                        ALBUQUERQUE, NM

    Mr. Heinrich. Madam Chairman, Senator Bingaman, and staff, 
thank you for the opportunity to testify today. My name is 
Martin Heinrich and I am a city councilor from District 6 in 
Albuquerque. I am here today as a local elected official as 
well as being a long-time volunteer in several wilderness and 
conservation groups in New Mexico. The testimony I will present 
today is on behalf of me and the Coalition for New Mexico 
Wilderness.
    The coalition is made up of businesses and organizations 
that support the protection of additional wilderness in our 
State. The coalition currently has more than 400 individual 
business members, including the Albuquerque Convention and 
Visitors Bureau which itself represents over 1,000 businesses 
in my city. The coalition also includes a number of 
conservation groups such as the New Mexico Wilderness Alliance, 
the Wilderness Society, and the Rio Grande Chapter of the 
Sierra Club.
    On behalf of the coalition, I would like to thank Senators 
Bingaman and Domenici and their professional staff for the hard 
work that has gone into this legislation. They have worked in 
partnership with a range of stakeholders and listened to the 
concerns and recommendations from all interested parties to 
develop this popular proposal. I would also like to thank our 
Bureau of Land Management State Director, Linda Rundell, for 
her leadership and her willingness to work with the 
conservation community and the Pueblo of Zia in such an open 
and professional manner.
    S. 1649 is positive bipartisan legislation that enjoys 
broad support. Specifically, support for the proposed Ojito 
Wilderness includes unanimous endorsements from the Sandoval 
and Bernalillo County Commissions and the Albuquerque City 
Council, on which I am now proud to serve. Further, Governor 
Bill Richardson, Lieutenant Governor Diane Denish, State Land 
Commissioner Patrick Lyons, and several members of the New 
Mexico State Legislature have written letters of support. The 
Albuquerque Convention and Visitors Bureau, recognizing the 
importance of tourism and wilderness recreation to our State's 
economy, has also endorsed the Ojito Wilderness. The Navajo, 
Hopi, and Zuni Nations and the All Indian Pueblo Council also 
have offered their support for this proposal.
    S. 1649 would designate the 11,000-acre Ojito Wilderness 
area and allow the Pueblo of Zia to purchase certain adjacent 
public lands which hold strong cultural and religious 
significance for the people of Zia.
    Under the bill, the lands to be purchased and held in trust 
on behalf of the pueblo will remain open to the general public 
and will be managed as open undeveloped space in perpetuity. We 
commend the Zia for their conservation-minded land management 
practices and are pleased to be working in partnership with 
them.
    The Ojito Wilderness area that would be designated by this 
act is located less than an hour's drive northwest of 
Albuquerque. It has been managed by the BLM as a wilderness 
study area since its designation under the administration of 
President Ronald Reagan and was formally recommended for 
wilderness designation by Secretary of Interior Manuel Lujan in 
1991.
    The dramatic landscape of the proposed Ojito Wilderness is 
characterized by picturesque rock structures, multi-colored 
badlands, many cultural and archaeological sites, 
paleontological resources, and diverse plants and wildlife 
species. As such, the area is important for scientific research 
and study and makes an ideal outdoor classroom for students of 
all ages. As a former educator, who utilized this area for 
educational camping trips, I can attest to what a unique 
resource these land offer. In the years since I first 
experienced Ojito, I have been drawn back time and again to 
recreate with my family, photograph the landscape, lead group 
hikes, and just explore. This is a truly special place for me 
and many, many New Mexicans.
    As an Albuquerque city councilor, I can tell you that New 
Mexicans realize that protecting wilderness helps maintain and 
enhance our State's unique culture and is important to our 
quality of life and to our local economy.
    On behalf of me and the coalition, we look forward to 
working with the members of the committee and their staff and 
the offices of Senators Domenici and Bingaman on this important 
legislation. We particularly thank our Senators for their 
leadership on this bill.
    Again, thank you for the opportunity to present testimony 
today. I am happy to entertain any questions that you have.
    [The prepared statement of Mr. Heinrich follows:]

        Prepared Statement of Martin Heinrich, City Councilor, 
                            Albuquerque, NM

    Chairman Craig, Members of the Committee and staff, thank you for 
the opportunity to testify today. My name is Martin Heinrich and I am a 
City Councilor from District 6 in Albuquerque. I am here today as a 
local elected official as well as a long time volunteer in several 
wilderness and conservation groups in New Mexico. The testimony I will 
present today is on behalf of me and the Coalition for New Mexico 
Wilderness.
    The Coalition for New Mexico Wilderness is made up of businesses 
and organizations that support the protection of additional wilderness 
in our state. The Coalition currently has more than 400 individual 
business members including the Albuquerque Convention and Visitors 
Bureau which itself represents over one thousand businesses in my city. 
The Coalition also includes a number of conservation groups such as the 
New Mexico Wilderness Alliance, the Wilderness Society, and the Rio 
Grande Chapter of the Sierra Club.
    On behalf of the Coalition, I would like to thank Senators Bingaman 
and Domenici and their professional staff for the hard work that has 
gone into this legislation. They have worked in partnership with a 
range of stakeholders and listened to the concerns and recommendations 
from all interested parties to develop this popular proposal. I would 
also like to thank our Bureau of Land Management (BLM) State Director, 
Linda Rundell, for her leadership and her willingness to work with the 
conservation community and the Pueblo of Zia in such an open and 
professional manner.

S. 1649 IS POSITIVE, BI-PARTISAN LEGISLATION THAT ENJOYS BROAD SUPPORT 
   FROM CONSERVATION GROUPS, BUSINESSES, LOCAL GOVERNMENTS, GOVERNOR 
 RICHARDSON, OTHER STATE OFFICALS, THE PUEBLO OF ZIA AND OTHER NEARBY 
                                PUEBLOS

    More specifically, support for the proposed Ojito Wilderness 
includes unanimous endorsements from the Sandoval and Bernalillo County 
Commissions and the Albuquerque City Council, on which I am now proud 
to serve. Further, Governor Bill Richardson, Lt. Governor Diane Denish, 
State Land Commissioner Patrick Lyons, and several members of the New 
Mexico State Legislature have written letters of support. The 
Albuquerque Convention and Visitor's Bureau--recognizing the importance 
of tourism and wilderness recreation to our state's economy--has also 
endorsed the Ojito Wilderness. The Navajo, Hopi and Zuni Nations, and 
the All Indian Pueblo Council also have offered their support for the 
proposal.
    Wilderness is close to home for most New Mexicans. In Albuquerque, 
the Sandia Mountain Wilderness is the backdrop to the city of 
Albuquerque, and the backyard recreation grounds for many city 
residents. New Mexico's landscape and wildlands are part of what makes 
our state unique. It is therefore not surprising that most New Mexicans 
support the protection of more wilderness areas. In fact, an August 
2002 poll of 600 New Mexico voters found that three-in-five voters 
(59%) said they support setting aside more public land in New Mexico as 
wilderness areas.

Section 5 of the Ojito Wilderness Act--Land Held in Trust for the 
        Pueblo of Zia
    S. 1649 would designate the 11,000-acre Ojito Wilderness area and 
allow the Pueblo of Zia to purchase certain adjacent public lands, 
which hold strong cultural and religious significance for the people of 
Zia. The Pueblo of Zia has a longstanding interest in acquiring these 
lands that are currently managed by the Bureau of Land Management.
    Under the bill, the lands to be purchased and held in Trust on 
behalf of the Pueblo will remain open to the general public and will be 
managed as open, undeveloped space in perpetuity. We commend the Zia 
for their conservation-minded land management practices and are pleased 
to be working in partnership with them toward our common goal of 
protecting the Ojito Wilderness and surrounding land for future 
generations.
    All lands involved in the proposal will be open to the public for 
recreational use and scientific research, but be protected from off 
road vehicle use, mining, new roads, and other development. The 
existing Area of Critical Environmental Concern (ACEC) that encompasses 
the Ojito area and includes additional environmentally sensitive land 
primarily to the south and east would remain in public ownership.

Section 4 of Ojito Wilderness Act--Designation of the Ojito Wilderness
    The Ojito Wilderness area that would be designated by this Act is 
located less than an hour's drive northwest of Albuquerque. It is 
currently managed by the Bureau of Land Management as a Wilderness 
Study Area and was recommended for permanent wilderness designation by 
the agency more than a decade ago.
    The approximately 11,000 acres of public land that make up the 
proposed Ojito Wilderness are characterized by dramatic landforms and 
rock structures, multi-colored badlands, a high density of cultural and 
archeological sites, paleontological resources, and diverse plant and 
wildlife species.
    The steep-sided mesas, remote box canyons, deep arroyos, and rough 
terrain of the Ojito area provide excellent opportunities for solitude 
and recreation including bird watching, photography, hiking, game bird 
hunting and camping. Visitors to the area can enjoy dramatic views of 
Cabezon Peak, Mesa Prieta, the Jemez Mountains, and the Sandia 
Mountains.
    A high density of cultural and archeological resources is found in 
the area including petroglyphs, kivas, and other PaleoIndian, Archaic, 
Pueblo, Navajo and Spanish cultural sites.
    Several rare plant species--including grama grass cactus, Knight's 
milkvetch and Townsend's aster--and several solitary stands of 
ponderosa pines are found here. The area provides nesting habitat for 
birds of prey, swifts and swallows. Other wildlife species that have 
been identified in the area include mule deer, antelope, and mountain 
lion.
    Significant paleontological sites have been found in the proposed 
Ojito Wilderness including one of the largest dinosaur skeletons ever 
discovered--that of a Seismasaurus. As such, the area is important for 
scientific research and study and also makes an ideal outdoor classroom 
and natural laboratory for students of all ages. As a former educator 
who utilized this area for educational camping trips, I can attest to 
what a unique resource these lands offer. Here, students can stay in a 
picturesque and remote wilderness setting while studying geology, 
paleontology, anthropology, botany and other natural sciences. There 
are few undisturbed landscapes that offer so many possibilities for 
education, recreation and inspiration. In the years since first 
``discovering'' Ojito, I have been drawn back time and again to 
recreate with my family, photograph the landscape, lead group hikes, 
and just explore. This is a truly special place for me and many, many 
New Mexicans.
    If approved, this legislation would create the first new wilderness 
area in New Mexico in over 15 years and would be one of only a handful 
of wilderness areas found on lands managed by the BLM in our state. The 
Ojito area is eminently qualified as a wilderness and passage of this 
legislation would continue a long, proud bi-partisan tradition in New 
Mexico of working to set aside special areas on our public lands in 
their natural state for future generations--a tradition which started 
with Aldo Leopold's efforts to set aside the Gila Wilderness in 
southern New Mexico in the 1920s--and I am happy to say continues with 
this legislation today.
    As an Albuquerque resident and city councilor, I can tell you that 
New Mexicans realize that protecting wilderness helps maintain and 
enhance our state's unique culture, and is important to our quality of 
life and to our local economy. Protecting new wilderness areas in New 
Mexico--particularly an area that is as easily accessible to our 
state's population centers as the Ojito area--provides a range of 
benefits to New Mexicans. These include recreational opportunities and 
a chance to enjoy a place that provides quiet and solitude--a contrast 
to the day-to-day challenges of urban life. New Mexico's varied 
wildlands enhance our quality of life and create a powerful incentive 
for attracting new businesses to our state by creating the kind of 
environment where people want to live, work and enjoy free time with 
their families.
    On behalf of me and the Coalition for New Mexico Wilderness, we 
look forward to working with Members of the Committee and their staff, 
and the offices of Senators Domenici and Bingaman on this important 
legislation. We particularly thank our Senators for their leadership on 
this bill and hope to be able to work with them and others in our 
delegation on future wilderness proposals for lands in our state.
    Again, thank you for the opportunity present testimony today. I am 
happy to answer any questions that you may have.

    Senator Bingaman. Well, thank you very much. Let me thank 
Councilman Heinrich and also Governor Pino for their excellent 
testimony. I do not know if there will be any questions after 
we return. We do have to take a short recess because of the 
vote situation on the Senate floor, but again, thank you for 
coming. We intend to move ahead with this bill as soon as we 
can resolve the concerns that we have heard from the Bureau of 
Land Management this afternoon. Thank you very much for being 
here and we will adjourn until about 10 minutes from now.
    [Recess.]
    Senator Murkowski. Back on the record.
    Thank you for accommodating us on that vote. Hopefully we 
will not have any more interruptions and keep you here too much 
longer.
    As I indicated to our guests from New Mexico, I respect the 
travel time which so many of you have undergone in order to be 
here today. So I do want to give you the opportunity to express 
your support, opposition, concerns, what have you as it relates 
to the legislation. I do welcome all of you.
    We will go in the order from my right to left recognizing, 
Mr. Bisson, that you are here and available to take questions. 
So we will not make you speak unless we need you. But with 
that, if we can begin with Marty Rutherford, the commissioner 
of Alaska Department of Natural Resources. Welcome to the 
committee.

  STATEMENT OF MARTY RUTHERFORD, DEPUTY COMMISSIONER, ALASKA 
         DEPARTMENT OF NATURAL RESOURCES, ANCHORAGE, AK

    Ms. Rutherford. Thank you. Good afternoon, Madam Chairman, 
and members of the committee.
    On behalf of the State of Alaska, I thank you for holding 
this hearing on two bills that are very important for Alaskans. 
As you said, my name is Marty Rutherford. I am the deputy 
commissioner for the Alaska Department of Natural Resources. 
The Alaska Department of Natural Resources manages the lands 
and resources owned by the State of Alaska.
    On behalf of the State, I offer the following comments in 
support of two bills before the committee: S. 1421, the Alaska 
Native Allotment Subdivision Act, and S. 1466, the Alaska Land 
Transfer Acceleration Act.
    I would like to begin with S. 1466. This bill, along with 
appropriate funding, will speed up land transfers to thousands 
of individual Alaska Native allottees, to Alaska Native 
corporations, and to the State of Alaska and in this way 
provides a tremendous opportunity for Alaska. I would like to 
take a moment to describe the problem this bill helps solve and 
why it is important to Alaska.
    This is our promised land. As Senator Stevens said, during 
debate about State's Statehood, Alaska was given a large land 
entitlement because it was through the ownership and 
development of these lands that the new State would gain the 
revenues needed to sustain itself as a State. That farsighted 
prediction has proven correct. In Alaska, the State and native 
lands provide the revenues for governing Alaska and development 
of these lands creates jobs and income for Alaskans.
    Unfortunately, another Statehood-era prediction has also 
come true. During the Statehood debate, then Senator Robertson 
of Virginia called these lands the ``promised land,'' and 45 
years later, the land remains in part a promise. Let me 
explain.
    The land granted to the State through the Statehood Act and 
other Federal laws will result in the eventual transfer of 
nearly 105 million acres to the State. To date, 90 million 
acres have been transferred and only 45 million acres have been 
surveyed and patented. These lands have provided Alaska with 
land for the largest State park system in the Nation, provided 
us with the rich oil fields of the North Slope, and have 
enabled the State to transfer hundreds of thousands of acres 
into private ownership through State land sale programs.
    While these land transfers have benefitted our State, the 
Federal Government has yet to transfer over 23 million acres 
promised the State and Alaska Native corporations, an area that 
is nearly the size of the State of Virginia. In addition, much 
of the land transferred to date has not been surveyed and the 
Federal Government needs to survey and issue patent to over 90 
million acres, an area nearly as large as the entire State of 
California.
    Alaskans, including individual Alaska Native allottees, the 
native corporations, and the citizens of the State, again as 
Senator Stevens had indicated, we have waited too long for 
these land transfers to be completed. For example, the deadline 
for filing most native allotments was 33 years ago. Yet, 
thousands of allottees are still waiting for final approval of 
their allotments. Some of these applications date back to the 
late 1800's. Similarly, 33 years after the passage of the 
Alaska Native Claims Settlement Act, ANCSA, the Federal law 
that was to resolve the aboriginal land claims in Alaska, the 
native corporations still await transfer of almost 10 million 
acres and survey and patent to many million more acres.
    Finally, the State was promised over 105 million acres at 
Statehood in 1959. Yet, we still await the transfer of 15 
million acres and the survey and patent of nearly 60 million 
acres. Land transfers during much of the past decade have 
averaged only 50,000 acres per year, although that rate has 
significantly increased recently. However, at that average 
rate, it would take 300 years to complete land transfers to the 
State. Again, we cannot wait that long.
    Failure to transfer the remaining entitlement to these 
groups places a significant impediment on the use and 
development of the lands. Clearly, allottees cannot use land 
they do not yet own. In addition, the entitlement remaining for 
the State and native corporations has had a chilling effect on 
development in some areas of the State. Secure land title is a 
fundamental prerequisite to use and development of the land. 
Confusion about the eventual owner puts any significant 
exploration or investment on hold until the ownership is 
established.
    This legislation has the goal of largely completing these 
land transfers by the year 2009, which would be the 50th 
anniversary of Alaska Statehood. This legislation improves land 
transfer procedures and rules. It does not grant any new 
entitlements. It does not grant the State any land that we 
would not otherwise receive. Rather, this legislation removes 
barriers to the conveyance process and creates some new ways to 
solve some very old problems.
    Those of us in State government who closely watch the 
conveyance process are concerned that the present process will 
never resolve the remaining entitlement. I say this absolutely 
not to disparage the good work of the Bureau of Land Management 
employees nor the best intentions of the Department of the 
Interior. Rather, the interactions of entitlements for 
allottees, the ANCSA corporations, and the State, and with 
lingering, outdated public land orders has resulted in a system 
that cannot untangle this complex web in a timely or reasonable 
way.
    S. 1466 is a long and complex bill. It is complicated 
because the land conveyance process is inherently complicated. 
Since the time the original bill was introduced, we as the 
State have participated in discussions with the Bureau of Land 
Management and other interested parties regarding changes to 
the bill. We believe that the proposed amendments will address 
many of the concerns people have identified, and we look 
forward to working with the committee as it considers revisions 
to the bill.
    The State of Alaska strongly supports S. 1466 because it 
provides a system that allows, with the complement of 
appropriate funding, a new and comprehensive way of 
accomplishing conveyances that will fulfill the promises made 
to Alaskans decades ago.
    If would grant me just one additional moment, I would like 
to briefly turn my attention to the other Alaska bill before 
the subcommittee today.
    The State also supports S. 1421, the Alaska Native 
Allotment Subdivision Act. This legislation allows individuals 
to legally subdivide native allotments. The need for this 
legislation surfaced when various native allottees attempted to 
subdivide their land under Alaska's municipal and State law. We 
understand that their ability to follow municipal and State law 
has been called into question under Federal law and puts a 
cloud on the legality of those subdivisions. Allowing native 
allottees to subdivide their land according to State and 
municipal law, when they wish to do so, is an important 
objective and one the State fully supports.
    In closing, I would just like to say again that the State 
of Alaska supports these two pieces of legislation under 
consideration by the subcommittee and we thank you for 
providing Alaskans the opportunity to speak to you today.
    Senator Murkowski. Thank you. I appreciate this, Ms. 
Rutherford.
    Let us next go to Mr. Edward Thomas, the president of the 
Central Council Tlingit and Haida Indian Tribes of Alaska from 
Juneau. Welcome.

   STATEMENT OF EDWARD K. THOMAS, PRESIDENT, CENTRAL COUNCIL 
     TLINGIT AND HAIDA INDIAN TRIBES OF ALASKA, JUNEAU, AK

    Mr. Thomas. Thank you, Madam Chairman or Chairwoman. On 
behalf of the Alaska Native community, I thank you very much 
for the opportunity to provide my testimony here today. I also 
want to thank you and commend you on your leadership of not 
only bringing forth this very difficult issue but also coming 
to Alaska and hearing the people speak. That means a lot to us. 
So we commend you for that.
    Let me make it very clear that from the native point of 
view we almost unanimously support the goal of this bill. But 
we also need to make it very clear we want to do so without 
diminishing the rights of those native allotment applicants.
    Secondly, I want to make it clear that I am not here to do 
what is termed as government-bash. That really is not the 
intent. We want to work as cooperatively as possible with all 
parties to make sure that we can achieve our goal in a timely 
manner.
    I must point out that while we are identifying the 
problems, however, we need to point out there are some 
weaknesses in the agency that need to be addressed and that is 
covered in the testimony. There are weaknesses in the language 
proposed. We provide that in our written testimony. I hope that 
you will take the time to read that. We are very explicit and 
detailed in the written testimony so that there can be clarity 
is what the intent is in proposing such language.
    I need to also point out that many of the delays are not 
because there are applicants there or there are problems or 
mixups in the law or the applicants are not cooperating. I need 
to point out that much of the delays are because the system is 
broken in the agency, that there are a lot of delays on 
people's desks that need to be dealt with.
    Just to give you an example, when the Native Claims 
Settlement Act was passed, just about the same time, the trans-
Alaska pipeline was approved to be built. All the lands for the 
right-of-way and the connecting lands needed for building the 
pipeline had all been certified. The same amount of time since 
then and now, yet we still have less than a third of our lands 
being certified. So it appears to me that there is either a 
conflict in principle or an absence of will to get those things 
off somebody's table.
    Furthermore, in the Bureau of Indian Affairs, it has been 
well known for a long time that there are more resources 
needed, but yet the BIA year after year does not apply for the 
resources necessary either from the President or from the 
agency to get the job done.
    We also are aware that there are a number of protests by 
the State over many of the applicants. We feel that it really 
does not serve much purpose other than just further delaying 
the processing of these applications. The applications are 
being processed in accordance with law and regulations and they 
should be allowed to do so.
    In my written testimony, I point out that we feel that the 
goal of getting these native allotments processed by 2009 are 
nearly impossible unless you embrace some of our 
recommendations. We also feel that the proposed legislation 
does compromise the rights of many of the people who are 
applicants, and we provide some ways in which to both protect 
the rights of those applicants and to expedite the application 
process.
    I think that it is important to point out that when you 
spoke about the appeals process earlier, that we very much 
agree with what your points were in bringing those forward, 
that as we try to expedite the process, oftentimes the rights 
of the people are compromised in the interest of moving 
forward. I believe that the two can work hand in hand if the 
deadlines were not just way off in 2009, but to break it into 
smaller increments. The deadlines, for example, to have a 
hearing would be identified within the process of the 
application.
    Another issue that is brought forth is the issue of the 
judge. The administrative law judge comes to Alaska and deals 
with about 15 cases and then moves on. This is something that 
should really be going on throughout the year.
    I am going to conclude by pointing out that there are four 
major parts of the written testimony that I hope that you will 
be able to categorize. Number one is the right to amend 
applications. I will not go into detail. It is covered in 
section 305. The right to reinstate closed allotment 
applications. Section 305 again. The right to reconstruct lost 
applications. As you are well aware, there are more than 500 
applications that were lost between 1970 and 1971. They are 
logged in but they cannot find them and they really should be 
allowed to be reintroduced by the applicants. And then finally, 
we go into a lot of detail on the right for a fair hearing on 
appeal.
    Once again, thank you very much for this opportunity and I 
commend you once again for your leadership in bringing this 
very important issue forward. Thank you. Gunalcheech howa.
    [The prepared statement of Mr. Thomas follows:]

  Central Council Tlingit & Haida Indian Tribes of 
                                            Alaska,
                                   Office of the President,
                                      Juneau, AK, February 9, 2004.
Hon. Larry E. Craig,
Subcommittee on Public Lands and Forests, Dirksen Office Building, 
        Washington, DC.
    Dear Senator Craig: It is my privilege to submit to you my 
testimony and the technical amendments * to S. 1466 that were drafted 
by the S. 1466 Working Group under the auspices of the Central Council 
of Tlingit and Haida. The working group is representative of 150 
federally recognized Tribal governments in Alaska and includes the 
Sitka Tribe, Yakutat Tlingit Tribe, Chilkat Indian Village, Inupiat 
Community of the Arctic North Slope, Association of Village Council 
Presidents, Tanana Chiefs Conference, Alaska Realty Consortium, 
Manillaq Association, Bristol Bay Native Association, Kawerak, Inc. and 
the Central Council of Tlingit and Haida. Also involved in the working 
group is the Alaska Federation of Natives, Alaska Intertribal Council 
and Alaska Legal Services Corporation.
---------------------------------------------------------------------------
    * The technical amendments have been retained in subcommittee 
files.
---------------------------------------------------------------------------
    The amendments address three basic concerns. First, the amendments 
correct the flaws in the existing legislation that we believe violate 
the constitutional and statutory rights of Native allotment applicants. 
Second, the amendments allow the Tribes to assume many of the allotment 
responsibilities that BLM and BIA have failed to carry out in a timely 
manner. Third, the amendments allow the unfairness of past practices to 
be corrected by allowing two groups the opportunity to obtain 
allotments.
    I would be happy to answer any questions that you may have. Again, 
we appreciate the opportunity to submit testimony amendments to S. 
1466.
            Sincerely,
                                          Edward K. Thomas,
                                                         President.

  Prepared Statement of Edward K. Thomas, President, Central Council 
         Tlingit and Haida Indian Tribes of Alaska, Juneau, AK

                              INTRODUCTION

    Mr. Chairman and Honorable members of the Senate Subcommittee on 
Public Lands and Forests of the Committee on Energy and Natural 
Resources:
    My name is Edward Thomas. I am the elected President of the Central 
Council of the Tlingit and Haida Indian Tribes of Alaska, a federally 
recognized Indian Tribe with 24,000 Tribal citizens. Southeast Alaska 
is the ancestral homelands of the Tlingit and Haida people. In addition 
to speaking on behalf of the Central Council today, I am also here to 
speak on behalf of a Working Group, which I formed in August 2003 to 
specifically address S. 1466. That group represents about 190 Tribal 
entities.
    I am honored to be here today to speak to this Committee about S. 
1466 and its adverse impacts on the Native people of Alaska. I will 
first summarize the land transfer problems that S. 1466 attempts to 
address. Second, I will identify the provisions of S. 1466 that 
adversely impact Native allotments. Third, I will summarize and discuss 
the technical amendments to S. 1466 I am submitting to the Committee 
today.

                         BACKGROUND OF S. 1466

    S. 1466 does not change all of the reasons why the transfer of land 
in Alaska has taken so long. Thus, it is certain that S. 1466 will not 
bring about the finalization of the transfers of land to Native 
allotment applicants, Native Corporations, and the State of Alaska by 
the year 2009. Instead, S. 1466 offers false hopes that the transfer of 
land will be completed in 2009. That goal is impossible under S. 1466. 
However, the goal is possible if the Committee adopts the technical 
amendments to S. 1466 that I submit to you today. Before I discuss 
those amendments, I want to explain what is wrong with S. 1466.
    The overall goal of S. 1466 is to ensure that the State of Alaska 
and Native Corporations obtain patents to land that each has selected. 
In order for that to occur, Bureau of Land Management (BLM) must 
complete and finalize all pending Native allotments. In other words, 
pending Native allotments are holding up the finalization of land 
transfers to the State and Corporations. To remedy that problem, S. 
1466 streamlines the government's processing of allotment applications 
but in doing so it eliminates existing property rights of Native 
allotment applicants. This is justified according to a BLM Memo,\1\ 
because Native allotment applicants (or heirs) are the cause of the 
delays in finalizing Native allotments. It is not true that Native 
allotment applicants (or heirs) are the cause of the delay. Instead, 
the cause is the inefficient and lengthy processes used by BLM, the 
Office of Hearings and Appeals (OHA), and the Interior Board of Land 
Appeals (IBLA).
---------------------------------------------------------------------------
    \1\ Memorandum from BLM, Alaska State Director to Assistant 
Secretary, Land and Minerals Management (May 7, 2003).
---------------------------------------------------------------------------
    The length of time BLM takes to process allotment applications is 
caused by numerous factors including:

    Many approved applications sit idle for years awaiting surveys.
  <bullet> Many applications sit idle for years awaiting a hearing 
        because allotment hearings are routinely only conducted in the 
        summer months thereby severely limiting the total number of 
        allotment hearings scheduled each year. Further, there were 
        only a few allotment hearings in the summer of 2003 because the 
        Office of Hearings and Appeals ran out of money. By the time 
        hearings finally occur, many applicants and their witnesses are 
        deceased. Many applications sit idle for years waiting to be 
        processed after favorable hearing decisions or favorable appeal 
        decisions. Only minor ministerial tasks need to be done in 
        these cases.
  <bullet> Many applications sit idle for years waiting for an appeal 
        decision from the IBLA. Five years is the average length of 
        time it takes the IBLA to issue a decision.
  <bullet> Many applications could now be final under the legislative 
        approval provisions of ANILCA but the State of Alaska protested 
        over 6,000 allotments, thus adding years to the process.

    It is important to understand that the delay in processing Native 
allotment applications has hurt allotment applicants far more than the 
delay has hurt either the State or Native Corporations. This is true 
because in many old cases, the applicants and their witnesses have died 
during the thirty and more years it has taken the government to process 
the applications which resulted in the rejection of allotments. We can 
expect this injustice to only increase as time goes on. I am here today 
to speak for all the applicants and their heirs who continue to wait 
for the government to make good on its promise to convey title to land 
for their allotments.

                OVERVIEW OF NATIVE ALLOTMENTS IN ALASKA

    Before I discuss the reasons why I oppose specific provisions of S. 
1466, a brief discussion of the Alaska Native Allotment Act, may be 
helpful. In 1906, Congress enacted the Alaska Native Allotment Act 
because Native people in Alaska were starving to death due to the 
encroachment of lands necessary for subsistence.\2\ Prior to 1906, 
Alaska Natives could not get title to land they used to obtain the 
necessary resources for food, shelter and clothing. Congress intended 
that the Secretary would convey allotments to Alaska Native people to 
preserve their subsistence traditions, not destroy them. Protecting 
traditional uses of land and resources remains equally important today.
---------------------------------------------------------------------------
    \2\ Report on Conditions in Alaska, by James W. Witten, Special 
Inspector, General Land Office (1903).
---------------------------------------------------------------------------
    The legislative history of the Allotment Act establishes that prior 
to the passage of the Act, non-native encroachment on Native lands 
caused widespread devastation which the federal government failed to 
prevent even though it had a duty to protect Native use and 
occupancy.\3\ The government's failure resulted in the starvation of 
Native men, women, and children throughout Alaska. This was such an 
acute problem that President Roosevelt sent a special investigator to 
Alaska in 1903 in an attempt to alleviate the suffering and death, 
caused by the inability of Native people to access and harvest 
traditional resources.\4\
---------------------------------------------------------------------------
    \3\ Pence v. Kleppe, 529 F.2d 135, 141 (9th Cir. 1976).
    \4\ Report, James W. Witten, at 32-33.
---------------------------------------------------------------------------
    It must be remembered that by 1903, the Alaskan ``gold rush'' had 
been underway for almost ten years. Congress knew that the heavy 
traffic through Alaska to the goldfields greatly affected the 
traditional land uses and possessory rights of Alaska's Native people. 
There was also substantial traffic from the salmon canneries, oil 
production, copper mining and commercial logging. These were all 
activities that took a heavy toll on the same resources that provided 
food, shelter and clothing to Native Alaskans. History tells us that 
non-native encroachment on their lands caused widespread devastation 
resulting in the starvation of Native men, women, and children. 
Congress recognizing its duty to protect the use and occupancy of lands 
by Native people in Alaska decided it must take action. The action was 
the Alaska Native Allotment Act that carved out allotments of 160 acres 
of land so that crucial subsistence activities could continue 
undisturbed for generation after generation.
    Unfortunately, the government agencies responsible for carrying out 
the allotment program did not agree that conveyance of allotments was 
necessary. Consequently, in the first fifty-four years of the Alaska 
Native Allotment Act only 78 allotments were granted, and as of 1970, 
only 245 allotments had been conveyed to Native people.\5\
---------------------------------------------------------------------------
    \5\ DAVID CASE & DAVID VOLUCK, ALASKA NATIVES AND AMERICAN LAWS 110 
(2d ed. 2002) (citing) Bureau of Indian Affairs 1956-1993 Annual 
Caseloads Report, Summary of Native Allotment Numbers (Juneau 1994)).
---------------------------------------------------------------------------
    The Alaska Native Allotment Act was repealed in 1971 by the passage 
of the Alaska Native Claims Settlement Act (ANCSA).\6\ After 1971 only 
applications that were then pending were processed. In 1970, the 
government finally implemented a program to let Alaska Natives know 
about the opportunity to get title to allotments of land. This program 
had government employees visiting villages throughout the state helping 
Alaska Natives to file allotment applications. Because of these 
efforts, approximately 10,000 allotment applications were filed before 
the 1971 deadline. However, the delay in finalizing allotments has 
never been too many applications filed but rather the process used for 
allotment applications is lengthy and costly.
---------------------------------------------------------------------------
    \6\ 43 U.S.C. 1617.
---------------------------------------------------------------------------
    In 1980, Congress again tried to provide finality to Native 
allotments by the passage of Section 905, of the Alaska National 
Interest Lands Conservation Act (ANILCA).\7\ Section 905 was designed 
to remove many of the administrative barriers to obtaining an allotment 
by authorizing the Secretary of Interior to ``legislatively'' approve 
some, but certainly not all, of the pending allotments. Legislative 
approval eliminated the need for costly and lengthy administrative 
hearings. The will of Congress was thwarted when the State of Alaska 
protested more than 6,000 applications as a way to prevent legislative 
approval.
---------------------------------------------------------------------------
    \7\ 43 U.S.C. 1634.
---------------------------------------------------------------------------
    It is unknown how many allotments have been legislatively approved. 
Allotments not legislatively approved, require proof that the 
applicant's use of the land was substantially continuous for more than 
5 years, potentially exclusive of others. There are approximately 4,000 
pending allotment parcels requiring adjudication today.\8\ Many of the 
pending allotments require hearings on one or more of the following 
three issues: 1) whether the application was filed on time but later 
lost by the government; 2) whether the legal description on the 
application is erroneous and should be amended; and 3) whether the 
applicant's use of the land meets the legal requirements for obtaining 
an allotment.
---------------------------------------------------------------------------
    \8\ There are approximately 2,800 applications, but each 
application may have up to four parcels. 1.6 is the average number of 
parcels in an application. A Report Concerning Open Season for Certain 
Native Alaska Veterans for Allotments. Prepared for Congress by the 
Department of the Interior in Response to Section 106 of Public Law 
104-42, p. 6 (June 1997).
---------------------------------------------------------------------------
    Some of these very old cases in need of hearings are further 
complicated and could be unfairly denied because many of the applicants 
and first hand witnesses have died. All applications are now over 30 
years old and some much older ranging up to 90 years old.\9\
---------------------------------------------------------------------------
    \9\ See the pending applications of Chetah Ka (A-000438) filed in 
1919, Paul Brown (A-000439) filed in 1909; Harry McKinley (A-000441) 
filed in 1909; Setuck Harry (A-001489) filed in 1911: John Ketch 
Koostien (A-001499) filed in 1912; James Rudolph (A-001745) filed in 
1915; William Jackson (A-001747) filed in 1915; Jack Yaquam (A-001787) 
filed 1915; Jack Moore (A-002492) filed in 1915; and David Lawrence (A-
002494) filed in 1915.
---------------------------------------------------------------------------
    The age of these claims is far more acute for the applicants or 
their heirs because in many of the old cases, the applicants and their 
first hand witnesses are deceased. Many of these old claims require a 
hearing where the applicants' heirs, many who are the grandchildren of 
the applicants, must prove by a preponderance of the evidence that the 
applicant's use of the land was substantially continuous for more than 
5 years potentially exclusive of others. One example is the case of 
Harry McKinley who filed his allotment application in 1909, and died in 
1927. Finally, in 2002, over 90 years after Mr. McKinley filed his 
application and 75 years after he died, the Department scheduled an 
evidentiary hearing on the issue of Mr. McKinley's use and occupancy. 
It then took until 2004 for the judge to issue a decision which is on 
appeal to the IBLA where it will likely remain for another 5 years. Mr. 
McKinley is not an isolated case.
    Another example is the case of Setuck Harry who filed his 
application in 1911 and died in the early 1940's. An evidentiary 
hearing was held to determine the correct location of the allotment and 
the decision issued in 2000 was favorable to the heirs and so was the 
IBLA's 2001 decision. Since that 2001 decision, BLM has accomplished 
little work; the final approval of that allotment has not yet been 
issued. In the meantime, the U.S. Forest Service permits fishing camps 
on this allotment and has even allowed fuel to be stored on that land.
    Another example is the case of Luke Thomas who filed his 
application in 1915. His application was determined to be valid in 
1991. Because Mr. Thomas' allotment land was mistakenly conveyed to the 
State, this is a ``title recovery'' case which simply means the State 
must reconvey the land to BLM. Since BLM's 1991 validity decision, 
there has been no action by the BLM to recover this land except a mere 
request letter sent to the State in 1992.
    Another case is that of Chetah Ka who filed his application in 
1911, and died in 1919. On February 8, 2002, the BLM requested an 
evidentiary hearing to be scheduled on the issue of Mr. Ka's use of the 
claimed land. It has been 93 years since Mr. Ka filed his application 
but his heirs have still not been afforded a hearing on Mr. Ka's use of 
the land.
    There are many other similar examples of cases that have been 
delayed by a process that has failed. There is no one reason that 
explains the length of time it takes an allotment to be finalized. When 
compared to homestead claims in Alaska, it is clear the amount of 
evidence the government requires to prove allotment claims are valid is 
a major factor in causing the delays because today there are no 
outstanding homestead claims because the government required minimal 
proof for those claims.

   SECTIONS 301, 302, 305 AND 501 ELIMINATE IMPORTANT STATUTORY AND 
          CONSTITUTIONAL RIGHTS OF NATIVE ALLOTMENT APPLICANTS

    Sections 301 and 302 allow the government to exercise its 
discretion to avoid its obligation to recover the land when the 
allotment is valid and the land was erroneously conveyed. Although, 
Section 301 allows the State or Corporation to offer the applicant land 
in a different location from the allotment land, if the applicant does 
not consent, this Section authorizes the Secretary to survey the land 
as it is now described in BLM's records. This provision will authorize 
surveying land that may not correctly describe the allotment land. An 
unknown number of allotments are incorrectly described in BLM's 
records. In most cases these errors are the fault of the government, 
not the fault of the applicant.\10\ Further, these sections do not 
eliminate BLM's lengthy adjudication of allotments because these 
sections apply only to ``valid'' allotments. The phrase valid allotment 
denotes the final determination BLM issues after its adjudication of 
the applicant's use and occupancy. In hundreds of allotment 
applications filed over 30 years ago, a final validity decision has 
still not been made. Thus, Sections 301 and 302 do nothing to speed up 
BLM's adjudication process.
---------------------------------------------------------------------------
    \10\ Mary Olympic v. United States, 615 F.Supp. 990, 994 (D. Alaska 
1985).
---------------------------------------------------------------------------
    Section 305 eliminates the existing right of Native allotment 
applicants to amend an allotment description. Amendments of allotments 
arose from the recognition by Congress that a significant percentage of 
allotment applications contained errors that were not the fault of the 
applicants.\11\ In most cases it was the BIA that identified the 
location of the allotment and provided BLM with many erroneous legal 
descriptions. Congress intervened with Section 905(c) of ANILCA 
allowing the correction of erroneous legal descriptions.
---------------------------------------------------------------------------
    \11\ S. Rep. No. 413, 96th Cong., 2d Sess. 237-38, reprinted in 
1980 U.S. Code Cong. & Ad.News 5070, 5181-82.
---------------------------------------------------------------------------
    The right to amend allotment descriptions under ANILCA is allowed 
only in very limited situations; it is allowed only in situations where 
it is proven that the land described in the application is not the land 
that the applicant originally intended to apply for as the allotment. 
The purpose of Section 905(c) is to correct mistakes in the allotment 
applications that the government made when it collected the 
applications during 1970-1971.
    If the right to amend is eliminated as contemplated by S. 1466, 
some applicants will lose their allotments because they will not be 
able to prove use and occupancy of land they did not originally intend 
to apply for. It is also possible that even if they receive land they 
did not intend to apply for, valuable improvements on the land they did 
intend to apply for would be lost.
    Sections 305 (f)(1) and (f)(3) eliminate the right of allotment 
applicants to reinstate their closed cases. Under current federal court 
decisions, applicants (or heirs) have the right to get closed allotment 
cases reinstated if BLM closed the case without an opportunity for a 
hearing because such a closure was in violation of due process.\12\ 
Before these federal court decisions, allotment applications were 
routinely rejected and closed whenever it believed there was 
insufficient evidence to prove the applicant's qualifying use of the 
land claimed for an allotment. The number of closed cases that should 
be reopened is unknown but we suspect it is a substantial number.
---------------------------------------------------------------------------
    \12\ Pence v. Kleppe, 529 F2d 135 (9th Cir. 1976); Pence v. Andrus, 
586 F.2d 733 (9th Cir. 1978).
---------------------------------------------------------------------------
    Eliminating the right to reinstate allotment cases closed in 
violation of the applicants' due process rights compounds the original 
violation and will only lead to future litigation. Although, the U.S. 
Supreme Court has repeatedly held that while Congress has plenary 
authority over Indian affairs, which would include Native allotment 
matters, it must comply with guarantees of the U.S. Constitution,\13\ 
such as the due process clause and the just compensation clause.\14\ 
Congress should delete Sections 305 (f)(1) and (f)(3) from S. 1466 and 
instead, direct BLM to reinstate those unlawfully closed cases.
---------------------------------------------------------------------------
    \13\ United States v. Sioux Nation of Indians, 448 U.S. 371, 
(1980). See also, Delaware Tribal Business Committee v. Weeks, 430 U.S. 
73, 84 (1977).
    \14\ See, Babbitt v. Youpee, 519 U.S. 234 (1997); Bolling v. 
Sharpe, 347 U.S. 497 (1954); United States. v. Antelope, 430 U.S. 641 
91977); Hodel v. Irving, 481 U.S. 704 (1987).
---------------------------------------------------------------------------
    Section 305(f)(2) severely limits the right of allotment applicants 
to file reconstructed applications in cases where the government lost 
the original applications. This problem arose during 1970-71, when the 
government went to villages in Alaska and filled out by hand numerous 
allotment applications from information provided by the applicants. 
These applications were then sent to California where specific legal 
descriptions were created for each allotment. The applications were 
typed and sent back to Alaska. This process caused the loss of more 
than 500 applications. Still today, there are applicants wondering when 
they will get allotment certificates, not knowing their applications 
were lost. Under current rulings of the IBLA, applicants (or heirs) 
have the right to file reconstructed applications where the government 
lost their original application.
    Unfortunately, Section 305 (f)(2) eliminates this right and in 
addition allows BLM to reject previously filed reconstructed 
applications unless the BLM's file already contains the information 
that would meet the long list of evidentiary requirements as set forth 
in Section 305 (f)(2). This Section effectively creates a new and 
extremely harsh standard far exceeding the evidence the IBLA now 
requires to prove the government lost an application.\15\ It will be 
impossible for many applicants to meet this new standard because they 
will be required to remember details of events surrounding the filing 
of their applications which occurred over thirty years ago.
---------------------------------------------------------------------------
    \15\ Alice Brean v. United States, 159 IBLA 310 (2003) (holding 
that the IBLA will set aside BLM's rejection of a reconstructed 
allotment if the Board decides there is a question of fact whether the 
application was timely filed and BLM has not provided the applicant 
with a hearing required by the due process clause).
---------------------------------------------------------------------------
    Moreover, it likely violates due process to authorize BLM to close 
cases that do not meet the higher evidentiary standard when notice of 
the new standard has never been provided to applicants. Even if notice 
of the new standard was provided, it is likely a due process violation 
to allow BLM to close such cases without a hearing on the factual 
issues.
    Section 305(f)(3) eliminates the right of allotment applicants to 
request reinstatement of relinquished allotment land even if the 
relinquishment is invalid. The right to reinstate an allotment on the 
grounds that a relinquishment is invalid is addressed in Section 905 of 
ANILCA.\16\ Invalid relinquishments according to the IBLA are those 
that were unknowing or involuntary.\17\ One example of an invalid 
relinquishment is found in the case of Willie Arkanakyak, an Alaska 
Native who neither spoke nor read English.\18\ Evidence introduced in 
the hearing established that a BIA employee found Mr. Arkanakyak 
intoxicated in a bar and caused him to sign a relinquishment of his 
allotment.
---------------------------------------------------------------------------
    \16\ 43 U.S.C. 1634(a)(6).
    \17\ Matilda Johnson, 129 IBLA 82 (1994).
    \18\ Estate of Willie Arkanakyak, IBLA 93-113 (March 8, 2001).
---------------------------------------------------------------------------
    Section 501 creates new procedures for allotment hearings and 
appeals, sacrificing the right of Native allotment applicants to have 
fair and impartial hearings and appeals. Further, the new procedures 
add time and cost to the existing hearings and appeals process. It is 
also certain that the new procedures will not meet due process.
    Currently, applicants (or heirs) have a right to a fair hearing to 
determine certain factual issues in their allotment cases. The hearings 
are conducted by impartial administrative law judges under rules 
proscribed by federal regulations. These hearings meet due process 
guarantees.\19\ Unless the new hearing procedures are identical to the 
existing procedures, it is likely that due process requirements will 
not be met.
---------------------------------------------------------------------------
    \19\ Pence v. Andrus, 586 F.2d 733 (9th Cir. 1978).
---------------------------------------------------------------------------
    Applicants presently have a right to appeal agency decisions to the 
IBLA under rules proscribed by federal regulations. Unless the appeals 
process contemplated by Section 501 is identical to the existing 
appeals process, it is unlikely that due process will be met.
    The hearings and appeals process are unquestionably slow causing 
years to the finalization of many allotment cases. However, that does 
not justify eliminating the rights of Native allotment applicants to 
fair and impartial hearings and appeals. Instead, this Committee should 
examine why OHA and IBLA have failed to hold hearings and issue 
decisions on a timely basis. Lack of resources is one major reason for 
this failure. For example, the OHA generally schedules allotment 
hearings only in the summer months which drastically reduce the total 
number of hearings that occur each year. Obviously, scheduling year-
round hearings would solve part of the problem. In addition, although 
only 15 hearings were scheduled for the summer of 2003, OHA cancelled 
10 because it ran out of money.

                    TECHNICAL AMENDMENTS TO S. 1466

    The proposed amendments to S. 1466 will afford Native allotment 
applicants due process and will facilitate the transfer of land 
selected by the State and Native Corporations. Numerous provisions in 
S. 1466 add substantial time and costs to the finalization of land 
transfers, contrary to the specific purpose of this legislation. I am 
certain that the goal of finalizing the transfer of land in Alaska by 
2009 will never be reached if S. 1466 is enacted as it is now written. 
I offer this Committee technical amendments to S. 1466 that assures the 
2009 goal will be reached and the rights of Native people in Alaska 
will be protected.

Summary of Technical Amendments
    Legislative Approval: Section 305 is amended to provide legislative 
approval of all pending applications with mediation required for 
settlements where the State or Corporations have a valid interest in 
the land. This provision will substantially reduce the delays that are 
inherent in BLM's existing process.
    Title Recovery: Section 302 is amended to substantially shorten the 
title recovery process by providing for legislative approval of all 
pending applications where the land has been erroneously conveyed to 
the State or Native Corporation. In hundreds of allotment cases, the 
title recovery process has taken over 30 years and is still not 
finalized. Without legislative approval of these cases, it will be 
impossible to finalize the hundreds of pending title recovery allotment 
cases by 2009. Section 302 also makes it clear that if alternative land 
is offered to the applicant by the State or Corporation and the 
applicant refuses it, the BLM is not authorized to force the applicant 
to accept but instead, must carry out its duty to recover the land in 
accordance with the decision in Aguilar v. United States.\20\
---------------------------------------------------------------------------
    \20\ 474 F.Supp. 840 (D. Alaska 1979) (holding that BLM had a trust 
obligation to recover allotment land it had erroneously conveyed to the 
State of Alaska).
---------------------------------------------------------------------------
    Reconstructed/Reinstated/Amended Applications: Section 310 is 
amended to reaffirm the existing right to reconstruct lost applications 
and to reinstate improperly closed applications and provides a fair 
timeline for the finalization of cases. Section 310 requires BLM to 
identify all allotment applications that were or may have been 
improperly closed and to notify each applicant. The applicants will 
have three years after such notice to request reconstruction, 
reinstatement or amendment of their allotment applications. BLM's 
report identifying improperly closed allotment cases with subsequent 
notice to applicants and a 3-year deadline to request reinstatement 
will substantially reduce the likelihood that the protected property 
rights of Alaska Natives will be sacrificed in a rush to finalize the 
land transfers to the State and Corporations.
    Hearings and Appeals Process: Section 501 is amended to provide two 
options that will ensure that allotment hearings and appeals will be 
completed in a fair and timely manner. The first option authorizes 
compacting/contracting allotment hearings and appeals to the Tribes in 
Alaska. The second option increases the resources of OHA making it 
possible for the opening of an office in Alaska where administrative 
law judges would be permanently assigned to conduct year round 
allotment and probate hearings for cases where a Tribe elects not to 
provide such service.
    Vietnam Veterans Allotments: Section 307 adds a new section to S. 
1466 which amends 43 U.S.C. 1629g allowing allotment applications to be 
filed for 160 acres of vacant federal land by Alaska Natives veterans 
(or heirs) who honorably served during the Vietnam era.
    Southeast Alaska Allotments: Section 308 adds a new section to S. 
1466 which allows reinstatement of applications that were closed under 
the Shields \21\ case adjusting the unfair balance in the geographic 
distribution of allotments because the land in all of Southeast Alaska 
was withdrawn by 1909.
---------------------------------------------------------------------------
    \21\ Shields v. United States, 698 F.2d 987 (9th Cir. 1983).
---------------------------------------------------------------------------
    Compacting or Contracting the Department's Responsibilities to 
Tribes: Section 309 adds a new section to S. 1466 which allows Tribes 
to assume many of the allotment responsibilities of the Department of 
the Interior including the adjudication, hearings, and appeals of 
allotments and probate work. This provision will cut years from the 
current processing of allotments.

              ANALYSIS OF TECHNICAL AMENDMENTS TO S. 1466

    The amendments to S. 1466 will protect the rights that Native 
allotment applicants currently enjoy under due process safeguards, 
administrative and federal case law, ANILCA, and the Alaska Native 
Allotment Act. The amendments will also ensure that Congress meets its 
trust responsibility to Alaska Native allotment applicants.
    Legislative Approval: Legislative approval for all pending 
allotments including those allotments reinstated under the technical 
amendments will greatly reduce the time it takes to now finalize 
allotments. Without legislative approval, it will be impossible for 
allotments and other land transfers to be finalized by 2009. Although, 
the legislative approval provisions under ANILCA \22\ were intended to 
achieve this exact result, it failed to do so because the state 
exercised its veto power in at least 60 percent of the allotment 
applications, forcing hundreds of cases into BLM's lengthy adjudication 
process. The allotments that have been legislatively approved prove 
that this procedure saves time and money. The finalization of land 
transfers will not happen by 2009 without the expansion of legislative 
approval because it is simply impossible for the Department to 
adjudicate and hold hearings for the current number of pending 
applications.
---------------------------------------------------------------------------
    \22\ 43 U.S.C. Section 1634(a)(1(A).
---------------------------------------------------------------------------
    Title Recovery: Amending Section 301 reduces delays. This amendment 
will eliminate the obstacles to the finalization of land transfers in 
title recovery cases. This is important because about one-third of the 
remaining allotment cases are title recovery cases. Title recovery 
cases are those where the allotment lands were erroneously conveyed by 
BLM to the State or Native Corporations. In these cases, BLM first 
determines if the allotment is valid, which means BLM determines if the 
case file contains sufficient evidence of the applicant's use of the 
claimed land. If so, BLM sends a letter requesting the land be 
reconveyed but in many cases, years have elapsed since the letters 
requesting reconveyance were sent and no action has been taken since. 
Moreover, years are added to title recovery cases because many cases 
require hearings under existing law.

  <bullet> Recovery of land required: The amendments reflect the 
        government's obligation to recover the land when the allotment 
        is valid and the land was erroneously conveyed.\23\ To provide 
        additional discretion to not recover allotment lands will only 
        create more obstacles because even if the government exercises 
        its Section 301 discretion and fails to recover the allotment 
        land, a cloud will remain on the title. In addition, an 
        allotment applicant could still initiate litigation to recover 
        title.
---------------------------------------------------------------------------
    \23\ See, Aguilar v. United States, 474 F.Supp. 840 (D. Alaska 
1979).
---------------------------------------------------------------------------
  <bullet> Valid existing rights: Currently, allotments that are 
        legislatively approved are subject to valid existing rights if 
        such rights were initiated prior to the commencement of use of 
        the allotment. Allotments are not subject to existing rights if 
        the existing rights were initiated after use of the allotment 
        began. On the other hand, such rights are routinely reserved in 
        Settlement Agreements that allotment applicants must sign 
        before the State or Corporations will agree to reconvey the 
        land. There are many unreconveyed allotment cases that have sat 
        idle because of the interests in the allotment claimed by the 
        State or Corporations. Section 301 does nothing to eliminate 
        the current stand off.
  <bullet> Settlement Agreements: Before the State or Corporations 
        agree to reconvey allotment land, it requires applicants to 
        sign settlement agreements. Many of these agreements unfairly 
        reserve interests in the allotment. These reserved interests 
        were not initiated first and therefore are not interests that 
        could legally be justified. In some cases, the reconveyance 
        documents reserve even more interests to the State or 
        Corporations. The State interprets Title 38 of the Alaska 
        Revised Statutes as requiring reservations of certain interests 
        even when those interests are legally unjustified under federal 
        law.
  <bullet> Legislative approval: Legislative approval will remove many 
        of the delaying obstacles from the title recovery cases. There 
        are numerous allotment applications which now require lengthy 
        and costly adjudication only because ANILCA 43 U.S.C. Sec. 1634 
        (a)(4) requires it for lands conveyed to the State and lands 
        selected or tentatively approved to the State or Corporations. 
        Excluding title recovery cases from the legislative approval 
        provisions of ANILCA has been ineffective, causing only delay, 
        inaction, and even defiance in some cases where the State and 
        Corporations have overtly refused to reconvey.
  <bullet> Alternative dispute resolution (ADR): Continuing to require 
        lengthy allotment hearings will not allow the goal of 
        finalization for land transfer to be reached for many years. 
        However, if ADR was part of the title recovery process prior to 
        legislative approval, in many cases the valid interests of the 
        State or Corporation could be settled. ADR could eliminate time 
        and costs in title recovery cases.
  <bullet> Direct conveyance from the Corporation to the applicant: 
        Allowing Native Corporations to directly reconvey the allotment 
        land to the applicant will save time and money. It will also 
        allow the Corporation and the applicant more flexibility in 
        resolving land conflicts because the amendment allows the 
        applicant to accept substituted land and/or cash compensation 
        in lieu of the allotment.

    Reinstatement of Unlawfully Closed Applications: The amendment 
provides for reinstatement of unlawfully closed cases in a timely and 
fair manner. By federal court decision, a due process hearing on 
factual issues is required before an allotment case can be closed.\24\ 
Yet there are cases that were closed without a hearing and remain 
closed today. Those cases must be reinstated. Further, unlawfully 
closed cases also include cases where the land was relinquished but the 
relinquishment was not knowing or voluntary. In other words, some 
relinquishments occurred under questionable circumstances. There are 
other cases where BIA and others made errors in filling out legal 
descriptions which had the effect of reducing the total acreage of an 
allotment. Questionable cases must be reinstated even if only for the 
purpose of investigation. However, BLM's policy as stated in its manual 
is that it will not reinstate an unlawfully closed application on its 
own initiative but instead requires a request from the applicant.\25\ 
Therefore, the first step in fixing the reinstatement problem is a 
mandate to BLM to provide a report of allotment applications that were 
or may have been unlawfully closed.
---------------------------------------------------------------------------
    \24\ See, Pence v. Kleppe, 529 F.2d 135 (9th Cir. 1976).
    \25\ BLM's Native Allotment Manual, Section 7(a)(2) of Chapter 
11(1991).
---------------------------------------------------------------------------
    The amendment requires BLM to provide to the public within 6 months 
from the enactment of S. 1466, a list of all allotment cases that were 
closed without notice and hearing. The amendment provides a 3-year 
deadline from the date of BLM's published list of closed cases to file 
with BLM a request for reinstatement. Once the three year deadline 
lapses, BLM will have a finite number of cases to accept or deny 
reinstatement and if other provisions of S. 1466 are amended these 
reinstated cases should be final by 2009 or before.
    Reconstruction of Lost Applications: The amendment to Section 305 
allows the reconstruction of lost applications within a time frame that 
ensures the 2009 goal will be met. It is obvious that land transfers 
may never be final if the right to reconstruct lost applications does 
not end, but it is unfair to abruptly end the reconstruction of lost 
applications without any prior notice to allotment applicants who may 
not know that their applications were lost. Thus, sufficient time with 
notice must be given to allow Alaska Natives who may have lost 
applications needing reconstruction. The amendment provides a 3-year 
deadline for submitting reconstructed applications. BLM is required to 
provide notice of the 3-year deadline to the Bureau of Indian Affairs, 
Tribes, and others serving Alaska Natives. The 3-year deadline begins 
to run from the date BLM first provides notice of the 3-year deadline.
    Hearings and Appeals: Section 501 is amended to resolve the problem 
of the delays at the hearing and appeal levels. The amendment also 
prevents unnecessary duplication and excessive costs that now occur and 
are certain to occur in the future under the new hearing and appeal 
procedures contemplated by S. 1466.
    Although the current hearings and appeals system adds years to many 
allotment cases, the resolution of this problem should not unfairly 
deprive allotment applicants' access to impartial hearings and appeals 
decided by an appeals Board that has the expertise to decide allotment 
issues such as the IBLA. It could take a new appeals body years to gain 
the expertise necessary to issue competent appeal decisions.
    Many Tribes in Alaska are capable and eager to assume the 
Department's allotment hearings and appeals responsibility by 
compacting or contracting in accordance with the Indian Education and 
Self-Determination Act of 1975.\26\ The amendment provides for 
compacting/contracting that would distribute among numerous Tribes the 
hearings and appeals burden that the Department has failed to meet. 
Moreover, the hearings would take place year round and be conducted by 
Tribal Judges who already have knowledge of the allotment applicant's 
culture and subsistence practices. In the compacts/contracts, 
participating Tribes could agree to adopt as Tribal law the federal 
regulations governing hearings and appeals.
---------------------------------------------------------------------------
    \26\ Pub. L. No. 93-638, 25 U.S.C. Sec. 450 et. seq.
---------------------------------------------------------------------------
    The current resources of the Department's Office of Hearings and 
Appeals including the IBLA must be increased and the work expanded. The 
amendment provides that the resources of OHA would be increased in 
order to open an office in Alaska where administrative law judges would 
be permanently assigned and conduct year round allotment and probate 
hearings for cases where Tribes elect not to provide such service. In 
addition additional funding is appropriated to the IBLA with a 
directive that it be used to increase its staff for allotment cases 
where Tribes elects not to provide such service.
    Compacting or Contracting the Department's Responsibilities to 
Tribes: The amendment allows Tribes to assume many of the allotment 
responsibilities of the Department including BLM's adjudication 
process, hearings, appeals and probate work. Contracting or compacting 
such responsibilities to the Tribes will be consistent with aims of the 
Self Determination Act and the trust responsibilities of Congress and 
the Department. Having the Tribes assume the work will also remove many 
of the delays to the finalization of land transfers because the burden 
of allotment work will be distributed among many Tribal entities. The 
Department of the Interior has had over thirty years to finalize 
allotments as that work is not even close to completion. It is time to 
give the Tribes the opportunity to do so.
    Amending the Vietnam Veterans Allotment Act: 43 U.S.C. Sec. 1629g 
is amended to provide that Alaska Natives who honorably served during 
the Vietnam era be eligible for allotments of 160 acres of vacant 
federal land. The goal of this amendment is to help make it possible 
for all Alaska Natives who honorably served in the military during the 
Vietnam War to receive allotments of land in Alaska. The numerous 
restrictions in the current Act have defeated many of the applications 
filed and even discouraged many from applying. For example, as of 
December 1, 2003, BLM has rejected about 47 percent of the applications 
filed under the Veterans Allotment Act.\27\
---------------------------------------------------------------------------
    \27\ Written communication from John M. Toms, Jr., BLM's Native 
Veteran Allotment Coordinator, to Carol Yeatman, Supervising Attorney, 
Alaska Legal Services Corporation, Native Allotment Program, dated 
December 1, 2003.
---------------------------------------------------------------------------
    There are three major reasons why the current Veterans Allotment 
Act needs to be amended. First, is the lack of federal land that is 
available for veteran allotments; existing law severely limits what 
type of land can be available for allotments. Presently, land available 
for veteran allotments must be:

  <bullet> non-mineral, without gas, coal, or oil,
  <bullet> not valuable for minerals, sand or gravel,
  <bullet> without campsites,
  <bullet> not selected by the State of Alaska or a Native Corporation, 
        not designated as wilderness,
  <bullet> not acquired federal lands,
  <bullet> not contain a building or structure,
  <bullet> not withdrawn or reserved for national defense,
  <bullet> not a National Forest,
  <bullet> not BLM land with conservation system unit sites, (unless 
        the manager consents),
  <bullet> not land claimed for mining,
  <bullet> not homesites, or trade and manufacturing sites or 
        headquarters site,
  <bullet> not a reindeer site, and
  <bullet> not a cemetery site.

    Further, these restrictions make it impossible for veterans in 
Southeast Alaska to apply because as shown above, land in a national 
forest is not available to veterans and most of Southeast Alaska is the 
Tongass National Forest. This restriction prevents many deserving 
veterans in southeast Alaska from obtaining allotments. The amendment 
makes vacant federal land available for veteran allotments.
    Second, the current law does not allow for the legislative approval 
of veteran allotment applications. The amendment provides legislative 
approval instead of the use and occupancy requirements veterans must 
now meet. This provision is similar to the legislative approval 
provision Congress made available to applicants of allotments who 
applied under the Alaska Native Allotment Act. Legislative approval 
will save time and money because it will eliminate the costly and 
lengthy administrative adjudication of the applicant's use and 
occupancy.
    The third reason the law needs to be changed is that current law is 
unfair to many deserving veterans that do not qualify even though they 
honorably served their country during the Vietnam era. Many Alaska 
Native veterans who served during the Vietnam era do not qualify for an 
allotment under the military service time restrictions in the current 
law. Only veterans who served from January 1, 1969 to December 31, 1971 
are now eligible to apply for an allotment. However, the Vietnam era 
covered a much longer time span. The ``Vietnam era'' is legally defined 
as beginning August 5, 1964 and ending May 7, 1975. Veterans that 
served during the ``Vietnam era'' from August 5, 1964 to December 31, 
1968, and from January 1, 1972 to May 7, 1975 are excluded from getting 
an allotment under current law. There are approximately 1,700 Alaska 
Native Vietnam veterans that will get a chance to apply for an 
allotment if this provision is enacted into law. Those 1,700 veterans 
are now excluded simply because they bravely served their country a 
little too early or a little too late.
    Reinstatement of Allotments Closed Under the Shields Decision: The 
amendment provides for reinstatement of applications that were closed 
under the decision in Shields v. United States \28\ by allowing 
ancestral use of certain allotments to meet the use and occupancy 
requirements. Although this provision expands the current reinstatement 
policy of the Department, this amendment provides basic justice. 
Because most of the land throughout Southeast Alaska was withdrawn by 
1909 and the federal government did not inform Native people about the 
Allotment Act, few Alaska Natives in Southeast Alaska received 
allotments. Reinstatement of the applications rejected under the 
Shields decision adjusts this unfair distribution of land.
---------------------------------------------------------------------------
    \28\ 698 F.2d 987 (9th Cir. 1983).
---------------------------------------------------------------------------
    The Shields decision answered the question of whether Congress 
intended to require allotment applicants to prove they personally 
``used'' the land claimed in cases where the land had been withdrawn 
for the Tongass National Forest before the applicant's birth or if 
proof that the applicant's ancestors used the land was sufficient. The 
argument that ancestral use met the ``use'' requirement was valid 
because the word ``use'' was not defined in the Allotment Act or in its 
legislative history. Unfortunately when a term or word used in a 
federal statute is not defined by Congress, the courts allow the 
agencies to interpret the word. That is exactly what happened with the 
word ``use.'' The Department of the Interior interpreted the word 
``use'' to mean personal rather than ancestral use and the courts 
deferred to that interpretation. This amendment will not change the 
language of the Allotment Act but instead will allow Congress to define 
``use'' in a manner that merely differs from the Department of the 
Interior's definition.

                                CLOSING

    Congress enacted the Alaska Native Allotment Act in 1906 so that 
Alaska Natives would obtain title to land and resources that had fed, 
clothed and sheltered them for thousands of years. Many Alaska Natives 
still wait for that promised title. I urge this Committee to amend S. 
1466 and in doing so, to protect the rights of Native allotment 
applicants while eliminating many of the factors that now delay 
finalizing allotment cases.

    Senator Murkowski. Thank you, Mr. Thomas. We appreciate you 
being here, taking the time to join us, and also for your very 
specific suggestions. I think they are very helpful. We have 
gone through your testimony and when we have an opportunity for 
the questions, you will see that some of our questions are 
directly related to those written comments. So thank you.
    Mr. Thomas. Thank you.
    Senator Murkowski. Mr. Mery, joining us as the senior vice 
President, Lands and Natural Resources from Doyon, Limited in 
Fairbanks.

 STATEMENT OF JAMES MERY, SENIOR VICE PRESIDENT FOR LANDS AND 
        NATURAL RESOURCES, DOYON, LIMITED, FAIRBANKS, AK

    Mr. Mery. Good afternoon. Thank you for the opportunity to 
appear before you today and provide the views of Doyon, Limited 
on S. 1466, the Alaska Land Transfer Acceleration Act.
    My name is Jim Mery. I am the vice president for Lands and 
Natural Resources at Doyon in Fairbanks. Doyon is one of 12 
regional corporations established by the Alaska Native Claims 
Settlement Act in 1971. We have over 14,000 shareholders. Our 
land entitlement under ANCSA is about 12.5 million acres and it 
is the largest of all of the 12 regional corporations.
    Some 23 years later after the passage of ANCSA, millions of 
acres still are not conveyed to Doyon. In fact, in the last 10 
years, only about 150,000 new acres have been conveyed. This is 
really not to put any blame on the BLM as such. It is just that 
the way the process is designed today, it is broken. It needs 
to be fixed. This is a major reason why we support S. 1466 with 
certain improvements.
    S. 1466 is a comprehensive approach to solve major 
technical and policy issues that negatively affect 
implementation of the Alaska Native Claims Settlement Act and 
the Alaska Statehood Act. S. 1466 provides the needed framework 
and Federal flexibility to resolve remaining land conveyance 
matters.
    I want to thank you, Senator Murkowski, your staff, a lot 
of people in the Bureau of Land Management and the Interior 
Department for pushing this matter forward. As Mr. Thomas 
pointed out, it has taken an awful lot of work and 
determination, energy, creativity I think to come up with some 
of these solutions. We especially appreciate the work that has 
been done subsequent to introduction of the bill last summer. I 
think a lot of improvements have been made, a lot of technical 
things. When you rolled out what we were trying to accomplish 
and started thinking about them, some of the timing issues 
needed to be changed a little bit, and the governmental folks 
have been very helpful and have come up with a lot of good 
ideas. We certainly hope that these improvements will work 
their way into the bill in the near term.
    I guess I want to point out that ANCSA land ownership and 
solving some of our problems is really not a native-only issue. 
It clearly affects the State of Alaska and you have heard some 
of those comments in the past. Final land selections really 
will be, in part, determined by what native corporations get. 
Many of their selections are also our selections.
    At the same time, you move to the refuges and the parks and 
the Federal properties in the State. There is a lot of 
uncertainty about wetlands that those people will, indeed, 
manage ultimately because of the vast selections and inholdings 
that native corporations have. And sorting all of that I think 
will be of benefit to the management of the conservation units 
as well.
    A few provisions I will highlight very quickly. 
Underselected native corporations. Several creative ways that I 
think that that issue can be solved, including the elimination 
of difficult to manage Federal inholdings that really are quite 
close to some of these villages that are underselected. We have 
got decades-old land withdrawals that need to be revoked that 
serve no valid purpose today from our point of view. They 
foreclose possible development of Federal land and diminish 
similar opportunities on adjacent native lands.
    The bill also sets a calendar to plan and establish final 
conveyance priorities. Now, this is going to be difficult to 
meet by both the Government and by the native corporations. It 
is a lot of work to be done, but we think it is achievable. 
Obviously, there is a lot of funding that is going to have to 
come with this to help the Government do the things that they 
want to do to be done in the time frames that they have set out 
in the bill, but we do think it is achievable.
    Finally, I just want to make a quick couple of comments 
about some of the native allotment issues that are in S. 1466. 
Finality of these longstanding land claims is also needed for a 
number of reasons. First and foremost, it is the right thing to 
do for the individual applicants and their families. Many of 
these allottees have passed on since their applications were 
made. And because so many of the pending allotments do involve 
lands that are selected by the native corporations and the 
State of Alaska, again clarity is needed.
    I know I am running out of time, but a couple of other 
comments. Funding is needed to process the pending 
applications. There are a couple of thousand that are out 
there. As Mr. Thomas pointed out very clearly, they are just 
not moving through the system the way they should.
    Then in the bill itself on their deadlines regarding 
reinstated, reconstructed allotment applications, the timing on 
that we just think is inadequate. I know there is some 
discussion about extending some of the deadlines, and we think 
that is very important.
    But in closing I guess I want to say that S. 1466 does 
provide an excellent for the Federal Government to fulfill 
decades-old promises to Alaska Natives and to the State of 
Alaska. Thank you.
    [The prepared statement of Mr. Mery follows:]

 Prepared Statement of James Mery, Senior Vice President for Lands and 
            Natural Resources, Doyon, Limited, Fairbanks, AK

    Mr. Chairman and Members of the Subcommittee, good afternoon and 
thank you for the opportunity to appear before you today and provide 
the views of Doyon, Limited on S. 1466, the Alaska Land Transfer 
Acceleration Act.
    My name is James Mery. I am the Senior Vice President for Lands and 
Natural Resources at Doyon, Limited (Doyon) in Fairbanks, Alaska. Doyon 
is one of twelve regional corporations established under the provisions 
of the Alaska Native Claims Settlement Act of 1971, which is often 
referred to as ANCSA. Doyon represents over 14,000 members of Indian, 
Eskimo and Aleut descent. Pursuant to ANCSA Congress granted to Doyon 
the largest land entitlement of the twelve regional corporations, some 
12.5 million acres spread out in numerous parcels throughout the vast 
interior of Alaska. I have had the honor and privilege to work for 
Doyon for over 20 years, and much of my time there has been directly 
involved with ANCSA land selections and conveyances.
    I come here this afternoon to tell you that S. 1466, with certain 
improvements, is a much needed piece of legislation. I also want to 
express my thanks to Senator Murkowski, her staff and Interior 
Department officials here in Washington and back home in Alaska. S. 
1466 is the result of hard work by them to identify problem areas, and 
propose solutions that would indeed accelerate land conveyances in 
Alaska, if the necessary funding is appropriated. Their initiative and 
determination is commendable. ANCSA and the Alaska Statehood Act, both 
subjects of the bill before you, are complex pieces of legislation. 
Many attempts have been made over the years to make technical 
amendments to fix unforeseen and changed conditions. In contrast, S. 
1466 is a comprehensive approach to solve major technical and policy 
issues that negatively affect the implementation and resolution of 
these two acts of Congress.
    S. 1466 is broad in scope. Several matters addressed in the bill 
have no direct impact on Doyon as a Native corporation, and therefore 
we offer no comment. A good example is Title I, which deals with State 
of Alaska land selections and conveyances under the Alaska Statehood 
Act. In contrast, how Native allotments are addressed in Title III does 
impact Native corporations, the State of Alaska and the allotment 
applicants. This is a matter that I will address later.
    One straightforward way to demonstrate the need for S. 1466 as it 
relates to Doyon as a Native corporation is to let you know that today, 
some twenty-two years since the passage of ANCSA, over two million 
acres of ANCSA land entitlement have yet to be conveyed to Doyon. It is 
probably impossible to measure what economic opportunities may have 
been lost or diminished because of this delay. But I am not here today 
to complain about the past. We are concerned about making the best of 
the future.
    I also think it is important to note that the lack of certainty 
over final ANCSA land ownership patterns is not a Native only issue. In 
so many situations, the unresolved land conveyances and related 
ownership patterns of ANCSA village and regional corporations have also 
produced negative side effects on State and federal land managers. 
Until Native land conveyances are resolved, the State is unable to 
finalize many of its Statehood Act land selections. This is because the 
State has often selected some of the same lands selected by Native 
corporations, although the Native selections have priority. Also, 
ultimate federal ownership in such places as National Wildlife Refuges 
and National Parks remains uncertain because of incomplete ANCSA 
conveyances.
    S. 1466 provides the framework and needed federal flexibility to 
resolve Native corporation and State of Alaska land conveyance matters. 
Subsequent to the introduction of S. 1466 last summer, I attended 
several meetings with federal officials and other representatives of 
Native corporations to discuss the bill. Through this open and 
collaborative process a number of needed technical improvements to 
Native corporation provisions in Title II, Title IV and Title VII have 
been addressed. It is our expectation that these changes will work 
their way into the current bill.
    I will focus for a few moments on a few of the important pieces of 
S. 1466. The bill addresses the significant problem of under-selected 
Native corporations, those that do not have land selections sufficient 
to meet their ANCSA land entitlements. The bill makes available new 
lands and re-categorizes other ANCSA selected lands under Sections 201-
203, 208 and 210 in order for the federal government to satisfy its 
obligations to these corporations. And as a side benefit, some small 
federal inholdings that are difficult to manage can be eliminated. 
Section 209 revokes ancient land withdrawals on BLM lands that serve no 
valid purpose today. Many of these withdrawals are adjacent to Native 
corporation lands with development potential. The inability to gain 
access to the adjacent withdrawn lands has proven to be an impediment 
to exploration of Native lands. Sections 401-403 set an aggressive 
calendar of events relating to the establishment of plans to set new, 
final ANCSA conveyance priorities. This will be a large undertaking by 
the BLM and Native corporations, but the timeframes can be met. The 
bill provides a fair back-up plan for those corporations that do not 
meet the deadlines.
    The thorniest provisions of S. 1466 deal with the treatment of 
Native allotments in Title III. Because thousands of current allotment 
applications conflict with Native corporation and State of Alaska 
selections and conveyances, a path to final adjudication of 
applications is needed. From our perspective there are three major 
components that must be addressed: accelerated adjudication of existing 
allotment applications, reinstatement of previously closed allotment 
applications, and acceptance of reconstructed applications. No 
provisions of Title III directly address pending applications and the 
dire need for adjudication funding. Title VII authorizes appropriation 
of such funds as necessary to carry out the purposes of S. 1466. I 
certainly hope that at a minimum the legislative history of this bill 
will reflect an intention to address this aspect of needed funds. Just 
as there are Title VI deadlines imposed on the State of Alaska and 
Native corporations, there are deadlines proposed in Title III. The 
Title III deadlines are designed to bring finality to possible 
reinstated and reconstructed allotment applications. The open question 
here is whether or not there should ever be a closing date on these 
applications, given the circumstances that created this situation. At a 
minimum, more time is needed than is currently provided for in the 
bill.
    In closing, I want to note that I am here today representing only 
Doyon, Limited. Alaska Natives, their corporations and tribes are a 
diverse group of people with many common interests, but they often hold 
differing opinions on a wide range of topics. For that reason, I 
respectfully request that the record be held open for two weeks to 
allow submission of additional written testimony.
    Thank you and I would be pleased to try to answer any questions.

    Senator Murkowski. Thank you, Mr. Mery.
    Next let us go to Mr. Russell Heath, executive director of 
Southeast Alaska Conservation Council out of Juneau. Welcome.

        STATEMENT OF RUSSELL HEATH, EXECUTIVE DIRECTOR, 
       SOUTHEAST ALASKA CONSERVATION COUNCIL, JUNEAU, AK

    Mr. Heath. Thank you, Madam Chairwoman. I and SEACC 
appreciate the invitation to testify before the committee. The 
Southeast Alaska Conservation Council is a coalition of 18 
conservation groups in southeast Alaska. We have member groups 
in 14 different communities there stretching from Ketchikan to 
Yakutat.
    For the record--and we would like to make this very clear--
SEACC supports the full and rapid conveyance of lands to both 
the State and the ANCSA corporations, but we have three 
principal concerns with this bill, concerns that I think we 
will share with others who do not directly benefit from it.
    Our first is the threat to the public's right to comment 
and to be involved in decisions relating to public resources. 
We see this threat in the bill in sections 106 and 206 which 
seem to give direct decision-making powers to the Secretary of 
the Interior. It is not clear to us how the current public 
process is broken or what has happened in the last 20 or 30 
years of this process to either unduly hinder or to frivolously 
delay land conveyances. We are not sure what needs to be fixed 
here.
    Furthermore, we are concerned that in reducing 
opportunities for public involvement, it actually will risk 
slowing future conveyances. When residents and local 
communities learn that land that they have depended on for 
their livelihoods for hunting and fishing, for their recreation 
have suddenly been transferred out of public and into private 
ownership, they are going to be angry. They are going to be 
upset. And when Alaskans get angry, they get political. Witness 
the anger that is happening in south central Alaska right now 
over coal bed methane. So that is one of our concerns.
    A second concern is that S. 1466 seems to arbitrarily 
increase the entitlement of the ANCSA corporations. 
Specifically, Sealaska will get approximately 28 percent more 
land than BLM thinks it is entitled to. And one of our concerns 
is that by diminishing public involvement, by increasing 
entitlement, you are creating a perception that this bill is 
providing special benefits for special interests at the expense 
of the public.
    And our final concern is we are not certain that it is 
going to solve the problem. As the previous two testifiers have 
mentioned, one of the key problems with the speed with which 
land has been conveyed is the lack of resources. The more 
resources that BLM has means the more surveyors, the more 
lawyers, the more land experts they have available to put on 
the problem. So resource is a key issue.
    Another of our concerns is that reopening ANCSA, 
particularly reopening it in such a way that it looks like 
certain interests are getting another bite at the apple by 
these increased entitlements, many create a political 
controversy in that other people who are involved with ANCSA 
will also want that second bite of the apple. And that 
political controversy may in the future further delay land 
conveyances.
    Senator, SEACC is on the ground all through southeast 
Alaska. We have members in each community. Our staff travel the 
area continually and we talk to everybody, loggers, fishermen, 
business people, city officials, and certainly other 
conservationists. One of the things that we are hearing down 
there is that this bill could be very controversial, perhaps as 
controversial as the Cape Fox land transfer in Berners Bay. I 
offer, just as evidence, this sheet of letters, municipal 
resolutions, and letters to the editor that people in the 
southeast have written opposing S. 1466.
    Thank you.
    [The prepared statement of Mr. Heath follows:]

       Prepared Statement of Russell Heath, Executive Director, 
           Southeast Alaska Conservation Council, Juneau, AK

    My name is Russell Heath, the Executive Director for the Southeast 
Alaska Conservation Council (SEACC). I would like to thank the Chairman 
and members of the Subcommittee for inviting us to testify. The 
following statement is submitted on behalf of SEACC. SEACC respectfully 
requests that this written statement and accompanying materials be 
entered into the official record of this Subcommittee hearing.
    Founded in 1970, SEACC is a grassroots coalition of 18 volunteer, 
non-profit conservation groups made up of local citizens in 14 
Southeast Alaska communities that stretch from Ketchikan to Yakutat. 
SEACC's individual members include commercial fishermen, Alaskan 
Natives, small timber operators, hunters and guides, and Alaskans from 
all walks of life. SEACC is dedicated to preserving the integrity of 
Southeast Alaska's unsurpassed natural environment while providing for 
balanced, sustainable uses of our region's resources.
    Senator Lisa Murkowski introduced S. 1466 on July 25, 2003 and held 
a field hearing in Anchorage, Alaska on August 6, 2003. SEACC submitted 
written testimony at this field hearing. On Thursday, February 5, 2004, 
we received draft amendment language for S. 1466. Like the original S. 
1466, several sections in the Draft Amendment raise serious concerns 
because they go far beyond this bill's objective of bringing closure to 
the land entitlement process in Alaska and raise a number of 
significant environmental concerns and questions. As presently written, 
the bill is more likely to delay land transfers further instead of 
expediting them as S. 1466 purports to do.
    The scope and complexity of this bill is understandable because the 
transfer of Alaska federal lands to Alaska Natives, the State of 
Alaska, and Alaska Native Corporations is the largest and most complex 
land conveyance program in the history of the United States. We support 
completing the land conveyance process under the Alaska Native Claims 
Settlement Act (ANCSA), Alaska National Interest Lands Conservation Act 
(ANILCA), the Alaska Statehood Act, and the Alaska Native Allotment Act 
because certainty of land ownership benefits the landowners and the 
public alike. However, as currently drafted, S. 1466 reopens complex 
land entitlements previously settled by Congress, arbitrarily removes 
lands from Alaska's national parks, refuges, and forests, and opens 
millions of acres of public lands in Alaska to mining and other new 
uses without the benefit of land use planning and public input. We urge 
you not to rush this bill. Instead, please take a hard look at the 
wide-ranging consequences of this proposed legislation on federal lands 
in Alaska.
    For the record, while our testimony focuses on the effect of S. 
1466 on federal lands in Southeast Alaska, we share the same concerns 
with the bill as expressed by the Sierra Club in their testimony before 
you today.

   WILL S. 1466 FAST TRACK THE ALASKA LAND CONVEYANCE PROCESS AT THE 
               EXPENSE OF LEGITIMATE COMMUNITY CONCERNS?

    As Senator Murkowski explained in her statement when she introduced 
S. 1466, ``[t]he Alaska Land Transfer Acceleration Act of 2003 imposes 
very strict provisions on [the Bureau of Land Management] to complete 
land conveyances by 2009 to Alaska Natives, the State of Alaska and to 
Native Corporations.'' 149 Cong. Rec. S9976 (July 25, 2003).
    Senate Bill 1466 seeks to accomplish this ambitious schedule by 
substituting the existing open and formal process for determining land 
entitlements with a process that leaves the public and affected 
communities in the dark. Section 106 authorizes the Secretary of 
Interior to negotiate binding, written agreements with the State of 
Alaska with respect to any subject that may assist in completing the 
conveyance of federal land to the State, including the exact number and 
location of acres. Section 212 similarly gives the Secretary authority 
to negotiate agreements with Native corporations concerning any issue 
that may help complete the conveyance process, including the amount and 
location of the corporations remaining entitlements.
    We agree that it may make sense to allow for negotiations and 
informal agreements to help resolve some entitlement issues with the 
State of Alaska and Native corporations. The process set up by Sections 
106 and 212, however, is unacceptable because neither section provides 
for public participation nor binds the Secretary's authority to 
restrictions that otherwise apply to State and Native selections under 
the Statehood Act, ANCSA, ANILCA, or other laws. One such limitation is 
the limitation on conveyances of lands within Conservation System Units 
(CSU), as defined by section 102 of ANILCA, 16 U.S.C. Sec. 3102. See 16 
U.S.C. Sec. 3209. Additionally, S. 1466 must be amended to safeguard 
other critically important national interest lands protected by 
Congress that are not CSUs, including legislated LUD II lands protected 
in their natural state in perpetuity by Congress in the 1990 Tongass 
Timber Reform Act.
    We cannot emphasize enough the importance of assuring that the land 
conveyance process is open to public participation. We urge the 
Subcommittee to assure that efforts to speed up and complete land 
conveyances under the Statehood Act and ANCSA do not come at the 
expense of legitimate community concerns about the effect of such land 
conveyances on traditional community uses of affected public lands. 
Both sections 106 and 212 should, at a minimum, provide for publication 
of proposed agreements in the Federal Register and a 90-day public 
comment period.

          SECTION 105--THE UNIVERSITY OF ALASKA'S ENTITLEMENT

    Section 105(a) and (b) of S. 1466 declares the University of 
Alaska's remaining land entitlement to be 456 acres as of January 1, 
2003, and increases that entitlement to reflect the reconveyance of any 
land to the United States to accommodate conveyance of Native 
allotments. We understand that BLM estimates there to be approximately 
1,200 acres of these reconveyed lands. Section 105(b) authorizes the 
State, on behalf of the University, to select any mineral interest or 
reversionary interest held by the United States or a nongovernmental 
third party located in the State that is an isolated tract and that is 
vacant, unappropriated and unreserved. It is unclear, however, from the 
limitations on selections contained in subsection 105(b)(6) whether the 
University may take mineral or reversionary interests within inholdings 
in CSUs, or other critically important national interest lands 
protected by Congress that are not CSUs. A prime example of these 
latter lands on the Tongass National Forest are the legislated LUD II 
lands protected in their natural state in perpetuity by Congress in the 
1990 Tongass Timber Reform Act.
    An earlier draft of S. 1466 required notice of the State's 
selections on behalf of the University of Alaska to be published in a 
local newspaper and subject to public comment, with those who commented 
entitled to notification of a final decision. We are troubled that 
Section 105(c) of S. 1466 no longer contains these requirements. As 
amended, the University could take title to ``high value'' lands within 
the Tongass and Chugach National Forests for purposes of development 
without giving local communities and Alaskans an opportunity to voice 
legitimate concerns about the effects of such conveyances on their uses 
of such lands. The Draft Amendment fails to respond to this important 
issue.

    CONVEYANCE OF LAND ENTITLEMENTS UNDER SECTION 14(H)(8) OF ANCSA

    Section 14(h) of ANCSA established a two million acre pool of lands 
from which several categories of entitlement were to be met, including 
the conveyance of cemetery sites and historical places, land 
entitlements for the urban Native corporations created by ANCSA, and 
Native allotments. According to section 14(h)(8), the remainder of 
lands not otherwise conveyed under this section were to be allocated 
and conveyed to the eligible Regional Corporations on the basis of 
population.
    Instead of following the above process, Section 207 legislatively 
specifies that a Regional Corporation would receive its percentage 
share of 255,000 acres, regardless of the actual acreage the 
corporation may have been eligible to receive. No basis is provided for 
selecting this amount of specified acreage; it is significantly higher 
than the BLM's estimate two years ago of 180,000-200,000 acres 
remaining in the pool of entitlement lands to be conveyed to the 
Regional Corporations.\1\ The 255,000 acres specified in S. 1466 is an 
overly large estimate of the corporations' remaining entitlement under 
14(h)(8). For example, S. 1466 would greatly increase the allocation of 
lands that Sealaska, the Regional Corporation for Southeast Alaska, 
could be conveyed from Tongass National Forest Lands. Sealaska's 
remaining entitlement to lands in Southeast Alaska would be 55,590 
acres, significantly higher than the 39,000 to 43,000 acres estimated 
by BLM in 2002.
---------------------------------------------------------------------------
    \1\ See Letter from United States Department of Interior, Bureau of 
Land Management, Alaska State Office to McNeil, President and CEO of 
Sealaska Corporation (July 2, 2002) (attached as Exhibit 1). NOTE: The 
exhibits have been retained in subcommittee files.
---------------------------------------------------------------------------
    The Draft Amendment simplifies this section by dropping the 
alternative method provided in the earlier draft of S. 1466 that 
allowed for Regional Corporations to enter into good faith negotiations 
with the Secretary of Interior to settle its final 14(h)(8) entitlement 
based on the parties' estimate of the number of acres to which the 
corporation will be entitled. It does not, however, address our 
fundamental concern regarding the arbitrary increase in remaining land 
entitlement to be conveyed to Regional Corporations. Consequently, we 
strongly recommend that Section 207 be deleted.
    Section 208 of the Draft Amendment allows the Secretary of Interior 
to withdraw additional ``vacant, unappropriated and unreserved land'' 
if a Regional Corporation does not have enough valid selections on file 
to fulfill its remaining entitlement from within the boundaries of 
lands originally withdrawn by BLM for Native corporation selections. As 
amended, S. 1466 would exclude all Tongass National Forest lands, 
except for those lands previously withdrawn under ANCSA for selection 
by Native village corporations. See 43 U.S.C. Sec. Sec. 1615(a) and 
1615(d). The amended language in section 208 is an improvement because 
it safeguards not only CSUs on the Tongass, but other critically 
important national interest lands that were protected in their natural 
state by Congress ``in perpetuity'' but are not CSUs, specifically the 
legislated LUD II lands in the 1990 Tongass Timber Reform Act. 
Safeguarding these key lands was strongly supported by Alaskans 
including many communities, the State of Alaska, commercial fishing 
groups, tourism groups, Native Alaskan organizations, and many others. 
See Exhibit 2. Unfortunately, this amendment fails to address our 
fundamental concern regarding the arbitrary increase in remaining land 
entitlement that Sealaska would receive on the Tongass National Forest 
under Section 207.

                ALASKA LAND CLAIMS HEARINGS AND APPEALS

    Section 501 of S. 1466 authorizes the Secretary of Interior to 
establish a hearings and appeals process for land transfer decisions 
issued by BLM regarding Native, Community, State, or University land 
selections in Alaska. Of greatest concern to SEACC, this section allows 
the Secretary to avoid the public process of notice and comment 
ordinarily applicable to agency promulgation of regulations and exempts 
the regulations from NEPA review. Although it is reasonable to 
establish an Alaska hearings unit to handle all Alaska appeals, 
creating an entirely new appeals process rather than providing more 
funds for the existing Interior Board of Land Appeals is unreasonable. 
The Draft Amendment language before the Subcommittee today fails to 
respond to this critical issue. Although funding for BLM's land 
conveyance program in Alaska has steadily increased the last several 
years, President Bush's budget for FY 05 decreases this critical 
funding level by $8.9 million dollars.

 ALASKANS FEARFUL OF THE EFFECTS OF THE PROPOSED CHANGES UNDER S. 1466
 
   Alaskans from Kotzebue to Gustavus have written letters to Alaskan 
newspapers protesting the Alaska Lands Transfer Acceleration Act. Many 
Alaskans resent the portions of the bill which would eliminate their 
participation in land settlements that affect federal lands upon which 
they depend. ``This denial of public process would be a serious setback 
to the progress made over the past 30 years in allowing citizens to 
play meaningful roles in major public land management decisions. 
Federal lands in Alaska are essential for subsistence, commercial and 
noncommercial use by all Alaskans and people need to be able to 
influence these decisions.'' See Exhibit 3 (Anchorage Daily News, 
Baker, Dec. 1, 2003).
    Cutting the public voice out is especially unpopular because areas 
slated for possible selection include favorite fishing spots like the 
Situk River, rural hunting grounds like Sea Otter Sound, and other 
places with high community values. The bill ``involves more parties 
than spring break in Fort Lauderdale and cuts the public out of land 
claims settlements that could include some of the most popular 
recreation and hunting areas.'' See Exhibit 4 (Anchorage Daily News, 
Brown, Nov. 9, 2003). ``Near my home in Tenakee Springs, valuable 
fishing and subsistence hunting areas as Kadashan and Trap Bays would 
be privatized. Juneau residents have been flocking to Tenakee for deer 
hunting this month. If the best deer habitat is privatized and logged, 
the deer hunting will suffer.'' Exhibit 5 (Juneau Empire, McBeen, 12/
29/03)
    At their October 8, 2003 meeting in Craig, Alaska, the Southeast 
Alaska Federal Subsistence Regional Council passed a resolution stating 
that S. 1466 will substantially affect subsistence uses of Southeast 
Alaska's public lands. See Exhibit 6 (relevant excerpts from hearing 
transcript). As one board member stated, ``the concern here, 
subsistence wise, is that when this land is exchanged it become private 
land and therefore under current law it is not subject to subsistence 
laws and regulations. So we have been accustomed to using this land for 
many years. So my concern would be is there going to be any provision 
to allow subsistence uses by non-shareholders in these areas . . . .'' 
Id. at p. 00467. He added that the Board should have had some 
notification of the bill and the potential affect on subsistence. 
``This will affect subsistence users so we want to be considered before 
this happened . . . .'' Id. at p. 00472. The resolution further called 
on Senator Murkowski to comply with ANILCA public notice and hearing 
provisions to inform and educate the public about the effects of the 
bill on subsistence activities. The resolution sponsor clarified that 
``I realize that these transfers are going to take place, those 
provisions in ANILCA are just mainly to ensure that public input is 
provided in any decisions, and spells out the Regional Councils 
[consultation] explicitly and also public testimony. And I think we 
agree fully that the public should be part of this that's all I'm 
asking for is that there be enough input into the process from affected 
people, subsistence users, allotment users all of us have an interest 
in this and it should not be just decided in the halls of Congress.'' 
Exhibit 6 at p. 00472.
    Other Alaskans question the effect of the proposed changes on their 
basic rights. ``The bill (S. 1466) contains language that would 
terminate basic rights of Alaska Natives with pending allotments, like 
the right to independent judicial review, and concentrate all the power 
in the hands of the Bureau of Land Management and Department of 
Interior. This is an issue of individual rights versus governmental 
control.'' See Exhibit 7 (Anchorage Daily News, Nordlum, August 14, 
2003).
    Some Alaskans equate this bill with the highly controversial Cape 
Fox Land Exchange (S. 1354) that proposes to privatize highly valuable 
lands north of Juneau. ``Neither S. 1354 nor S. 1466 (Land transfer 
Acceleration Act) adequately address existing community uses, including 
recreation, subsistence, and habitat resources.'' See Exhibit 8 (Juneau 
Empire, Grossman, Oct. 13, 2003)
    ANCSA, ANILCA and the Statehood Act are immensely complicated land 
bills. Couched in complex legal terms, and referencing numerous 
sections of existing land law, S. 1466 is virtually unintelligible to 
any reader lacking a background in Alaskan land law. One Alaskan wrote 
``Senate Bill 1466 is so huge, so complicated and involves so many 
parties that I doubt anyone understands its full effects.'' See Exhibit 
9 (Anchorage Daily News, Moore, Nov. 7, 2003).
    With their first-hand knowledge of the challenging issues addressed 
by ANCSA and other Alaska land bills, Alaskans don't see S. 1466 as a 
lasting solution to outstanding land claims. ``This bill, however, 
cannot fail to be a complete catastrophe. It is an equation with too 
many variables and too many unknowns for Sen. Murkowski to have a 
prayer of solving it correctly or in Alaska's best interest.'' See 
Exhibit 4. ``Alaska certainly has a lot of land allotment issues to 
resolve, but Murkowski's land grab has no hope of settling them.'' See 
Exhibit 10 (Juneau Empire, Lee, Nov. 25, 2003).
    The City of Tenakee Springs passed a resolution that supports 
finalizing outstanding land claims, but opposes S. 1466 because the 
bill could allow withdrawal of valuable public lands which the 
community depends on for small-scale logging, subsistence, commercial 
and sport-fishing, recreation, and tourism. See Exhibit 11 (City of 
Tenakee Springs, Alaska, Resolution 2004-15, Nov. 30, 2003).
    When asked about potential new corporation selections near Hoonah, 
the town's tribal government, the Hoonah Indian Association wrote ``the 
target parcels involve areas that continue to be highly significant and 
traditionally used by the Huna People . . . these areas are recognized 
as highly valuable view-shed, which enhances tour and recreation 
experience. We cannot allow continued industrial development to impact 
areas that must be retained in their natural state for future 
generations, our customary and traditional way of life and the benefit 
of our local economy for the long term.'' See Exhibit 12 (Letter from 
Dybdahl, Hoonah Indian Assoc. to Anderson, SEACC, Jan. 10, 2003).
    The Edna Bay Fish and Game Advisory Committee raised concerns that 
privatizing land near their communities ``could very well demolish a 
lifestyle dependent on subsistence and access to nearby federal land.'' 
See Exhibit 13 (Letter from Gaither, Edna Bay Advisory Com. to Sen. 
Lisa Murkowski, Sept. 22, 2003).
    In their preliminary response to Sealaska Corporation's recent land 
claims settlement and exchange proposal, the City of Craig raised 
several concerns regarding privatizing large amounts of land around the 
City. Among their concerns were assurance of ``a long term ample supply 
of good quality timber for local sawmills and forest products 
remanufacturing facilities.'' See Exhibit 14 (Letter from Watson, Mayor 
of Craig to Wolfe, Sealaska Corporation, May 16, 2003). The City also 
flagged the need to maintain access to nearby valued hunting and 
fishing grounds. Though these concerns were raised relative to Sealaska 
Corporation's specific proposal, they demonstrate the concerns of many 
Alaskans to efforts to privatize public lands in Southeast. It is easy 
to see how such negative effects could be exacerbated because section 
207 of S. 1466 arbitrarily inflates the amount of land that Sealaska 
and other Regional Corporations would get under ANCSA.

                               CONCLUSION

    In conclusion, we respectfully request the Subcommittee to carry 
out a deliberate and careful scrutiny of this complex piece of 
legislation. We further urge the Subcommittee to assure that efforts to 
speed up and complete land conveyances under the Statehood Act and 
ANCSA do not come at the expense of legitimate concerns of local 
communities and residents about the effect of such land conveyances on 
traditional community uses of affected public lands. Without buy-in 
from around Alaska, this bill will only cause acrimony, confusion, 
controversy, and further delays in land settlements. This would destroy 
the common consensus we have achieved since ANCSA & ANILCA were first 
passed.
    Thank you the opportunity to testify on this proposed legislation.

    Senator Murkowski. Thank you.
    Let us finally go to Mr. Jack Hession, Alaska 
representative from the Sierra Club out of Anchorage. Welcome.

       STATEMENT OF JACK HESSION, ALASKA REPRESENTATIVE, 
                   SIERRA CLUB, ANCHORAGE, AK

    Mr. Hession. Thank you, Madam Chair. My name is Jack 
Hession. I am the senior regional representative for the Sierra 
Club in Anchorage where I live. I certainly appreciate this 
opportunity to comment on your draft amendment to S. 1466.
    I would like to emphasize that we too support the goal of 
the rapid conveyance of native and State land conveyances as 
soon as practicable.
    However, we cannot support this bill as revised at this 
time. It would transfer land out of national conservation 
system units and other public lands set aside by Congress for 
national conservation purposes. It would increase entitlements 
at the expense of public lands. It would give the Secretary of 
the Interior unwarranted new authority, and it would reduce the 
public participation in public land decisions.
    Let me just give you two examples of how this bill would 
affect the national conservation system units, by which I mean, 
of course, national parks, refuges, wild rivers, wilderness 
areas, and the land use designation II areas of the Tongass 
National Forest.
    Here is an example of the impact on the national wildlife 
refuges. Those established prior to ANCSA--those were the 
existing ones pre-1971--would suffer acreage reductions under 
sections 201 and 203. This would upset a major compromise 
reached on ANCSA that limited the village corporation 
selections in these pre-ANCSA refuges to three townships or 
69,000 acres. Section 201 gives the Secretary discretion to 
simply waive that requirement. Section 203 would allow the 
Secretary to convey the last whole section to a village 
corporation in lieu of surveying the actual acreage within that 
section. The impact of these two sections acting together could 
result in a substantial amount of very valuable wildlife 
habitat passing out of public ownership.
    The next section 204 poses another threat to the pre-ANCSA 
refuges. It would amend another key component of the ANCSA 
compromise I just mentioned a moment ago by giving the 
Secretary the discretion to convey the subsurface estate 
between the three surface townships except Kenai and Kodiak to 
the regional corporations. The reason for this prohibition, 
Madam Chairman, is that it was designed to protect the surface 
habitat of these refuges and the subsistence resources therein. 
This was a major compromised reached in the settlement act of 
1971 and we see no reason at this time to overturn it.
    Nowhere is this prohibition more important than the Arctic 
National Wildlife Refuge. Section 204 would give the Secretary 
the discretion to convey the subsurface estate to the Arctic 
Slope Regional Corporation. Section 213 would require the 
Secretary to take this action. We think that these sections 
could be interpreted to mean that the coastal plain under the 
Kaktovik Inupiat Corporation lands might be leased to oil and 
gas drilling and potential development. We do not want to take 
that chance, Madam Chair.
    Let me just give you one other example with respect to 
major new authority. Section 209 would revoke section 17(d)(1) 
public interest withdrawals of ANCSA and open them to all forms 
of appropriation, including mineral laws, unless otherwise 
segregated or reserved. Then the Secretary is given the 
authority to classify or reclassify these lands or any other 
BLM lands not otherwise segregated or withdrawn and open or 
close these lands to any form of appropriation or use under the 
public land laws, including the mineral laws, in accordance 
with such classification.
    Notice the sequence here, Madam Chair. First, the 17(d)(1) 
public interest withdrawals are revoked and wide open to 
various appropriation under the public land laws, including the 
mining and mineral leasing laws. Then the Secretary is given 
discretion to classify or not classify, as she may wish, these 
very same lands. This sequence does not make sense and I think 
poses a major threat to the integrity of the public interest 
withdrawals, the BLM lands of Alaska, aside from the national 
interest lands or the national conservation system units. That 
is not an appropriate way to properly manage the public lands 
in our view.
    I chose these two examples because they will become 
intensely controversial and we do not think they are necessary 
to accomplish the purpose of this bill. There is no relation at 
all to the goal of expediting the conveyances to the native 
corporations and the State. So, therefore, it seems to me that 
you could delete these easily and not jeopardize or potentially 
jeopardize the passage of this bill.
    Finally, Madam Chair, I go back to some legislation of 
about 4 years ago when this committee settled the allotment 
claims of the veterans of the Vietnam War era. As a basis for 
that consideration, the committee had a comprehensive report 
from the Department of the Interior that was extremely valuable 
both to the committee and to the public in understanding the 
issues and dealing with the legislation. Given that this bill 
before us today is far more complex, lengthy, and potentially 
controversial, I would recommend that you ask the Department 
for a similar comprehensive report or perhaps the General 
Accounting Office for such a report before you take any further 
action on the bill. Given a detailed analysis of the impact of 
this, I think we could all eventually come to agree on a bill 
that would accomplish the purposes set forth. I think it would 
be a valuable public service.
    That completes my statement. Thank you very much.
    [The prepared statement of Mr. Hession follows:]

      Prepared Statement of Jack Hession, Alaska Representative, 
                       Sierra Club, Anchorage, AK

    Good afternoon, Mr. Chairman and members of the Subcommittee. Thank 
you for the invitation to offer our views on to S. 1466, the Alaska 
Land Transfer Acceleration Act. My name is Jack Hession, and I am the 
Senior Regional Representative of the Sierra Club in the Alaska Field 
Office of the Sierra Club in Anchorage, Alaska. The Sierra Club is a 
national environmental organization of over 700,000 members with 
chapters in every state.

                                SUMMARY

    We support the transfer of remaining Native and State land 
selections as soon as practicable. However, we oppose S. 1466 as 
introduced and as revised by the proposed amendments of February 2, 
2004, because it goes far beyond the changes in law, if any, that may 
be needed to expedite the transfer of the remaining selections.
    If passed, the bill would transfer land out of national 
conservation system units and other public lands designated for 
national conservation purposes, arbitrarily increase state and Native 
land grants at the expense of the public lands, give the Secretary of 
the Interior unwarranted new discretion, and reduce the public 
participation in public land decisions. The bill also contains numerous 
provisions unrelated to the goal of speeding up the land conveyance 
process.
    S. 1466 threatens the integrity of many national conservation 
system units, including the Arctic National Wildlife Refuge and other 
refuges established prior to ANCSA, such as Alaska Maritime, Izembek 
and Yukon Delta. It also puts at risk sensitive public lands in the 
Tongass and Chugach National Forests, and public hot springs.
    S. 1466 is complex and controversial measure that proposes to amend 
ANCSA, ANILCA, and the Alaska Statehood Act. We recommend that the 
Subcommittee ask the Department of the Interior for a comprehensive 
report on the Department's land conveyance program as the basis for 
further consideration of this bill. In the course of settling certain 
Alaska Native veterans' allotment claims in 1998, the Committee had the 
benefit of a detailed background report from the Department that was 
also very helpful to the public.\1\
---------------------------------------------------------------------------
    \1\ A Report Concerning Open Season for Certain Native Alaska 
Veterans for Allotments, U.S. Department of the Interior, 1997.
---------------------------------------------------------------------------
    A report on the Department's conveyance program could assist the 
Subcommittee and the public in considering whether changes in the law, 
improvements in the administration of the program, increases in 
funding, or perhaps all three could achieve the desired result. If 
changes in existing law are shown to be needed, the report could serve 
as the foundation for a bill that could have the support of all 
affected parties.
    The Subcommittee has time for an in-depth examination of the 
issues. While there is a need to convey the remaining state and Native 
land selections, there is no need to rush to judgment, especially if 
the result of this haste would be to further delay the conveyance 
process. According to the BLM, Native corporations have received title 
by interim conveyance or patent to 37.5 million acres or 82 percent of 
their 45.5-million-acre ANCSA grant. Similarly, the State has received 
title by tentative approval or patent to 91 million acres or 87 percent 
of its 104.5-million-acre Statehood grant.
    Meanwhile, funding of BLM's land conveyance program has steadily 
increased, from $33.9 million in FY 2000 to $41.9 million in FY 2004. 
BLM's conveyance staff has increased, and the Bureau has brought in 
specialists from the private sector and other agencies to help expedite 
the remaining conveyances.
    Should the Subcommittee seek a comprehensive report on the 
conveyance process and possible solutions, it could in the interim lend 
its support to an increase in funding for the BLM's conveyance program. 
With more administrative and surveying capability, the BLM could step 
up the yearly conveyance totals significantly. These increases in staff 
and funding would go a long way towards reaching the goal of final 
conveyances.

               S. 1466 WITH REVISIONS OF FEBRUARY 2, 2004

Sec. 104. Effect of powersite reserves, powersite classifications, 
        power projects, and hot spring withdrawals
    This section would transfer to the State certain public lands that 
the State has selected (under the top-filing authority of ANILCA) and 
that have not been available for state selection because they have long 
been withdrawn for power-related purposes and retention of hot springs 
in public ownership.
    This section is not in the public interest. Even with the exemption 
for conservation system units (CSUs) in the proposed amendments, this 
section would dispose of valuable public lands and resources to the 
State, no questions asked, in the complete absence of information and 
data necessary to properly evaluate the State's request. Rather than 
take a leap in the dark, the Subcommittee should require from the 
Department an inventory, land status, and resource analysis of the top-
filed power-related and thermal springs withdrawals, as part of a 
larger more comprehensive report, as recommended above, prior to 
further consideration of this bill.
    Thermal springs in Alaska were originally withdrawn early in the 
last century because of their medical and public purposes, and they 
remain features of the Alaska landscape cherished by Alaskans and 
visitors alike. It's fair to assume that those springs in public 
ownership outside CSU's and other federal reserves contain scientific, 
recreational, wildlife habitat and aesthetic values that easily qualify 
them for continued retention in federal ownership. For example, Upper 
Selawik Hot Springs, one of the springs subject to Sec. 104, is near 
the boundary of the Selawik National Wildlife Refuge and Selawik Wild 
River. Along with Lower Selawik Hot Springs inside the refuge, it is a 
critically important fish and wildlife habitat component of the Selawik 
River and hence the Refuge.
    Similarly, public land originally set aside for potential power 
development may contain other values and resources not adequately known 
or adequately recognized at the time of the original withdrawals. For 
example, a withdrawn tract on BLM lands may be far more valuable as 
part of an important salmon spawning river system than for power 
generation purposes. As part of its land use planning process, the BLM 
is required to evaluate rivers and river-lake systems on BLM lands for 
eligibility as potential units of the National Wild and Scenic Rivers 
System. Some of the existing hydropower-related withdrawals may be 
located on rivers and streams that would qualify for inclusion by 
Congress in the national system. A state takeover of these withdrawn 
lands via Sec. 104 could disqualify the rivers as candidates for 
potential addition to the rivers system.

Sec. 106. Settlement of Remaining Entitlement
    This section would authorize the Secretary to enter into binding 
written agreements with the State with respect to any aspect of its 
remaining entitlement, including the exact number of acres remaining to 
be conveyed to the State. As the amount of land remaining to be 
conveyed is set in law, this limitless discretion given to the 
Secretary is unjustified, particularly without any provision for public 
comments on such agreements. We recommend that this section be deleted.

Sec. 107. Effect of Federal Mining Claims
    This section would allow an owner of a federal mining claim to 
voluntarily relinquish title to the BLM, provided the BLM transferred 
title to the State. The BLM would avoid having to survey the mining 
claim in order to exclude it from the land conveyed to the State.
    Voluntary transfers of federal claims to the State have been going 
on for years as part of the conveyance of state-selected lands to the 
State. However, under the existing procedure, the land the State 
acquires is charged against the State's entitlement. Sec. 107 waives 
this requirement in some circumstances.
    Sec. 107 could potentially transfer thousands of acres to the State 
free of charge. According to the BLM, if all federal mining claims on 
state lands were converted to state claims, approximately 80,000 acres 
could be awarded to the State.
    There is no justification for waiving the charge against the 
State's entitlement, especially in light of the State's exceptionally 
generous land grant. We recommend that the waiver be deleted.

Sec. 108. Land Mistakenly Relinquished or Omitted
    This section would allow the State, with the concurrence of the 
Secretary, to select or topfile land mistakenly relinquished or 
erroneously omitted from a previous selection or topfiling.
    In evaluating this proposal from the State, the Subcommittee needs 
to know what lands the State proposes to now reselect or topfile. We 
recommend that the Subcommittee ask the State to identify the previous 
selections mistakenly relinquished or erroneously omitted, including 
the precise location and amount of acreage involved. This data could be 
part of a background report on the Department's land conveyance 
programs and problems, as recommended above.
    ANILCA closed the CSUs to new state land selections. Section 108 
could be interpreted to apply to pre-ANILCA relinquished and omitted 
land that was subsequently incorporated into the new conservation 
system units. We recommend that the CSUs and other public lands 
designated by Congress for conservation purposes be exempt from the 
application of this section.

Sec. 201. Land Available After Selection Period
    This section would allow the Secretary to waive the filing deadline 
for Native village corporation selections in order to allow a 
corporation with remaining entitlement to select federal lands not 
available during the original filing period. Subsection (b) would allow 
the Secretary to ``waive the 69,120-acre limitation for land within the 
National Wildlife Refuge System for land conveyed pursuant to this 
section.''
    The limitation of three townships is a key component of a major 
compromise reached in ANCSA over village corporation selections in the 
pre-ANCSA refuges. Congress established that limitation in an effort to 
balance Native claims with the national interest in these ``old'' 
refuges. We supported the compromise then, and do so now.
    We recommend that the Subcommittee either delete this section or 
remove the waiver of the 69,120-acre limit on conveyances within pre-
1971 refuges.

Sec. 203. Conveyance of Last Whole Section
    This section would allow the Secretary to convey the next 
prioritized section to a village or regional corporation, other than a 
corporation in Southeast Alaska, if by doing so the corporation's 
entitlement would be fulfilled. For example, if a village or regional 
corporation could complete its land grant by selecting 120 acres in the 
next section (one square mile or 640 acres) prioritized for selection, 
it would receive the entire 640 acres for a net increase in its 
entitlement of 520 acres. If a corporation's entitlement could be 
fulfilled by the conveyance of 600 acres, the net increase in its 
entitlement would be 40 acres.
    The rationale for this proposal is that BLM could avoid the 
existing requirement to survey ``down to the last acre'' to be 
conveyed, convey the entire section instead, and thereby accelerate the 
transfer of remaining selections.
    However, this proposed shortcut would come at the expense of the 
national interest in protecting the integrity of the national 
conservation system units. In the national wildlife refuge system there 
are 99 village corporations entirely within the refuges and 42 more 
outside the refuges but having land selections within them. In the case 
of the pre-1971 wildlife refuges, application of Sec. 203 would lift 
the three-township ANCSA limitation discussed above.
    According to the National Park Service, there are about 30 village 
corporations with selections inside national park system units.
    Sec. 203 thus has the potential for removing thousands of acres 
from the refuges and parks. These potential deletions generally consist 
of some of the most valuable land in the CSU's. In the national 
wildlife refuges, villages are usually located in areas of the most 
productive habitat. In the national parks the additional acreage 
removed by Sec. 203 would likely be lowland wildlife habitat and 
valuable public use areas.
    It is not in the national interest to unnecessarily increase the 
amount of non-federal lands within the national conservation system 
units. Since ANILCA of 1980, federal land management agencies have 
acquired private inholdings, some quite small, in CSU's at a cost of 
millions of dollars in federal funds. Sec. 203 would undermine and 
largely reverse this continuing effort.
    For the foregoing reasons we recommend that Sec. 203 not apply to 
units of the national conservation systems. We urge the Subcommittee to 
find other means of expediting the final conveyances to those 
corporations that have selections within the CSU's.

Sec. 204. Discretionary Authority To Convey Subsurface Estate in Pre-
        ANCSA Refuges
    Under the authority provided by this section, the Secretary of the 
Interior could offer to the appropriate regional corporation the 
opportunity to take the subsurface estate beneath the surface estate 
owned by a village corporation in a pre-ANCSA national wildlife refuge, 
except the Kenai and Kodiak refuges. These refuges include the Arctic 
National Wildlife Refuge and its coastal plain, Alaska Maritime, 
Izembek, and Yukon Delta.
    This section proposes to do away with another of the key components 
of the compromise reached in ANCSA over proposed Native village 
selections in the existing refuges. (We discussed another component, 
the 69,120-acre limitation, under Sec. 201, above). Congress precluded 
regional corporation selections of the subsurface estate because it 
recognized that potential development of that estate was incompatible 
with the national interest in protecting the surface wildlife habitat 
and subsistence values. This is why Congress also required the surface 
estate to be managed in accordance with the rules and regulations of 
the refuge, i.e., required that any surface development be compatible 
with the purposes of the refuges.
    We oppose Sec. 204 and recommend that it be dropped from further 
consideration.

Sec. 207. Allocation Based on Population
    This section provides that in order to complete its Sec. 14(h)(8) 
entitlement, a regional corporation shall receive its percentage share 
of an additional 255,000 acres above any acreage allocated as of 
January 1, 2003. However, the BLM's most recent estimate of remaining 
14(h)(8) entitlement is 180,000 to 200,000 acres. How and why the 
figure of 255,000 acres was chosen remains a mystery.
    In any event, Sec. 207 would have an adverse effect on the Tongass 
National Forest by increasing the amount of land conveyed to the 
Sealaska Corporation for clear-cut logging, mining and other 
development.
    We recommend that this section be deleted.

Sec. 209. Bureau of Land Management Land
    This revised section revokes the Sec. 17(d)(1) withdrawals of ANCSA 
and opens the lands to all forms of appropriation under the public land 
laws, including the mineral laws, unless otherwise segregated or 
withdrawn. Certain public lands set aside by certain public land orders 
would continue to be unavailable for conveyance to the State.
    The section also authorizes the Secretary to classify or reclassify 
any land in Alaska administered by the BLM not otherwise segregated or 
withdrawn, and to open or close such lands to any form of appropriation 
or use under the public land laws, including the mineral laws, in 
accordance with such classifications.
    We are strongly opposed to this wholesale opening of tens of 
millions of acres of public lands to mining, mineral leasing, and other 
uses before land use plans have been put in place. This action would 
render meaningless the land use planning requirements of the Federal 
Land Management and Policy Act (FLPMA) and would circumvent the public 
participation in public land use decision that goes along with land use 
planning. This provision is also completely irrelevant to the purpose 
and goals of S. 1466.
    We recommend that this section be deleted.

Sec. 212. Settlement of Remaining Entitlement
    This section would authorize the Secretary to enter into binding 
written agreements with Native corporations with respect to any aspect 
of their remaining entitlement, including the exact number of acres 
remaining to be conveyed to the corporation. This is a parallel 
provision to Section 106, and we oppose it for the reasons discussed 
above.
    As proposed in Section 212, the Secretary's broad discretion to 
negotiate with Native corporations raises the specter of closed-door 
arrangements that could jeopardize the national conservation system 
units, Land Use Designation II areas in the Tongass National Forest, 
and other sensitive National Forest lands.
    BLM Alaska explained the rationale for its proposed new authority 
in Sections 106 and 212 as ``authority that provides negotiated 
resolution,'' including ``authority for village and regional 
corporation, state, and federal agencies to negotiate substitution of 
new lands for existing claims and land exchanges related to Native and 
state entitlements.'' We oppose the grant of any new authority unless 
it can be shown that existing authority is insufficient to accomplish 
the goal of the bill. There may be a need for relatively minor 
adjustments to existing authority, but that case has not been made.
    For example, Section 212 would give the Secretary discretion to 
waive the requirement for public use easements under Sec. 17(b) of 
ANCSA covering the eight million acres remaining to be conveyed to 
Native corporations. This waiver authority could accelerate the 
conveyances, but it would come at the expense of the public interest in 
retaining access to public lands. We oppose this proposal.

Sec. 213. Conveyance to Kaktovik Inupiat Corporation and Arctic Slope 
        Regional Corporation in the Arctic National Wildlife Refuge
    This section directs the Secretary to convey thousands of acres of 
surface estate to the Kaktovik Inupiat Corporation and the subsurface 
estate to the Arctic Slope Regional Corporation (ASRC) within the 
coastal plain of the Arctic National Wildlife Refuge. The section, 
which does not contain an explicit guarantee that oil and gas drilling 
and development will continue to be prohibited on these lands, is the 
latest attempt by drilling proponents to find a back-door way into the 
Arctic Refuge. Conveying more subsurface land out of the refuge can 
only be intended to add momentum to the ill-advised and unpopular 
effort to develop the coastal plain of the Arctic Refuge for oil and 
gas. We therefore urge the Committee to remove this section from the 
bill.
    The coastal plain lands at issue are an integral part of the 
original refuge established in 1960, and therefore were covered by 
ANCSA's provisions precluding conveyances of subsurface estate to the 
Regional Corporation. Despite this, in a 1983 Agreement known as the 
Chandler Lake Exchange, former Interior Secretary James Watt and the 
Arctic Slope Regional Corporation agreed to a land exchange that 
allowed ASRC to acquire the subsurface estate within the refuge, 
subject to a prohibition on development under the terms of the 
Agreement and Section 1003 of ANILCA.
    The General Accounting Office (GAO) found the1983 exchange ``not to 
be in the government's best interest,'' and it also recommended that 
negotiations on another controversial exchange be discontinued.\2\ GAO 
said of the 1983 exchange, ``Interior used its broad authority to avoid 
procedural requirements otherwise applicable to land exchanges, such as 
full public review, preparation of environmental impact statements, and 
disclosure of the fair market value of the land and interest 
exchanged.''
---------------------------------------------------------------------------
    \2\ General Accounting Office. October 6, 1989. Federal Land 
Management: Chandler Lake Land Exchange not in the Government's best 
interest. RCED-90-5; General Accounting Office. September 29, 1988. 
Federal Land Management: Consideration of proposed Alaska land 
exchanges should be discontinued. RCED-88-179. p. 18-19.
---------------------------------------------------------------------------
    In 1988, Congress passed an ANILCA amendment that prevented the 
Interior Department from executing further exchanges in the Arctic 
Refuge coastal plain without Congress's express approval. The House 
Committee report said the prohibition was ``to permit Congress to 
decide the future status of the coastal plain on its merits. . . . 
``Megatrades'' or any other exchanges, as well as any other prospective 
conveyances involving lands or interests in lands within the coastal 
plain may only be implemented after congressional review and after 
securing legislative approval by an Act of Congress.'' \3\
---------------------------------------------------------------------------
    \3\ H.R. Rep. No. 100-262, Part 1 at 7-8 (1987). Cited by Baldwin, 
2002, p. 7-8.
---------------------------------------------------------------------------
    Congress concluded that the Interior Department's exchange would 
pre-empt its authority to decide the fate of the Arctic Refuge, while 
the Department ``continued to assert it had the complete and unilateral 
authority to trade away oil and gas rights . . . without Congressional 
Approval.'' \4\ Sec. 213 of S. 1466 overrides the Congressional 
amendment (ANILCA sec. 1302(h)(2); 16 U.S.C. 3192(h)(2)) to allow 
poorly defined future conveyances, contrary to Congress's resolution of 
this conflict with the Department in 1988.
---------------------------------------------------------------------------
    \4\ Baldwin, Pamela. August 22, 2002. Congressional Research 
Service Memorandum. Arctic Slope Regional Corporation lands and 
interests within the Arctic National Wildlife Refuge. 9pp.
---------------------------------------------------------------------------
    We oppose section 213 and recommend that it be deleted.

Sec. 302. Title Recovery of Native Allotments
    This section would allow any Native corporation or the State to 
deed back to the United States land encompassed by an allotment claim. 
The Secretary would then convey the same land to the allotment 
applicant if the applicant agrees to accept it.
    Subsection (b) would amend existing law by giving the State or a 
Native corporation authority to determine whether the applicant is 
legitimately using the land. In effect this allows the State or a 
Native corporation to determine whether the allotment claim is valid or 
not. The authority to determine validity should remain solely in the 
hands of the federal government. We recommend deletion of the phrase 
``or attestation of the State or Native Corporation as to the use of 
the land by the applicant.''
    Subsection (c) would allow a Native corporation under Sec. 303 to 
offer substitute land to the claimant. Sec. 303 would allow the 
relocation of Native allotments to land ``selected and irrevocably 
prioritized by or conveyed by interim conveyance or patent to a Native 
Corporation. . . .''
    The problem here is that ``irrevocably'' prioritizing a land 
selection does not guarantee that the land will ultimately be conveyed 
to the Native Corporation. An allotment relocated to such a selection 
could eventually create an isolated island of private land within a 
national conservation system unit, after excess selections--including 
excess prioritized selections--drop away. To guard against this 
possibility, Native corporations' relocations of allotments within 
CSU's should be limited to lands actually owned by Native corporations, 
i.e., interim conveyed or patented land.

Sec. 303. Relocation of Allotments on ANCSA Lands
    This section is discussed in connection with Sec. 302, above. 
Relocation of allotments within CSU's should be limited to land interim 
conveyed or patented to the Native corporation.

Sec. 304. Compensatory Acreage
    This section provides for compensatory acreage to the State or a 
Native corporation when its entitlement is reduced by actions taken as 
a result of Sections 301, 302, and 303 having to do with Native 
allotment adjustments. Subsection (c) of Sec. 304 provides the 
Secretary with ``sole and unreviewable discretion'' to make additional 
land available to compensate a village corporation.
    It is not clear whether this discretion would extend to withdrawing 
federal lands within CSU's for compensation purposes. We recommend that 
the Secretary's withdrawal authority be limited to lands outside CSU's 
and outside other lands designated by Congress for conservation 
purposes, such as Land Use Designation II areas in the Tongass National 
Forest.

Sec. 307. Amendments to Section 41 of ANCSA
    This section would allow allotment applications by certain Native 
veterans of the Vietnam War Era to include land ``valuable for deposits 
of sand or gravel'' except for allotment claims within units of the 
national park system.
    We appreciate the recognition that it is important to avoid 
potential sand and gravel operations on private lands within units of 
the national park system. It is equally important to avoid such 
development in other national conservation system units as well. We 
recommend that Sec. 307 exempt all units of the national conservation 
systems from application of this section.

Sec. 501. Alaska Land Claims Hearings and Appeals
    This section would establish a new hearings and appeal process ``to 
decide appeals from Alaska land transfer decisions issued by the 
Secretary.'' .
    Currently, the Interior Board of Land Appeals (IBLA) hears appeals 
of decisions on Alaska land transfers. We question the need for a 
wholly new and duplicative appeals apparatus for Alaska. We also object 
to the exclusion of the public from the process of developing 
regulations governing the new appeals process. In lieu of Sec. 501, the 
Subcommittee could lend its support for additional IBLA administrative 
law judges and staff adequate to expedite the resolution of pending and 
future appeals. We recommend that it do so.

                              CONCLUSIONS

    We agree that the remaining Native and state land selections should 
be conveyed as soon as practicable. Completion of the land transfer 
process is obviously in the Native and State interest; it would also 
benefit the public. Millions of dollars in federal funds now devoted to 
the conveyance program could be used for other vital public land 
management functions, and lands now tied up in over-selections could be 
managed in accordance with the land use plans of the federal agencies.
    We recommend that the Subcommittee seek a comprehensive report on 
the status of the conveyance program, its bottlenecks and other 
problems, and what administrative and statutory changes would help 
expedite the remaining land transfers.
    S. 1466 as revised adopts short cuts in existing procedures and 
changes in existing laws that could result in controversy, potential 
litigation, and further delays in the conveyance program. Many sections 
of the bill have the potential to harm the national conservation system 
units of ANILCA. Other sections would reduce public review and 
participation in public land decisions. Still others would grant 
unnecessary new administrative discretion to the Secretary. We urge the 
Subcommittee to avoid these potential pitfalls as it drafts a final 
version of this bill.
    We stand ready to cooperate with the Subcommittee in an effort to 
craft a bill all interested parties can support.
    Thank for this opportunity to present our views.

    Senator Murkowski. Thank you. Thank you all for your 
testimony. Thank you for joining us.
    I do have quite a lengthy series of questions that I have 
for each of you. In the interest of time, I am just going to 
ask a few and you will be receiving the rest of our questions 
in written format, and we will look forward to your responses.
    Obviously, a disagreement on both ends of the table here in 
terms of whether or not the State gets any additional land 
entitlements out of this bill. I believe it was you, Ms. 
Rutherford, that stated very clearly--and I think you 
enunciated your words--that in fact, the State does not get any 
additional land entitlement out of the bill. It was suggested 
that through this legislation, we would be essentially 
arbitrarily increasing the entitlement were I believe the words 
that Mr. Heath used.
    Can you clarify for me, does the State get any additional 
land entitlement out of this legislation? And, Mr. Bisson, if 
you want to join Ms. Rutherford, that would certainly be 
appropriate.
    Ms. Rutherford. Madam Chairman, the State of Alaska does 
not get any additional entitlement. First of all, our 
entitlement was fixed at 35 years after Statehood, which was 
January 2, 1994. So this does not provide any additional 
acreage.
    There is the potential for some additional acreage 
associated with Federal mining claims. If existing Federal 
mining claims were terminated or abandoned at some point in 
time, the land would convey to the State, and this bill does 
provide that the Bureau of Land Management does not have to 
survey out the donut holes. But that is the top end. That is 
the highest it could possibly be. We think 50,000. And the odds 
are that that would actually be a much smaller acreage figure. 
And that is simply because it would eliminate the very costly 
process of surveying out the donut holes as a responsibility by 
the Bureau of Land Management.
    Senator Murkowski. So what you have said is at the top end, 
there could potentially be an additional 50,000 acres that 
would not be subject to survey.
    Ms. Rutherford. That would not be subject to survey and 
would not be then an acreage calculation against our 
entitlement. That is correct, but that is the top end estimate.
    Senator Murkowski. Mr. Bisson, can you speak to that?
    Mr. Bisson. Yes, I can. Senator, this has to do with the 
inefficiency of spending from $2,000 to $13,000 to survey each 
small, isolated mining claim within a large block of State-
selected land. After the legislation is passed, I think what it 
will do is allow us to pass title without surveying these 
mining claims and create an opportunity that if at some point a 
Federal mining claimant forgets to file their paperwork or the 
claim becomes null and void, the land would go to the State. So 
it creates a small opportunity for some additional lands to go. 
If all of the mining claims that are currently in the areas 
that the State would get were to go that way--and they will 
not, but if they were--the entitlement amounts to eight-tenths 
of 1 percent of the entire land transfer package. It is a very 
small amount of land, but it saves us an awful lot of money.
    Senator Murkowski. Then how do you respond to the 
suggestion from Mr. Heath that Sealaska would potentially be 
able to receive additional entitlement from the State and 
somehow be--these will be my words, Mr. Heath--unjustly 
enriched or the door will be open for them and not for others?
    Mr. Bisson. There is a remaining entitlement in the 
14(h)(8) category of ANCSA that needs to be calculated at some 
point when all of the remaining lands are transferred. What 
this provision would do is set a cap--which is what I think we 
have come to agreement on. We estimate that is what will be 
necessary to close out this entitlement.
    Sealaska will be entitled to 22 percent of that cap. The 
other corporations--I think there is a total of 10 
corporations--will be able to obtain land through this 
entitlement as well. We do not see it as an increase in 
entitlement. It is a way for us to bring this particular 
category to closure, and Sealaska will get its fair share and 
no more.
    Senator Murkowski. This is following up on the additional 
land entitlement then. Does the bill enable the State to 
receive any additional lands within Federal conservation system 
units?
    Ms. Rutherford. Madam Chairman, the State does not receive 
any additional conveyance within any of the Federal CSU's.
    Senator Murkowski. Are there any existing valid selections 
in CSU's?
    Ms. Rutherford. Madam Chairman, there are but just a very 
few. I am only aware of two selections within the national 
wildlife refuges and a few within the national parks. In each 
case the park or the refuge was established after the State 
selected the land, and again, the validity of those selections 
is not affected by this legislation nor is any entitlement 
expanded.
    Senator Murkowski. Another concern that was raised both by 
Mr. Hession and Mr. Heath was that somehow or other we are 
diminishing the public input or the opportunity to comment. We 
did have some discussion about this earlier with Director 
Clarke, but in terms of the opportunity for an individual to 
participate, to object, does this legislation reduce in any way 
that opportunity to participate?
    Mr. Bisson. I think the provision that they have spoken 
about that they are most concerned with is section 209 which is 
the provision that would remove the D(1) withdrawals and permit 
the lands to be able to be used for multiple-use management 
purposes. I think that is the one they are most concerned 
about. Frankly, that provision is necessary.
    All we are trying to do--and we have been working with 
committee staff and will continue to do so on this--is to 
expedite the process of being able to manage those lands like 
we would any public lands in the United States. If we have to 
go through a very long, time-consuming process to get there, 
those lands will not be available for us to provide 
opportunities for various uses. So in that respect, that 
legislation would automatically remove those withdrawals.
    But the Secretary still has the ability through our land 
use planning process to propose to withdraw lands that are 
sensitive and that should not be developed for purposes that 
might be inappropriate for the values that are there. We have 
other processes in place for public involvement on all the 
decisions that we make on public lands. So we fully expect the 
public would be engaged in any future decisions that we make on 
those lands.
    Senator Murkowski. It is your observation then that section 
209 is necessary in order for full implementation of this 
legislation.
    Mr. Bisson. Yes.
    Senator Murkowski. Just a quick question to you, Ms. 
Rutherford, about the native allotments. Mr. Thomas in his 
written testimony did speak to this and has indicated that the 
State has protested many of the native allotments. I would like 
you to address the reason why and essentially what the State's 
role in dealing with the native allotments is and how the State 
can basically make the process work better.
    Ms. Rutherford. Madam Chairman, the State's role in dealing 
with native allotments is primarily one of reconveyance. A few 
hundred of the allotments are on State land that had already 
been conveyed to the State of Alaska by the Bureau of Land 
Management. When BLM determines that a valid native allotment 
exists, we review the allotment and unless there is an 
important public reason why it cannot accommodate the allottee, 
we reconvey the land back to the Bureau of Land Management for 
conveyance to the allottee.
    We feel very strongly these allottees are our citizens, and 
we make every effort to ensure that they receive what they are 
entitled to. However, there have been instances where there is 
an overriding public interest, public reason why we have 
opposed certain reconveyances. So there are instances where we 
have not accommodated, but we try to make that extremely rare 
and in most instances we, working with the Federal Government, 
are able to either find substitute lands or actually reconvey 
the land back to BLM for conveyance to the allottee.
    Senator Murkowski. Mr. Thomas, in your written testimony 
and in your spoken comments, you alluded to certain changes and 
you go into more detail in your testimony. I think that I heard 
you say that without these changes, you did not think that we 
would be able to keep the goal that we have set of completing 
the conveyances by the year 2009. In looking through them, it 
looks like there are a lot of changes, and I guess I want to 
understand if you feel that given the changes that you are 
suggesting, whether we can still meet our goal.
    Mr. Thomas. It is our collective judgment, yes. Now, having 
said that, there are some things that even we are proposing 
that will add time. For example, with the appeals process, 
there is some time that would be added to the process.
    I think that the other, I guess, caveat here--you heard 
from the State where their objections are and we agree with 
those. Now, it is the other blanket objections, that when you 
have 6,000 objections and very many of them are pretty much the 
same reasons, I think that those can be handled somewhat as a 
class and not have to be dealt with each step along the way 
because when you have a protest, there is a process by which to 
deal with that protest which is very involved and requires a 
lot of proof on one side or the other. So we have got to get 
past that because it is holding up everybody. It is bogging 
down the system from our perspective.
    On those isolated cases that were spoke of, we have no 
problem with that. We are still working through many of those 
things where there are overlapping claims or filings. She is 
right. We do work out those pretty well. It is just that 
backlog is really creating a big problem for everybody, and we 
feel that some of them are really just there to be there.
    Senator Murkowski. One of the suggestions that you have 
proposed is actually contracting out some of the allotment 
workload to natives.
    Mr. Thomas. Right.
    Senator Murkowski. I do not know what the rest of the panel 
might think about that as a proposal, but I would imagine that 
there are many of your friends and neighbors that probably have 
more working knowledge about what is going on within the 
allotment process than most other folks would ever even dream 
of just because they have been living, they have been waiting 
generations to get their allotments through. So they probably 
have a pretty good knowledge of what is going on, maybe not 
quite how to fix the problem.
    Mr. Thomas. Yes, you are right. I think to move things 
through the system, there is some value to that suggestion, but 
I must make it ultimately clear that we do not have the 
authority to sign off on a final certification, and I do not 
want to confuse the issue by suggesting that. We understand 
that totally. But right now there are so many issues just not 
going through the system and there is really no consequence for 
not going through the system. I am not sure you can legislate 
some of that stuff.
    I think sometimes there needs to be a will to find the way. 
As I pointed out in the pipeline situation, there was 
definitely a will and they got it done. In our case there seems 
to be a dragging of feet that I am not able to put my finger 
on. I wish I could. Maybe more than just one finger.
    I really think that there is a lot to what you said in your 
opening comments. Why do we need legislation to do what you are 
supposed to do? There are some things that can be cleaned up by 
this legislation, we agree, and they are adequately addressed. 
We make some minor adjustments, but there really needs to be 
some discussion about getting the job done and doing it right.
    Senator Murkowski. This goes to Mr. Heath's comment too, or 
maybe it was Mr. Hession, about what actually needs to be 
fixed. Where do we make that fix?
    Mr. Thomas. Yes. We provided a lot of detail in here, and 
hence the thickness of our testimony, and hope that there will 
be some credibility given to that because we understand that 
there is a goal way up here, but we feel that there need to be 
little steps along the way to get there, not just here one day, 
5 years later up here. You really have to pick away at the 
detail and find out where the problem is, and some of these 
amendments I believe address them.
    Senator Murkowski. Mr. Mery, one quick question for you. 
You have mentioned the amendments and your appreciation of how 
far we have come since the bill was first introduced and just 
kind of the ongoing work in progress. In terms of meeting our 
2009 goal, what do you perceive to be the critical impediments 
to reaching that?
    Mr. Mery. Funding for the Bureau of Land Management I 
think. There will be a lot of challenges within the native 
community to come up with their own funding, obviously, to do 
parallel planning I guess with them. But I think funding is 
really going to be the major challenge.
    Senator Murkowski. And if we fail to either come up with 
the funding or if we fail in achieving our goal, what does it 
mean to your corporation? What does it mean to Doyon, Limited?
    Mr. Mery. I guess that is a difficult question to answer 
because we always try to find creative ways to work our way 
around problems. We have done that for 20 some odd years now. 
But I guess the fact that it has been so many years. A lot of 
people would like to wrap this process up frankly so people 
will know what lands they will be managing and what lands that 
they can potentially develop. That is the big question for us 
right now. We are prepared to move forward. 10 years actually 
we were not prepared to move forward, but we are today.
    Senator Murkowski. Certainty is necessary for any kind of 
investment.
    Mr. Heath and Mr. Hession as well, either one of you can 
answer this because you both made the same comment in your 
initial statements. You state that you support the transfer of 
the remaining selections as soon as practicable but then you go 
on to object to this particular legislation and the amendments 
that we have proposed. Is there anything in this legislation 
that you do support, that you do feel helps with our agreed 
goal that we need to speed up the conveyance process, that we 
need to achieve the goal of full and rapid conveyance?
    Mr. Hession. Yes, Madam Chair. There are numerous sections. 
I think you can assume that if I did not mention them, that 
those are ones that we see as noncontroversial and helpful in 
this process.
    Senator Murkowski. Oh, good. Then I am going to go back 
through your testimony.
    [Laughter.]
    Mr. Hession. Could I make another observation at this 
point? There have been a number of acreage figures talked about 
here this afternoon. We do not see the situation quite like 
some of the previous speakers. According to the BLM now as of 
September of last year, the BLM has transferred 91 million 
acres to the State of Alaska either as patented lands or 
interim conveyance. Interim conveyance involves complete 
divestiture of Federal interests to the State. For purposes of 
managing it, leasing it, selling it, et cetera, it is as good 
as patent. That leaves the State with only about 10 million 
acres because they want to hold on to about 3.5 million acres 
of over-selections indefinitely. I do not think that the sense 
of urgency that the State has expressed here is quite as urgent 
as you might be led to believe.
    In the case of the native regional corporations, they only 
have 8 million acres left to go, and there is the real problem, 
if there is any. They have 82 percent of their entitlement in 
hand and can do whatever they want with it right now.
    That is why I suggested that maybe if the committee stepped 
back and took a detailed look at the bill, it could craft a 
version that all parties to the discussion here could support. 
I appreciate your effort to continue the cooperative process 
here. We certainly would be delighted to help out on that 
score. It is just that some of these are so complex, technical, 
and frankly, mysterious that they need further analysis we 
think before a final bill is adopted.
    Mr. Mery has put his finger--and Mr. Thomas--on the real 
bottleneck here and that is the Alaska Native allotments. Once 
those are handled in some way, everything else will fall in 
place rapidly I think. Therefore, it would seem appropriate for 
the subcommittee to focus in on that true bottleneck, see what 
you can do, without abridging anyone's rights in this process, 
to expedite those, and then things will, I think, proceed 
rapidly.
    Senator Murkowski. Mr. Heath, what do you find of value in 
the bill?
    Mr. Heath. Well, I would agree with my colleague, Mr. 
Hession, here, that the sections that we did not comment on are 
sections that we find okay, we have no objection to.
    If I could respond to your question to Marty Rutherford 
about acreages. I am looking here on our exhibit 1 in my 
written testimony, a letter written by BLM which states that we 
believe the ultimate range of acres available for reallocation 
is between 180,000 and 200,000 acres. And here in section, I 
believe, 209 of the bill, that allocation has been moved up to 
255,000. That is what I was referring to in my testimony, that 
we have gone from the BLM maximum of 200,000 acres to the bill 
being 255,000 acres. And that is where we made the statement 
that it seems to be arbitrary. At least we do not know the 
justification for exceeding the BLM estimate.
    Senator Murkowski. You made the reference that if Kaktovik 
were to receive its remaining 200,000-acre entitlement, that 
that could be construed as allowing Kaktovik within the ANWR 
coastal plain, that it would somehow be construed that they 
would be able to proceed with oil and gas development and that 
we should not be willing to take that chance. We have asked 
this question so many different ways and the answer always 
comes back the same, that this in no way allows for 
authorization or somehow or other any opportunity for Kaktovik 
to pursue oil and gas development. What leads you to make the 
statement that you have made this afternoon?
    Mr. Heath. Madam Chair, SEACC is southeast Alaska. I 
believe Jack Hession made that statement. I will pass it over 
to him.
    Senator Murkowski. Okay, I am sorry.
    Mr. Hession. What I was referring to there is in the case 
of the KIC corporation, they would have another I think it was 
6,000 acres left to go. That is not the real issue here. That 
is a different matter entirely from the subsection in the bill 
here that would require--section 213 I believe it was--the 
Secretary of the Interior to convey the subsurface estate to 
the Arctic Slope Regional Corporation. There is no guarantee 
that this maintains the status quo with respect to the current 
congressional prohibition on both conveyances and development 
of the coastal plain. It needs further analysis. It raises all 
sorts of questions as to the intent here, and as I mentioned 
before, it is going to be extraordinarily controversial and it 
is, furthermore, simply not relevant to the purpose of the 
bill.
    Senator Murkowski. Well, you yourself have indicated that 
we, in fact, we have a congressional prohibition at this point 
in time on oil and gas exploration and drilling in the 1002 
area. So to suggest that I think this legislation opens the 
door for that, of course it makes it controversial, but when 
you have a congressional ban in place currently and unless we 
in Congress act to remove that, I think when you say it is 
controversial, yes, it is controversial because you are making 
it so. You are suggesting that somehow or other if we were to 
authorize this and enact this into law, that all of a sudden 
ANWR is now open. And I think we need to be careful about what 
we suggest the outcome of this legislation might present 
because I think it has been very clear, and it is not our 
intent with this legislation that this is somehow a back door 
to opening ANWR to oil and gas exploration and drilling. What 
we are doing here and the intent is very clear. We want to 
convey those final entitlements to the residents of Kaktovik as 
they are entitled to receive.
    So there are perhaps some concerns that have been generated 
about this legislation that I feel are not merited based on 
what we have in draft, the intent of the legislation, and I 
think it is important that we make sure that we do not 
unnecessarily raise an issue that simply should not be there.
    Mr. Bisson. Senator, could I say something for just a 
second?
    Senator Murkowski. Mr. Bisson.
    Mr. Bisson. The Arctic Slope Regional Corporation already 
owns 86,000 acres of mineral estate in the 1002 area of ANWR. 
They already own the mineral estate under the lands that the 
Village of Kaktovik has. All you are doing is adding 2,000 
additional acres to that ownership, which they are currently 
not able to explore, lease, or develop. So your point is 
correct.
    Senator Murkowski. We are fast upon the 5 o'clock hour. I 
appreciate the time and the attention. Thank you for coming, 
all of you, a long way. The subcommittee is going to be working 
on this to see if we cannot resolve those conflicts that might 
exist. We are going to be working on all four pieces. We have 
been focusing for the past hour really on the two Alaska bills, 
but we will be working on all four of them.
    We will hold the committee record open for 10 business days 
for any additional information that may need to be put in the 
files in relation to these three pieces. So we would welcome 
any follow-up from any of the panelists on this.
    With that, we will adjourn and thank you.
    [Whereupon, at 4:58 p.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                               Crook County, OR, February 11, 2004.
Hon. Larry Craig,
Chair, Senate Committee on Energy and Natural Resources, Subcommittee 
        on Forests and Public Land Management, Dirksen Building, 
        Washington, DC.

Re: Testimony regarding S. 1910, to be considered Feb. 12, 2004.

    Dear Mr. Chairman and members of the committee: On behalf of the 
people of Crook County, Oregon, I write today to commend you and the 
President for the leadership you have shown in recognizing the grave 
threat which the fuel-loaded forests of the western United States pose 
to human life and safety, public and private property and important 
scenic and environmental resources. Your bipartisan effort to advocate 
for and pass the Healthy Forests Restoration Act--the most significant 
legislation passed in this arena for 25 years--is an act of leadership 
and statesmanship which will have consequences for decades to come.
    As chief elected official for a county of nearly 3,000 square miles 
located in the heart of Oregon and surrounded by the sprawling national 
forests, I and my constituents have experienced first-hand the 
devastating effects of economic distress brought about by near-total 
elimination of our traditional economic based and resulting 
catastrophic wildfire, insect infestation and diseases. My constituents 
find it unconscionable the willingness of some to allow once 
magnificent forests of Ponderosa Pine to fall into ruin and decay, 
while we continue to experience a jobless rate which is among the 
highest in our state which ranks second overall in the nation in 
unemployment. It is also heart-wrenching for my constituents to travel 
through forests where many have recreated since childhood and encounter 
large stands of beetle-killed timber or scorched earth where mighty 
trees once stood. We join all Americans in enjoying the benefits of 
ancient forests, wildlife and clean water, and we are shocked that 
federal forest management policies as presently administered work to 
the detriment of these goals.
    We believe that the Health Forest Restoration Act is a necessary 
and proper first step toward correcting decades of mismanagement and we 
look forward to its implementation.
    In its original form--the form substantially passed by the Senate--
this legislation envisioned as a key piece a coordinating center which 
was intended to inventory forest health and coordinate recovery and 
management issues. That center was to be located in Prineville, Oregon, 
the county seat of Crook County, where it was envisioned that it would 
be attached to the Ochoco National Forest Headquarters. This component 
of the bill was strongly supported by Crook County but was dropped for 
good and sufficient reason when it was recognized by Congress that the 
bill, as passed by the Senate, was so laden with amendments that it was 
a budget buster. The ensuring decision to drop all miscellaneous 
provisions in order to pass the core legislation was a wise one for 
which negotiators are to be commended.
    Notwithstanding that necessary political step, however, we believe 
that one proposal dropped from the original legislation was highly 
germane to its purposed and that its reconstitution in legislation 
would greatly strengthen and enhance the original bill. That provision 
is the establishment of a Forest Research Center, now proposed in 
stand-alone legislation pending before the subcommittee, S. 1910.
    A companion measure, H.R. 3566, has been introduced in the House of 
Representatives by Rep. Greg Walden, who as author and principal 
sponsor of the Health Forest Initiative also recognizes the need for 
coordination in undoing the serious damage which has been done to our 
nation's natural resources. The bi-partisan, cross-Chamber support this 
legislation enjoys is testimony to the importance of this proposal.
    As chief-elected official for a nearly 3,000-square-mile county, 
nearly half of which is comprised of public lands, I have a high level 
of interest in seeing this bill succeed. For several summers now, 
extreme wildfires, including Hash Rock and Bandit Springs, have burned 
through the forest northeast of Prineville. The consequences to 
ecosystems were devastating and the forests are not expected to recover 
fully for at least a decade. Due to appeals, even the merchantable 
timber in these burned-over areas will not be harvested. (In one case, 
litigation was filed over a mere 55 trees.) The consequence of this is 
that the fires have had no positive impacts, environmentally or 
economically, for the community of Prineville--once a vibrant and 
thriving center of the American wood products industry.
    The result has been widespread suspicion that the federal 
government does not really have the best interests of the people of 
Central Oregon at heart. Under both Republican and Democratic 
leadership, we have seen our environment degraded and our traditional 
natural-resources based economy reduced to a mere ghost of its formerly 
vibrant self. Although we appreciate the federal support that has been 
provided through the Secure Rural Schools and Community Self 
Determination Act sponsored by Senators Wyden and Craig, it is quite 
frankly embarrassing to have to ask for and accept federal help when we 
have the means to help ourselves rotting in our forests just a few 
miles away.
    The proposed forest research center can help right the balance. Not 
only will it ensure efficient and effective coordination and allocation 
of scarce federal resources (apparently growing scarcer by the day) but 
it will also bring much-needed federal employment opportunities to a 
community which has been economically damaged by federal forest-
management policy of the last 25 years. In addition, by attaching the 
center to the Ochoco National Forest in Prineville, Congress can help 
assure the existence of critical mass needed to preserve the Ochoco, 
the resources of which have shrunk substantially in the face of 
stalemate and standoff related to lack of national consensus on timber 
harvest.
    In addition, the Ochoco is a logical forest in which to attach this 
center because it has long been noted for its expertise in fire and 
fuels management. Through a collaborative effort with the BLM and 
Oregon State Forestry (which also maintain headquarters in Prineville) 
the Ochoco oversees treatment of 35,000 acres per year of forest and 
range fuels. In addition, the Ochoco also does fire and fuels 
management planning for the Deschutes National Forest, headquartered in 
nearby Bend, Oregon. In total, the lands for which the Ochoco is 
responsible, including those controlled by the Ochoco, the Deschutes 
and the Bureau of Land Management total more than 4 millions acres 
scattered across a 12 million acre area. Experience with such a vast 
amount of land and varied ecosystems--including coniferous forest 
particularly prone to fuels build up and catastrophic wildfire--would 
be hard to duplicate elsewhere in the nation, making the Ochoco a 
logical entity to which to attach the proposed center. Finally, the 
Ochoco makes sense as the headquarters of a forest research center 
because of its pioneering work using technology--particularly GIS 
systems and remote-sensing--to conduct large-scale inventory and 
forest-health monitoring projects.
    In sum, simply by supporting S. 1910, you can accomplish numerous 
objectives:

  <bullet> You can contribute to the economic restoration of a 
        community which has been financially damaged by a federal land-
        management policy which has been at best confused and at worst 
        chaotic;
  <bullet> You can ensure the sustainable health of northwest forests, 
        an important environmental asset to clean water, clean air, 
        preservation of wildlife and recreation for all Americans;
  <bullet> You can ensure the optimal investment of federal resources 
        already committed to forest management through passage of the 
        Healthy Forest Restoration Act; and
  <bullet> You can build on an existing infrastructure well positioned 
        to serve the natural resource management needs of the nation.

    In my view, this is one of those rare ``win-win'' opportunities for 
the federal government and the constituency it serves, locally, 
regionally and nationally. I hope you will not let this opportunity go 
by and I urge you to support passage of S. 1910.
    Sincerely,
                                           Scott R. Cooper,
                                                Crook County Judge.
                                 ______
                                 
               Prineville-Crook County Chamber of Commerce,
                                 Prineville, OR, February 11, 2004.
Hon. Ron Wyden,
Hart Office Building, Washington DC.
    Dear Senator Wyden: I am submitting this testimony on behalf of the 
Prineville-Crook County Chamber of Commerce in support of passing the 
Senate wildfire legislation that will establish a forest health 
research center at the Ochoco National Forest headquarters, in Crook 
County, Oregon.
    Crook County is a historically timber based economy with deep ties 
to the Ochoco Forest. it is a logical site for a research center that 
would be responsible for evaluating forest health conditions, consider 
the ecological impacts of insect, disease, invasive species, and assess 
fire and weather-related events that would help reduce fire risk not 
only to Central Oregon but also to the Northwest forest area.
    Why site the Research Center in the Ochoco National Forest? For 
more than a decade, Crook County has weathered the closure of primary 
mills due to federal forest practices and the appeals process. As a 
result, our community has suffered double-digit unemployment from time 
to time, during the last decade as a result of those mill closures.
    In addition, two years ago, in a time of reduced federal budgets, 
our community successfully made a strong case to prevent our forest 
from becoming merged with the neighboring Deschutes National Forest, 
and we also retained our own Forest Supervisor. We proved that we could 
not and would not loose control of our forest that supported 50 jobs. 
We proved that we valued the community leadership and social capital 
that forest service employees provide our community. And we stood firm 
that the Ochoco Forest was qualitatively used differently from. the 
Deschutes National Forest and should be managed to reflect those 
differences.
    I point to these examples simply to demonstrate that the leadership 
in Crook County understands and values the economic and socio-cultural 
importance of the national forest to our community. It is with pride 
that I can also say, without hesitation, that the research center would 
be embraced and be supported by the community at large and by the 
business community. As you know, this type of community support is a 
critical factor in the success of a federal project.
    The research center would be a boost to Crook County's economy. 
Research centers generally demand an effective, educated workforce. The 
center would blend our roots with research and provide the 
diversification our economy has so desperately needed. These local 
research-based jobs are also models for our students in our high 
schools, encouraging them to pursue higher education.
    I also want to take this opportunity to acknowledge the unflagging 
support our community has received from Senator Wyden and from Rep. 
Greg Walden. Both Senator Wyden and Representative Walden understand 
the need for the research center, and also understand that placing the 
research center in Prineville would be a judicious decision.
    While they understand our economic need, they have always 
acknowledged our strengths: our skilled workforce, our strong work 
ethic, our affordable housing, our high quality of life and the fact 
that we have an established, cooperative relationship between the 
Forest Service, Bureau of Land Management, County and City Government 
and members of the timber sector of the business community. We have a 
strong framework in place in our community in which to launch a 
successful research center. We thank Senator Wyden and Rep. Walden for 
their leadership.
    We respectfully ask for your consideration. Specifically, we ask 
that you site and fund the Forest Research Center at the Ochoco 
National Forest in Prineville, Crook County, Oregon.

            Sincerely,
                                        Diane Bohle, Ph.D.,
                                                Executive Director.
                                 ______
                                 
                               National Mining Association,
                                 Washington, DC, February 12, 2004.
Hon. Larry Craig,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: The National Mining Association (NMA) would like 
to express its strong support for S. 1466, the Alaska Lands Transfer 
Act of 2003, sponsored by Senator Lisa Murkowski, with the amendments 
to the original version proposed on February 2, 2004. We ask that this 
letter be placed in the record of the hearing on this legislation 
scheduled in your subcommittee for February 12, 2004.
    NMA's membership of over 300 companies represents all mining 
industry segments including hardrock minerals and coal operators as 
well as equipment manufacturers and services providers. NMA is proud to 
represent a dynamic industry that is employing the latest technologies 
to produce the minerals, metals and energy that the United States needs 
for economic growth, national security, enhanced competitiveness and a 
rising standard of living for all Americans. The NMA membership 
includes companies making a significant contribution to the economy of 
Alaska.
    Mr. Steven C. Borell, Executive Director of the Alaska Miners 
Association, testified on this legislation at the subcommittee's field 
hearing in Alaska on August 6, 2003. NMA agrees with the Alaska Miners 
Association that Senator Murkowski's bill would streamline a number of 
land status issues which directly affect the State of Alaska's ability 
to obtain title to 104 million acres of Alaskan land for multiple uses, 
including mining of critically important minerals and metals.
    As proposed to be amended, S. 1466 removes public land orders 
associated with lingering withdrawals, the purposes of which have been 
fulfilled and thus the orders are no longer needed to be in force. The 
bill addresses these presently withdrawn lands without additional NEPA 
review and does so without impacting the existing authority of federal 
agencies such as the Bureau of Land Management to withdraw lands which 
are now opened. In addition, the bill provides proper priority to 
Native Americans, including village and regional corporations, during 
the land status review process.
    We commend Senator Murkowski for pursuing this legislation and for 
taking into account our views and those of the Alaska Miners 
Association as the bill is being refined. We believe her effort will 
help the U.S. to remain internationally competitive by lessening the 
uncertainty over land use restrictions in Alaska and it will serve to 
facilitate more exploration, investment and job opportunities in 
Alaska.

            Sincerely,
                                            Jack N. Gerard,
                                                 President and CEO.


</pre></body></html>
